<html>
<title> - UNITED STATES DEPARTMENT OF JUSTICE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  UNITED STATES DEPARTMENT OF JUSTICE

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 8, 2011

                               __________

                           Serial No. 112-123

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
71-602                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4126312e012234323529242d316f222e2c6f">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              

                            DECEMBER 8, 2011

                                                                   Page

                           OPENING STATEMENTS

The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Chairman, Committee on the Judiciary.......     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3
The Honorable Darrell E. Issa, a Representative in Congress from 
  the State of California, and Member, Committee on the Judiciary     4
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Member, Committee on 
  the Judiciary..................................................     9

                               WITNESSES

The Honorable Eric H. Holder, Jr., Attorney General, U.S. 
  Department of Justice
  Oral Testimony.................................................    11
  Prepared Statement.............................................    15

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Darrell E. Issa, a 
  Representative in Congress from the State of California, and 
  Member, Committee on the Judiciary.............................     5
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary
  List of opposition to H.R. 822, the ``National Right-to-Carry 
    Reciprocity Act of 2011''....................................    34
  Articles from the Washington Examiner and the Los Angeles Times    54

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Lamar Smith, a Representative 
  in Congress from the State of Texas, and Chairman, Committee on 
  the Judiciary..................................................   101
Response to Post-Hearing Questions from Judith C. Appelbaum, 
  Acting Assistant Attorney, General, Office of Legislative 
  Affairs, U.S. Department of Justice............................   103


                  UNITED STATES DEPARTMENT OF JUSTICE

                              ----------                              


                       THURSDAY, DECEMBER 8, 2011

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 9:37 a.m., in room 
2141, Rayburn House Office Building, the Honorable Lamar Smith 
(Chairman of the Committee) presiding.
    Present: Representatives Smith, Sensenbrenner, Coble, 
Gallegly, Goodlatte, Lungren, Chabot, Issa, Pence, King, 
Franks, Gohmert, Jordan, Poe, Chaffetz, Griffin, Marino, Gowdy, 
Ross, Adams, Quayle, Amodei, Conyers, Berman, Scott, Watt, 
Lofgren, Jackson Lee, Waters, Cohen, Johnson, Pierluisi, 
Quigley, Chu, Deutch, Sanchez and Polis.
    Also present: Representatives Schiff and Farenthold.
    Staff Present: (Majority) Crystal Jezierski, Counsel; 
Travis Norton, Counsel; Dave Lazar, Clerk; (Minority) Perry H. 
Apelbaum, Minority Staff Director and Chief Counsel; and Joe 
Graupensperger, Counsel.
    Mr. Smith. The Judiciary Committee will come to order. 
Without objection, the Chair is authorized to declare recesses 
of the Committee at any time.
    I am going to recognize myself for an opening statement; 
and then the Ranking Member, the gentleman from Michigan; then 
the gentleman from California Mr. Issa; then the gentleman from 
Virginia Mr. Scott, and we will proceed to hearing from the 
Attorney General.
    Attorney General Eric Holder appeared before the House 
Judiciary Committee last May, and we appreciate his willingness 
to appear today to address many issues, including questions 
about his previous testimony.
    While I am pleased to welcome back Attorney General Holder, 
I am disappointed in the Department's repeated refusal to 
cooperate with this Committee's oversight request. This lack of 
cooperation is evident in the Department's handling of 
inquiries related to the Bureau of Alcohol, Tobacco, Firearms 
and Explosives; Operation Fast and Furious; and the death of 
Border Patrol agent Brian Terry in December 2010. And 
inconsistent statements from the Department officials about who 
knew what and when have only raised more concerns.
    I am also disappointed in how the Department has responded 
to my oversight request regarding Justice Kagan's involvement 
in health care legislation and related litigation while she 
served as United States Solicitor General. Despite claims from 
Obama administration officials that then-Solicitor General 
Kagan was walled off from discussions regarding the President's 
health care law, recently released e-mails indicate there may 
be more to the story.
    On March 21, 2010, an e-mail from the Deputy Solicitor 
General forwarded to Solicitor General Kagan contained 
information about a meeting at the White House on the health 
care law and asked, ``I think you should go, No. I will 
regardless, but feel this is litigation of singular 
importance.'' Solicitor General Kagan responded by asking him 
for his phone number.
    We also know from the e-mails that she personally supported 
the legislation's passage. In a March 21, 2010, exchange with a 
Justice Department colleague discussing the health care 
legislation, Ms. Kagan exclaims, ``I hear they have the votes, 
Larry. Simply amazing.'' These e-mails reveal inconsistencies 
with the Administration's claims that then-Solicitor General 
Kagan was walled off from the issue.
    To help clear up any confusion, I wrote the Justice 
Department to get additional documents and conduct staff 
interviews. It took nearly 4 months before the Department sent 
a one-page response that denied my request. The Department did 
not assert any legal privilege over the requested information, 
but simply refused to comply with the request. That is not a 
sufficient answer.
    Health care legislation was passed by the Senate on 
December 24, 2009. On January 8, 2010, Ms. Kagan told the 
Deputy Solicitor General that she definitely would like the 
Office of the Solicitor General to be involved in preparations 
to defend against challenges to the pending health care 
proposals. Ms. Kagan found out she was being considered for a 
potential Supreme Court vacancy on March 5, 2010. So the issue 
is how involved was she in health care discussions between 
January 8 and March 5. Just as President Nixon had an 18 and a 
half minute gap, does Ms. Kagan have a 2-month gap?
    The Office of the Solicitor General is responsible for 
defending the positions of the Federal Government in litigation 
before the Supreme Court. So it was the duty of then-Solicitor 
General Kagan to participate in meetings and discussions 
regarding the legal defense strategy for the President's health 
care proposal. It would have been a surprising departure from 
her responsibilities for Solicitor General Kagan not to advise 
the Administration on the health care bill. The law clearly 
states that Justices must recuse themselves if they 
``participated as counsel, advisor or material witness 
concerning the proceeding, or expressed an opinion concerning 
the merits of the particular case'' while they worked in a 
government capacity.
    The public has a right to know the extent of Justice 
Kagan's involvement with the legislation as well as any 
previously stated legal opinions about the legislation while 
she served as Solicitor General. The NFL would not allow a team 
to officiate its own game. If Justice Kagan was part of the 
Administration's team that put the health care mandate into 
play, she should not officiate when it comes before the Supreme 
Court.
    If the Department has nothing to hide, why not provide 
Congress with the requested information? The continued refusal 
to cooperate with legitimate oversight inquiries only heightens 
concerns that she may, in fact, have a conflict of interest.
    President Obama has promised an open and transparent 
government. Unfortunately we often see a closed and secretive 
Justice Department.
    I know all Members of the Committee look forward to asking 
questions on these and other issues.
    I now recognize the gentleman from Michigan, the Ranking 
Member of the Judiciary Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Smith, and a hearty 
welcome to not only the Attorney General of the United States 
Eric Holder, but as well to a--well, this is the most numerous 
number of police chiefs and Department of Justice officials 
that I have seen in this room at one time in quite awhile. All 
of them, but particularly to the Detroit police chief Ralph 
Godbee who is here, I send a special welcome.
    Now, Chairman Smith, would it be appropriate that our 
colleague, a former Member of the Committee, Adam Schiff of 
California sit on the dais with us?
    Mr. Smith. Mr. Conyers, we normally don't do that, but in 
this case we would be very pleased to have the gentleman from 
California Mr. Schiff sit up at the dais with us. We do have a 
policy that non-Members of the Committee will not be able to 
ask questions, but we certainly welcome his presence up here.
    Mr. Conyers. I thank you for that courtesy.
    Adam, come on up.
    Mr. Smith. If he can find room.
    Mr. Conyers. There are two parts to my comments this 
morning, Members of the Committee. The first deals with what 
are the problems underlying the reason for the hearing, and the 
second deals more specifically with the career and 
contributions of the Attorney General of the United States. And 
I have the privilege of putting these solutions that I would 
like to you consider in my opening statement. We can go over 
the details ad nauseam if you would like, but I would refer 
everyone to the November 8, 2011, hearings in the United States 
Senate Committee on the Judiciary in which Chairman Pat Leahy 
with more than a dozen Senators on that Committee have plowed 
through this. And I have been going over and over it for the 
last couple days, but I think you want to have that as a basis 
for anybody that is particularly interested.
    Now, the problem of gun trafficking in the Southwest is a 
serious problem, and I recommend to my Judiciary Committee 
colleagues, with whom this whole subject matter is the 
jurisdiction of this Committee, that we commit to maintaining 
the new rule requiring the reporting of multiple sales of 
semiautomatic weapons and shotguns, rifles by individuals in 
the Southwest Border States. There have been a number of 
programs that have dealt with this subject, but I think that 
that is probably number one on my recommended list.
    Secondly, we must see to it that we confirm a Director of 
Alcohol, Tobacco & Firearms. It has been operating under Acting 
Directors for the last 5\1/2\ years. The Senate has failed to 
act on the nominations not only of the current President, but 
of President Bush as well. So if we are going to criticize ATF, 
I think we must work to revitalize it, not to tear it down, 
because it is too important a source of protection and a way of 
ending violence in this important part of our country.
    And last, we must enact some legislation to prohibit gun 
trafficking. The transfer of multiple guns when we know they 
will be transferred to those who are legally prohibited from 
carrying a gun or people who intend to use guns illegally must 
be further prohibited by legislative and congressional action. 
I commend our New York colleague Carolyn Maloney, who has 
sponsored a very good idea in this regard.
    And so I conclude, Mr. Chairman and Members, by telling you 
I have never encountered an Attorney General more dedicated and 
more professionally effective than the current occupant of that 
chair, Eric Holder, who has achieved impressive results across 
the full range of his mission, especially what has happened in 
the Civil Rights Division. And I think that the questions today 
here are appropriate. I think the hearing is fair. I think we 
have a Chairman that will make sure we proceed in a manner that 
will make us all proud that we attended and participated in 
this hearing today.
    But we also know that letting guns roam around this country 
is something that all of us have a great responsibility to make 
sure that that is diminished or comes to an end as soon as 
possible. And I thank you, Mr. Chairman, for this opportunity.
    Mr. Smith. Thank you, Mr. Conyers, for those comments.
    The gentleman from California, Chairman of the Oversight 
and Government Reform Committee, is recognized for an opening 
statement.
    Mr. Issa. Thank you, Mr. Chairman. And I would first like 
to ask unanimous consent that the following document be placed 
in the record. December 7, an article by Sharyl Attkisson 
entitled ``Documents: ATF used `Fast and Furious' to make the 
case for gun regulations.''
    Mr. Smith. Without objection, it will be made a part of the 
record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Issa. Thank you, Mr. Chairman. I thank you for holding 
this hearing. It is deja vu all over again. We are beginning 
the process of getting to the bottom, to the truth of Fast and 
Furious.
    I take exception to my colleague on the other side of the 
aisle Mr. Conyers. What is too important is the Second 
Amendment. The idea that regulations without any approval of 
Congress had been added to create databases in the Southern 
Southwestern States, including California, Arizona, Mexico--New 
Mexico--Texas and New Mexico, clearly shows, in fact, this 
Administration is more interested in building databases, more 
interested in talking about gun control than actually 
controlling the drugs and guns that they had control over. 
Whether it is money laundering, or, in fact, it is the flow of 
guns knowingly, just one individual was allowed to buy, under 
the auspices of the Justice Department, 700 weapons, knowing 
exactly who they were going to before they ever went.
    Our discovery, with the help of Senator Grassley, has shown 
that this was not an accident, and that this project was failed 
and flawed from the beginning. It is not just ATF, it is not 
just DEA; in fact, it includes the Department of Homeland 
Security in a task force that obviously did not respect the 
safeguards of the American people.
    Brian Terry is dead today, in my opinion, because of this 
failed program. But even today we will not hear Justice taking 
responsibility. They will instead talk about the two guns that 
were recovered. Yes, they were from Fast and Furious, but 
ballistics are inconclusive. And yet this Justice Department is 
not looking for a third weapon. They are not looking for who 
killed Brian Terry while they try to have the plausible 
deniability that Fast and Furious may not have been 
responsible. That is reprehensible to the family suffering 
under Brian Terry's needless murder.
    Mr. Chairman, Fast and Furious began in November 2009. It 
was a new operation building on a failed operation under the 
previous Administration. The difference in the previous 
Administration is there was coordination with the Mexican 
Government. They made a real effort under Wide Receiver to pass 
off a small amount of weapons and track them. This program, 
just the opposite; even knowing the drug cartels are going to 
receive them, they simply allowed them to go to the stash 
house.
    Mr. Attorney General, today I hope you will not point 
fingers and say that somehow this is not organic. There is 
nothing more organic that a law enforcement officer being 
gunned down because of a failure to protect within the 
Department of Justice. There is nothing more organic in 
Congress's responsibility than, in fact, following up on 
Congress being lied to. My Committee just next door was 
systematically lied to by your own representatives. There is a 
highly likelihood an individual was deliberately duped, but he 
was duped by people who still work for you today, still work 
for you today.
    The President has said he has full confidence in this 
Attorney General. I have no confidence in a President who has 
full confidence in an Attorney General who has, in fact, not 
terminated or dealt with the individuals, including key 
lieutenants, who from the very beginning had some knowledge and 
long before Brian Terry was gunned down knew enough to stop 
this program.
    There has been recrimination. There has been an attempt to 
find scapegoats. Many of the people who have been pointed to do 
share in the blame. But, Mr. Attorney General, the blame must 
go to your desk, and you must today take the real 
responsibility. Why haven't you terminated the many people 
involved? Why is it that we are still hearing about 
inconsistencies that don't even take the correct responsibility 
for Border Patrol agent Brian Terry's death? Those are the 
things we want to hear today.
    Mr. Attorney General, I respect the fact that you said in 
the Senate that you gave truthful testimony, but I would like 
to hear what--when a few days becomes a few weeks, or a few 
weeks becomes a few months, are we to have the confidence that 
the President says he has in you and the many people up and 
down the chain of command at Justice who saw this program, this 
operation and let it happen? And the many people who called 
your legislative affairs representative, who is sitting right 
behind you, caused him to bring false testimony to the 
Committee. It is unheard of for testimony--or for letters or 
testimony to be taken back. They have had to be taken back 
because of people who still worked for Justice.
    Mr. Chairman, I thank you for your indulgence, and I 
appreciate the opportunity to speak here and would ask that 
Blake Farenthold, a member of my Committee who has been 
intimately involved in the investigation, also be allowed to 
sit on the dais under the same terms as Mr. Schiff.
    Mr. Conyers. Is he a Member of Congress?
    Mr. Issa. He is a Member of Congress.
    Mr. Smith. Mr. Issa, thank you.
    Mr. Issa. He is a freshman from Texas. He is impacted by 
these gun control regulations. He is an attorney.
    Mr. Smith. I understand there is no room right now, but we 
will consider that request in just a minute. As much as I would 
like to have a Texas colleague up at the podium----
    Mr. Issa. You got a few, but he is a good one.
    Mr. Smith. He is not a former Member of the Judiciary 
Committee, though. We certainly appreciate his expertise on 
this subject. So let us wait until we have room, and we will 
take it up at that point.
    Mr. Issa. I thank the gentleman.
    Mr. Smith. The gentleman from Virginia Mr. Scott, the 
Ranking Member of the Crime Subcommittee, is recognized for an 
opening statement.
    Mr. Scott. Thank you, Mr. Chairman. And I join my 
colleagues in welcoming the Attorney General this morning. I 
understand that the invitation to the Attorney General to 
appear this morning specifically referenced gun trafficking in 
the southwest border, so today we have an opportunity to 
discuss with him the positive steps we must take to protect our 
citizens from illegal firearms.
    I am heartened that this Attorney General recognizes that 
the smartest and most effective way to protect ourselves from 
crime is to prevent it from occurring in the first place. With 
respect to preventing firearm violence, there are steps that we 
can take to reduce the toll of the injured and murdered. And 
there are steps that we must take in order to enhance the 
ability of law enforcement to effectively investigate gun 
crimes that have already occurred.
    I note, as it is often said around here, that the best 
strategy to use when you are in a hole is to stop digging. 
Unfortunately this Committee approved and the House passed a 
dangerous bill that would override the laws of almost every 
State by requiring each State to accept concealed handgun carry 
permits--concealed handgun carry permits from other States, 
even if the permit holder would not be allowed to carry or even 
posses a handgun in his home State or the State where he is 
traveling. Actions like this make the hole deeper and do not 
make us safer. We in Congress can best take the steps to help 
law enforcement prevent and investigate gun violence.
    Specifically with reference to the problem of gun 
trafficking on the southwest border, we know that the rule that 
went into effect in August requiring the reporting of multiple 
sales of certain assault weapons is an important tool to help 
law enforcement fight the straw purchasing that fuels gun 
trafficking. Unfortunately, while that rule was under 
consideration, 21 members of this Committee voted last February 
to prevent funds from being used to implement this important 
reporting requirement. If that measure had been included in the 
final version, the prohibition against that reporting 
requirement had been included in the final version of the bill, 
the ATF would not be receiving these reports today, and they 
would be denied information which is helping them investigate 
suspected straw purchasing.
    The ATF has an important role in protecting us from the 
dangers of illegal use and trafficking of firearms, the illegal 
use and storing of explosives, and acts of arson and bombing. 
We must make sure this agency is capable of fulfilling its 
important mission, and it needs strong leadership. In that 
light we need to encourage our Senate colleagues to confirm the 
President's nominee to be Director of the ATF.
    Finally, we have learned that we need to give prosecutors a 
critical additional tool to fight gun trafficking. For example, 
we need a statute that specifically prohibits the transfer of 
multiple firearms into the hands of those legally ineligible to 
possess them and to those who intend to use them to commit 
crimes. I hope this Committee will take action on legislation 
in this area in the near future.
    These are things we need to do to address the real problem, 
and those who want to focus on Operation Fast and Furious and 
gun-walking tactics that it employed, I will just note that 
these tactics originated in the ATF investigations under the 
Bush administration. And a November 16, 2007, memo refers to 
the fact that so-called gun walking was already occurring in 
the Bush administration. In contrast, there is no evidence that 
Attorney General Holder knew of these tactics while they were 
being used, and he should be praised for consistently saying 
that they were unacceptable and referring this matter to the 
inspector general soon after he learned about them.
    So I thank the Attorney General for appearing here today, 
and I look forward to his testimony.
    I yield back.
    Mr. Smith. Thank you, Mr. Scott.
    We are pleased to welcome today's witness, United States 
Attorney General Eric H. Holder, Jr. On February 3, 2009, 
Attorney General Holder was sworn in as the 82nd Attorney 
General of the United States.
    Attorney General Holder has enjoyed a long and 
distinguished career in public service. First joining the 
Department through the Attorney General's Honors Program in 
1976, he became one the Department's first attorneys to serve 
in the newly formed Public Integrity Section. He went on to 
serve as a judge of the Superior Court of the District of 
Columbia and a U.S. attorney for the District of Columbia.
    In 1997, Mr. Holder was named by President Clinton to be 
the Deputy Attorney General. Prior to becoming Attorney 
General, Mr. Holder was a litigation partner at Covington & 
Burling, LLP, in Washington, D.C.
    Mr. Holder, a native of New York City, is a graduate of 
Columbia University and Columbia Law School.
    Again, we welcome you and look forward to your testimony.
    Mr. Issa. Mr. Chairman? Mr. Chairman? I would move that the 
witness be sworn.
    Mr. Smith. I am going to ask that the gentleman withdraw 
that for two reasons. First of all, the Attorney General did 
receive a letter from the Committee reminding him of the need 
and, in effect, that he is testifying under oath. And two, we 
don't need to go through that necessarily because that is 
assumed by anybody who does testify before the Committee.
    Mr. Issa. Point of inquiry, Mr. Chairman. Isn't it true 
that a false statement to Congress bears a different criminal 
violation than a sworn statement?
    Mr. Smith. I believe the answer to that is yes.
    Mr. Issa. Then I would once again ask, since this Committee 
has at times sworn witnesses, as have all the Committees, that 
in light of----
    Mr. Smith. If the gentleman would yield.
    Mr. Issa. Of course.
    Mr. Smith. I misunderstood the question, and the answer was 
no. So it is deemed as if he is under oath right now, any 
witness.
    Mr. Issa. So he is exactly the same as if he swears under 
our rules.
    Mr. Smith. That is correct.
    Mr. Issa. Then I withdraw.
    Mr. Smith. Okay. I thank the gentleman.
    If the Attorney General will proceed.

   TESTIMONY OF THE HONORABLE ERIC H. HOLDER, JR., ATTORNEY 
              GENERAL, U.S. DEPARTMENT OF JUSTICE

    Attorney General Holder. Thank you, Mr. Chairman.
    Chairman Smith, Ranking Member Conyers and Members of the 
Committee, I appreciate the opportunity to appear before you 
today to describe the decisive action that we have taken to 
ensure that the flawed tactics used in Operation Fast and 
Furious and in earlier operations under the prior 
Administration are never repeated.
    For nearly 3 years I have been privileged to work with this 
Committee to strengthen national security and to strengthen law 
enforcement, and I am extremely proud of our record of 
achievement. In offices around the world, the Department's 
117,000 employees have made historic progress in protecting the 
American people from a range of unprecedented threats, from 
global terrorism and violent crime to financial fraud, human 
trafficking and more. We have disrupted numerous, potentially 
devastating terrorist plots and successfully prosecuted scores 
of dangerous terrorists.
    The Department's efforts on behalf of the most vulnerable 
among us, including victims of civil rights abuses and hate 
crimes, have never been more effective. The partnerships that 
we have built with State, local and tribal law enforcement 
officials have never been stronger.
    Today it is a privilege to be joined by several of our key 
public safety partners. These five police executives, Chief 
Fred Bealefeld of Baltimore, Commissioner Ed Davis of Boston, 
Chief Rodney Monroe of Charlotte, Chief Ralph Godbee of 
Detroit, and Commissioner Charles Ramsey of Philadelphia, have 
been leaders in developing and implementing innovative and 
effective crime-prevention strategies. They have also worked 
closely with the Department in advancing critical efforts to 
reverse the alarming rise in law enforcement fatalities in 
recent years.
    The work that we do along the southwest border is 
influenced by the efforts that they have undertaken in their 
own cities. In the cities that they serve and in communities 
across the country, this work is a priority. And in our ongoing 
efforts to protect the American people and our brave law 
enforcement personnel, a critical area of focus will continue 
to be our battle against gun violence on the southwest border.
    Now, in recent years the Department has devoted significant 
resources to this fight, and specifically to addressing the 
unacceptable rate of illegal firearms trafficking from the 
United States to Mexico. Unfortunately, in the pursuit of that 
laudable goal, unacceptable tactics were adopted as part of 
Operation Fast and Furious.
    Now, as I have repeatedly stated, allowing guns to walk, 
whether in this Administration or the prior one, is wholly 
unacceptable. The use of this misguided tactic is inexcusable, 
and it must never happen again.
    Soon after learning about the allegations raised by ATF 
agents involved with Fast and Furious, I took action designed 
to ensure accountability. In February, I asked the Department's 
acting inspector general to investigate the matter, and in 
early March I ordered that a directive be sent to law 
enforcement agents and prosecutors prohibiting such tactics. 
More recently the new Acting Director of ATF Todd Jones 
implemented reforms to prevent these tactics from being used in 
the future, including training and stricter oversight 
procedures for all significant investigations.
    Now, although the Department has taken steps to ensure that 
such tactics are never used again, it is an unfortunate reality 
that we will continue to feel the effects of this flawed 
operation for years to come. Guns lost during this operation 
will continue to show up at crime scenes on both sides of the 
border.
    As we work to identify where errors occurred and to ensure 
that these mistakes never happen again, we must not lose sight 
of the critical challenge that this flawed operation has 
highlighted, and that is the battle to stop the flow of guns to 
Mexico. Of the nearly 94,000 guns that have been recovered and 
traced in Mexico in the last 5 years, more than 64,000 were 
sourced to the United States. During this time the trafficking 
of firearms across our southwest border has contributed to 
approximately 40,00 deaths in Mexico.
    Now, the reforms that we have undertaken do not make any of 
the losses of life more bearable for grieving families. These 
tragedies do, however, portray in very stark terms the 
exceptionally difficult challenges that law enforcement 
agencies confront every day in working to disrupt illegal 
firearms transfers. Operation Fast and Furious appears to have 
been a deeply flawed effort to respond to these very 
challenges.
    As we work to avoid future losses and further mistakes, it 
is unfortunate that some have used inflammatory and 
inappropriate rhetoric about one particular tragedy that 
occurred near the southwest border in an effort to score 
political points. Nearly 1 year ago, while working to protect 
his fellow citizens, U.S. Customs and Border Protection agent 
Brian Terry was violently murdered in Arizona. We all should 
feel outrage about his death. And as I have communicated 
directly to Agent Terry's family, we are dedicated to pursuing 
justice on his behalf.
    The Department is also working to answer questions that the 
Terry family has raised, including whether and how firearms 
connected to Fast and Furious end up with Mexican drug cartels. 
In her independent review I expect the Department's acting 
inspector general to answer these questions.
    I understand that Congress also wants answers. Justice 
Department employees have been working tirelessly to identify, 
to locate and to provide relevant information to this Committee 
and to the two other Committees that are investigating Fast and 
Furious, all while preserving the integrity of our ongoing 
criminal investigations and prosecutions.
    The Department has been fully cooperative and responsive in 
its dealings with this Congress. I have answered questions in 
the House and the Senate on four occasions concerning this 
matter. To date we have provided almost 5,000 pages of 
documents for congressional investigators to review. We have 
scheduled numerous witness interviews and testified at public 
hearings. Just last week we provided an unprecedented access to 
internal deliberative documents to explain how inaccurate 
information was initially conveyed to Congress.
    Now, these documents demonstrate Justice Department 
personnel relied on information provided by supervisors from 
the components in the best position to know the relevant facts. 
We now know that some information provided by those supervisors 
was inaccurate. I understand that in subsequent interviews with 
congressional investigators, these supervisors have stated that 
they did not know at the time that information provided in the 
letter to congressional leaders earlier this year was 
inaccurate.
    The documents produced to date also belie the remarkable 
notion that this operation was conceived by Department leaders, 
as some have claimed. It is my understanding that Department 
leaders were not informed about the in appropriate tactics 
employed in this operation until those tactics were made public 
and, as is customary, turned to those with supervisory 
responsibility over the operation in an effort to learn facts.
    But what is clear is that disrupting the dangerous flow of 
firearms along the southwest border and putting an end to the 
violence that has claimed far too many lives is, and will 
continue to be, a top priority for this Department of Justice. 
This year alone we have led successful investigation into the 
murders of United States citizens in Mexico, created new 
cartel-targeting prosecutorial units, and secured the 
extradition of more than 100 defendants wanted by the United 
States law enforcement, including the former head of the 
Tijuana cartel.
    We have also built crime-fighting capacity on both sides of 
the border by developing new procedures. We are using evidence 
gathered in Mexico to prosecute gun traffickers in U.S. courts 
by training thousands of Mexican prosecutors and investigators, 
by successfully fighting to enhancing sentencing guidelines for 
convicted traffickers and straw purchasers, and by pursuing 
coordinated multidistrict investigations of gun-trafficking 
rings.
    Now, despite this progress we have more to do. Each of us 
has a duty to act and to rise above partisan divisions and 
politically motivated ``gotcha'' games. The American people 
deserve better. It is time for a new dialog about these 
important issues, one that is respectful, responsible and 
factual. This will require us to apply the lessons that we have 
learned from law enforcement officers like the ones who sit 
behind me today, who protect public safety and our national 
security every day.
    In that regard not only did ATF agents bring the 
inappropriate and misguided tactics of Operation Fast and 
Furious to light, they also sounded the alarm for more 
effective laws to combat gun trafficking and improve public 
safety. The ATF agents who testified before the House Committee 
on Oversight and Government Reform this summer explained that 
the agency's ability to stem the flow of guns from the United 
States into Mexico suffers from a lack of effective enforcement 
tools.
    One critical first step should be for Congress to provide 
ATF with the tools and the authorities that it needs. 
Unfortunately, earlier this year the majority of House Members 
voted to keep law enforcement in the dark when individuals 
purchase multiple semiautomatic rifles, shotguns and long guns 
like AK-47s in gun shops in four Southwest Border States.
    Going forward, I hope that we can work together to provide 
law enforcement agents with the tools that they desperately 
need to protect the country and to ensure their own safety. And 
for their sake we cannot afford to allow the tragic mistakes of 
Operation Fast and Furious to become a political sideshow or a 
series of media opportunities. Instead we must move forward and 
recommit ourselves to shared public safety obligations. I am 
willing to work with you in this effort.
    I look forward to your questions.
    Mr. Smith. Thank you, Mr. Attorney General.
    [The prepared statement of Mr. Holder follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Smith. Other Members are going to ask you about Fast 
and Furious, so I am going to pick a different subject and ask 
you about the extent of Justice Kagan's involvement with the 
health care legislation.
    My first question is this: To your knowledge, did then-
Solicitor General Kagan ever give advice or express an opinion 
on legal or constitutional issues involving the health care 
legislation?
    Attorney General Holder. I do not believe so. In fact, as I 
testified in the Senate last month, I guess, we took steps to 
physically exclude or have her remove what conversations----
    Mr. Smith. What month did that take place? When did you 
start excluding her from those types of meetings?
    Attorney General Holder. I am not sure when that started, 
but my memory is that whenever we had conversations about the 
health care bill, then-Solicitor General Kagan was not present.
    Mr. Smith. And the reason for excluding her was because of 
her possible consideration for the Supreme Court?
    Attorney General Holder. Yeah, I think that is right. We 
understood that that was a possibility.
    Mr. Smith. She testified that she first became aware of 
that possibility that she might be considered in early March, 
so you would not have excluded her prior to early March.
    Attorney General Holder. Again, I don't know exactly when 
these events occurred, but I do feel comfortable in saying that 
in terms of conversations that occurred in my conference room 
about the health care legislation----
    Mr. Smith. Right, right. But would you have had any reason 
to exclude her, any reason to wall her off in the words that 
you were told by a deputy prior to the time that she was 
considered for the Supreme Court?
    Attorney General Holder. Well, I can tell you that with 
regard to, as I said, the conversations that occurred in my 
conference room about the health care bill, I do not remember 
her being present for any of them.
    Mr. Smith. Okay. Would you be able to check your records to 
find out what the date would have been when you started telling 
her that she should either excuse or recuse herself from those 
discussions?
    Attorney General Holder. We will attempt to do that. I am 
not sure that that information exists anyplace, but to the 
extent that it does, I will provide it to you.
    Mr. Smith. Okay. And would you have a record of any 
meetings, because of your schedule, that she attended?
    Attorney General Holder. Would I have a record?
    Mr. Smith. Right, of any meeting that she attended. Because 
if you went back and looked at your schedule, I assume that 
that would be on your schedule.
    Attorney General Holder. Yeah. The schedule for what is our 
9/15 meeting lists the people who are expected to be there. I 
am not sure if we actually keep track of who actually does 
come.
    Mr. Smith. If you will give me the dates when you started 
telling her that. Again, I don't believe you would have any 
reason to exclude her before she was being considered for the 
Supreme Court vacancy. And as I mentioned in my opening 
statement, she would actually have a duty to be involved in 
conversations regarding the health care bill.
    Let me go to another question. This goes to some of the 
correspondence that I had written you asking for documents and 
to be allowed to interview both present and former staff 
members. But is the Department asserting a legal privilege in 
refusing to comply with my request for those documents and 
those interviews about then-Solicitor General Kagan's 
involvement with the health care legislation?
    Attorney General Holder. Well----
    Mr. Smith. You know your letter to me did not assert any 
legal privilege.
    Attorney General Holder. Yeah. The Department has released 
documents under FOIA relating to this matter, and those 
documents are certainly available to Members of the Committee. 
The documents that we have released are consistent with----
    Mr. Smith. I am not asking about the documents. Are you 
asserting a legal privilege; is that why you are refusing to 
give me those documents?
    Attorney General Holder. Well, it is our view that in terms 
of trying to determine the answers to the questions that you 
have, that with regard to recusal questions, those are requests 
best brought by those who were involved in the context of the 
litigation.
    Mr. Smith. Right. So you are not asserting any legal 
privilege.
    Attorney General Holder. Well, there are, it seems to me, 
separation of powers concerns given the fact that Members of 
Congress are amici--amicus, amici in the ongoing legislation, 
and so I would have concerns there with regard to separation of 
powers.
    Mr. Smith. What would be the legal privilege you are 
asserting if you assert one then?
    Attorney General Holder. Well, all I am saying is that with 
regard to the information that is requested, it has been 
provided.
    Mr. Smith. Okay. So again, you are not asserting a legal 
privilege. Is there any reason, therefore, I should not get the 
documents or be able to interview the individuals that I 
requested to interview?
    Attorney General Holder. Well, as I have said, that the 
Federal law provides for the resolution of these recusal 
questions, and each Justice has to make those kinds of----
    Mr. Smith. Right. I am not taking about recusal questions 
or what a Supreme Court Justice might or might not do. I am 
talking about my request for documents. I can't imagine any 
good reason why you would withhold them, unless you were to 
assert a legal privilege, and then we could discuss a legal 
privilege. But I haven't heard you say you are asserting any 
legal privilege.
    Attorney General Holder. Well, the documents I think that 
you have requested have essentially been released under a FOIA 
that has been filed, and those documents are available.
    Mr. Smith. No, the documents that I requested may or may 
not have been released. That is what we are trying to find out 
is what other documents might exist. We also requested to 
interview two individuals, and you have not agreed to let us 
interview those individuals. But if you are not asserting a 
legal privilege, then I will move forward with scheduling those 
interviews and look forward to the documents.
    Attorney General Holder. Well, we have not expressed, I 
guess, at this point a legal privilege. What we have expressed, 
as I indicated before, are constitutional concerns about the 
nature of the request.
    Mr. Smith. I know, but concerns don't rise to the level of 
a legal privilege. We all have concerns about a lot of 
subjects. I have expressed some of my concerns today. But if 
you are not going to assert a legal privilege, then I don't see 
any reason why I shouldn't get those documents and conduct 
those interviews. Thank you for that.
    The gentleman from Michigan Mr. Conyers is recognized for 
his questions.
    Mr. Conyers. Thank you, Mr. Chairman.
    You have got here Chief Ralph Godbee, lots of other police 
chiefs and law enforcement people behind you. Would you tell us 
how you partner with them to fight violent crime and 
particularly gun running with State and local police officers 
who are on the front lines, sir?
    Attorney General Holder. Well, the gentlemen who sit behind 
me and the people who they represent are essential partners in 
our fight against violent crime generally and against gun 
violence in particular.
    The Federal Government relies on our State and local 
partners, who are obviously in the front lines in this fight. 
We try to support them in ways that we can, we try to come up 
with programs that protect their lives, but the reality is that 
in coming up with--and that is why I think these five gentlemen 
are so good to have here today. They are the ones who have come 
up with really innovative programs that we have tried to 
support and then tried to expand across the Nation. They are, 
first and foremost, great partners in this fight, and what they 
are doing in their cities are things that we are trying to 
replicate not only in other cities, but in the work that we are 
doing along the southwest border as well.
    Mr. Conyers. Thank you.
    Tell me where is the Mexican Government in all of this gun 
running, and violence, and drug epidemics that goes on that 
usually starts in Mexico, but eventually gets to the U.S. and 
Southwest area? What is the Mexican Government's role and 
attitude? How do you work with them?
    Attorney General Holder. They have also been good partners. 
President Calderon has, I think very courageously, committed 
his government to fight the cartels. He has done so in a way 
that has done, I think, at great political cost. It has 
certainly cost the lives of many Mexican law enforcement 
officials who have been a part of this battle. Forty thousand 
people in Mexico have lost their lives over the course of the 
last 5 years in connection with this fight.
    The Mexican Government is committed to eradicating the 
cartels. We have worked with them in unprecedented ways in 
terms of extraditing people to the United States in 
cooperation, in sharing intelligence, and working with vetted 
units in Mexico. We have moved resources to the southwest 
border and have linked up with task forces with our Mexican 
partners.
    So our interaction with the Mexican Government in dealing 
with these cartels is really unprecedented.
    Mr. Conyers. Well, I mentioned several things that we 
really ought to do in terms of getting on top of not just the 
drug--the gun smuggling and gun walking, but the drug problem 
as well. And you are our chief law enforcement officer in the 
Nation. I know you are relying on State and local law 
enforcement as well, but what are the big issues? What is the 
big picture in terms of what it is we might want to consider in 
the Congress to help get on top of this and to help you and the 
Department of Justice get on top of not only the drugs, but the 
guns as well?
    Attorney General Holder. Well, I think there are certain 
things that would be very helpful. There is no gun-trafficking 
statute now or even an express prohibition on straw purchasing. 
If Congress would consider legislation in that regard, I think 
that would be--that would be good. We have to rely now on 
paperwork violations to try to get at gun traffickers, and the 
sentences that are typically given for those kinds of technical 
violations are far too low for the serious nature of the 
crimes.
    It is far too easy for criminals to get their hands on 
weapons. Congressional support for the regulation that we put 
in place along those--in those four Border States to deal with 
the long guns, the long guns that can be purchased there, a 
regulation that is consistent with what we already do with 
regard to handguns is something that congressional support 
would be important for.
    So the possibility of having ways in which we could have a 
good dialogue about effective measures that would reduce the 
flow of guns to Mexico, make this Nation more safe, protect the 
lives of people in law enforcement in this country, and respect 
the Second Amendment at the same time is something that I think 
a meaningful good dialogue with Members of the Committee would 
be very productive.
    Mr. Conyers. I am glad you mentioned the Second Amendment 
so that my friend and colleague Darrell Issa won't be nervous 
about the other strategies that you will be using.
    Mr. Issa. I will still be nervous.
    Mr. Conyers. I thank you very much, General Holder, and I 
return the balance of my time.
    Mr. Smith. Thank you, Mr. Conyers.
    The gentleman from Wisconsin Mr. Sensenbrenner is 
recognized for his questions.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    Mr. Holder, I deeply appreciate your coming here to talk 
largely about Fast and Furious, and the way this has been 
handled within the Justice Department, I think, has put the 
Justice Department as an institution under a cloud that has not 
been exceeded since the infamous COINTELPRO scandal of the 
1970's.
    You are at the top of the Justice Department. Do you think 
the buck stops with you?
    Attorney General Holder. I am ultimately responsible for 
all of the actions that occur within the Department, but I 
think as you look at what happened with regard to Fast and 
Furious and try to decide what kind of performance I have done 
in this regard, I think you have to look at what happened, what 
I did once I learned of these matters.
    Mr. Sensenbrenner. Well, that is a question of when you 
learned it, because there have been inconsistent submissions to 
Congress. You know, you yourself testified that you had only 
heard about it a few weeks earlier, and then in November you 
said it probably was a few months. As late as October 7, in 
response to allegations that you lied on May 3, you wrote to 
Congress your statements on Fast and Furious have been, quote, 
``truthful and consistent.'' And then your underlings on 
February 4, Assistant AG Ronald Weich, responded to Senator 
Grassley denying that the ATF had walked guns, and that letter 
ended up being withdrawn.
    As Mr. Issa has said, lying to Congress is a Federal 
felony. You know, I don't want to say that you have committed a 
felony, Mr. Attorney General, but obviously there have been 
statements so misleading that a letter had to be withdrawn.
    You know, I think that some heads should roll. And I do 
agree with Senator Grassley that Assistant Attorney General for 
the Criminal Division Lanny Breuer should be fired. And I know 
that that decision is not yours, but it is the President's, but 
I think that merely getting the head of the ATF Director at the 
time is not sufficient since it is obvious that there was 
knowledge within the Justice Department.
    What are you going to do to clean up this mess?
    Attorney General Holder. Well, first let me make something 
very clear, and in response to an assertion that you made, or 
hinted at, nobody in the Justice Department has lied.
    Mr. Sensenbrenner. Then why was the letter withdrawn?
    Attorney General Holder. The letter was withdrawn because 
there is information in there that was inaccurate. The Justice 
Department letter of February 4----
    Mr. Sensenbrenner. Okay. Well, tell me what is the 
difference between lying and misleading Congress in this 
context.
    Attorney General Holder. Well, if you want to have this 
legal conversation, it all has to do with your state of mind 
and whether or not you had the requisite intent to come up with 
something that can be considered perjury or a lie.
    The information that was provided in that February 4 letter 
was gleaned by the people who drafted the letter after they 
interacted with people who they thought were in the best 
position to have the information.
    Mr. Sensenbrenner. Well, okay. The wagons down the street 
are in a pretty tight circle, you know, Mr. Attorney General. 
The American people need the truth. They haven't gotten the 
truth from what has been coming out of the Justice Department 
in the last year, and they were relying on Congress to get the 
truth. Now, you are here today, and, again, I appreciate your 
being here today as a way to get the truth, but the answers 
that you have given so far are basically saying, well, gee, 
somebody else did it, and, you know, there is really no 
responsibility within the Justice Department.
    You know, the thing is is that if we don't get to the 
bottom of this, and that requires your assistance on that, 
there is only one alternative that Congress has, and it is 
called impeachment, where our subpoena powers are plenary, and 
there can't be any type of legal immunity or privilege that can 
be asserted on that. Now, you know, I have done more 
impeachments than anybody else in the history of the country. 
It is an expensive and messy affair, and I don't want to go 
this far, but if we keep getting pushed down the road, and the 
can keeps on getting kicked, and we don't get closure to this, 
what is Congress to do so that we don't spend all of our time 
in court arguing privilege, which is not a way to get at the 
truth?
    Attorney General Holder. Well, the Justice Department has 
released facts, and I think that is what we need to focus on, 
facts. As part of the creation of the February 4 letter, I made 
the determination that we would release things that a Justice 
Department has never, ever released before, deliberative--core 
deliberative material about how that letter was put together, 
information that clearly could have been withheld and has 
always been withheld by my predecessors, and I expect by my 
successors as well.
    Getting to the bottom of this is something that we all want 
to do. The inspector general, pursuant to my request, is 
conducting an investigation of this matter, and I suspect we 
will have a great many more answers than we presently do. I 
don't have the ability to do a top-to-bottom investigation at 
this point out of deference to the investigation that is being 
done by the inspector general. That does not, however, preclude 
me from taking action that I think appropriate based on 
information that comes to my attention in spite of the fact 
that the inspector general has an ongoing investigation.
    Mr. Sensenbrenner. Well, you won't have an independent 
counsel, and we end up having the Justice Department 
investigating itself in the absence of an independent counsel. 
And, you know, having gone through interminable hearings on 
COINTELPRO, with all due respect, Mr. Attorney General, you 
have got to get this done much more quickly than plugging the 
holes that COINTELPRO ended up showing existed in the 
Department at that time.
    I yield back.
    Ms. Jackson Lee. Mr. Chairman, I have a parliamentary 
inquiry.
    Mr. Smith. For what reason what does the gentlewoman from 
Texas seek to be----
    Ms. Jackson Lee. I seek clarification. The gentleman in his 
questioning indicated impeachment. I was not sure which 
official or which person he was speaking of in terms of 
impeachment.
    Mr. Smith. The gentleman from Wisconsin was referring to 
the fact that while he was Chairman of this Committee, he 
oversaw the impeachment process.
    Ms. Jackson Lee. Continuing my inquiry. The statement that 
the only one alternative is impeachment, I am trying to----
    Mr. Smith. That is not a parliamentary inquiry.
    The gentleman from California Mr. Berman is recognized.
    Ms. Jackson Lee. Clarification.
    Mr. Berman. Thank you, Mr. Chairman. I would like to yield 
a little time to the Ranking Member on this issue.
    Mr. Conyers. Thank you, Howard Berman.
    I merely wanted to clear the record with Jim Sensenbrenner. 
I have had far more impeachment experience than he has.
    Mr. Sensenbrenner. Would the gentleman yield?
    Mr. Berman. The answer is only if the Chairman allows my 
time to be extended.
    Mr. Smith. The gentleman from California recognized for a 
full 5 minutes, that is correct.
    Mr. Berman. Thank you, Mr. Chairman.
    We have heard a lot, some of it quite unbelievably 
overblown. I would like to give you some of the truth as I see 
it.
    You are on record as admitting that the Fast and Furious 
program was a fundamentally flawed program. Fast and Furious is 
only one program in many undertaken by the U.S. law enforcement 
authorities not only to limit the harm of illegal gun 
trafficking, but also, most importantly, achieve the broader 
goal of protecting U.S. and Mexican citizens.
    There has got to be a little perspective on what is going 
on in the U.S.-Mexico relationship on this issue. Once 
President Calderon made the historic decision to take the fight 
directly to the drug cartels, law enforcement both in Mexico 
and the United States became more complicated and more 
dangerous. And the fact is--and I see it from a Foreign Affairs 
Committee perspective as well as from this perspective--that 
U.S.-Mexico law enforcement cooperation and general cooperation 
is wider and deeper today than it has ever been in the history 
of our two nations.
    The Department of Justice has apprehended and extradited an 
unprecedented number of criminals, including some of the most 
dangerous cartel leaders. They have successfully investigated 
violent crimes committed against American nationals in Mexico 
and along the border. They have trained hundreds of Mexican 
prosecutors and police officers, many of whom work side by side 
with U.S. counterparts on these shared goals. The level of 
intelligence sharing and cooperation is unprecedented at this 
particular time.
    We also have to acknowledge the negative impact caused by 
the significant stream of guns going into Mexico from the 
United States. Every day thousands of guns are smuggled across 
the United States border into Mexico, making citizens of Mexico 
and the United States less safe. The U.S. Southwest Border 
States, Texas, New Mexico, Arizona and California, are the top 
four source locations for firearms received and traced in 
Mexico back to the United States.
    General Holder, I am wondering if you could develop--I 
think you got into this a little bit with Ranking Member 
Conyers--what could the Congress be doing in terms of funding, 
in terms of passing laws to help make this a successful 
endeavor? I would like you to just expand on some of those 
specific issues. Are we giving you the resources you need to 
make this cooperation produce the goal that both countries' 
governments share?
    Attorney General Holder. Well, frankly, no.
    We have sought additional legislative enhancements to our 
abilities to deal with the gun trafficking problem, as I 
indicated to the Ranking Member. We have also sought funds to 
increase the number of ATF agents who operate in these teams 
along the Southwest border. I think we requested funds so that 
we would have 14 of these teams. That number was reduced, based 
on the funding level that we got, to about seven or eight, I 
believe, which decreased our ability to act or interact 
effectively or as effectively as we might with our Mexican 
counterparts.
    So there are funding issues, there are issues with regard 
to the confirmation of an ATF Director, a permanent ATF 
Director. There are legislative statutory tools that we could 
use from Congress and that we have proposed. All of these 
things would help us in our fight against the gun trafficking 
problem that you have I think so rightfully identified.
    Mr. Berman. The only thing I guess I would just close with 
the simple statement that as we pursue responsibly our 
oversight responsibilities on a program that you have stated 
was fundamentally flawed, that we keep in mind our obligations 
as a Congress to help something that I think there is a broad 
consensus must continue, must expand, and must achieve the 
goals that our two governments are committed to, and to have 
some perspective on what is going on. That perspective seems to 
have been lost in some of the rhetoric that has come in recent 
months.
    Mr. Issa. Would the gentleman yield?
    Mr. Berman. I yield back.
    Mr. Issa. Would the gentleman yield?
    Mr. Berman. Do I have time to yield?
    Mr. Issa. You do.
    Mr. Smith. The gentleman has 5 seconds left.
    Mr. Berman. I yield.
    Mr. Issa. I would just make the point that Fast and Furious 
is not a program. We have been repeatedly told it is less than 
a program; it is just an operation, just an operation.
    Mr. Smith. The gentleman is recognized for an additional 30 
seconds.
    Mr. Berman. I take your point. I just don't quite 
understand it.
    Mr. Issa. Just that when we try to----
    Mr. Smith. The gentleman from California has the time.
    Mr. Issa. Would the gentleman continue to yield?
    I thank the gentleman. The point that I am making is there 
is a wide question of a lot of things that go on at Justice. 
And I agree with the gentleman that we need to look at the 
overall management of Justice. But this small operation and the 
refusal to give us the truth early on has caused it to be a 
bigger----
    Mr. Berman. I appreciate the time. I also would love to 
hear about Congress' agenda to make this cooperation truly as 
effective as it could be, funding, the legislation regarding 
the paper trail on guns and all the other things that the 
General mentioned that we should be doing.
    Mr. Smith. Thank you, Mr. Berman.
    The Judiciary Committee will stand in recess until 
immediately after this series of four votes. I do not expect to 
take a lunch break. So when we return, we will proceed until 
the next series of votes, about 1:15. We stand in recess until 
after these votes.
    [Recess.]
    Mr. Smith. The Judiciary Committee will come to order. And 
the gentleman from North Carolina, Mr. Coble, is recognized for 
his questions.
    Mr. Coble. Thank you, Mr. Chairman.
    Good morning, General.
    Attorney General Holder. Good morning.
    Mr. Coble. General, the FBI, as you know, operates under 
Attorney General guidelines for most or all of their 
investigative activities. The objective of these guidelines is 
the full utilization of all authorities in investigative 
matters consistent with the Constitution and the laws of the 
United States. It furthermore ensures that activities must be 
lawful and reasonable, and respect liberty and privacy, and 
avoid unnecessary intrusion into the lives of law-abiding 
citizens. They enable the FBI to perform its duties with 
effectiveness, certainty, and confidence. The purpose of these 
guidelines, though it appears apparent, is to establish 
consistent policies in such matters. General, does the ATF and/
or other Department of Justice law enforcement components 
operate under these guidelines?
    Attorney General Holder. There are general guidelines that 
exist within the Department and that control the activities of 
the various investigative agencies that are part of the 
Department, the Marshals Service the DEA, the ATF, and the FBI. 
There might be some that apply specifically to the FBI given 
its unique mission with regard to counterterrorism and 
intelligence that might not apply to the other components.
    Mr. Coble. I think you may have already answered this one, 
but are the guidelines identical investigative activities, or 
may one agency do something that another cannot do under 
similar circumstances? And if they differ, how do they differ 
from the guidelines under which the FBI operates?
    Attorney General Holder. There are general guidelines that 
handle or control the way in which investigations are to occur. 
For instance, if we are looking at Fast and Furious, those were 
outside the guidelines certainly that apply to ATF, but they 
would also be outside the guidelines that would apply to the 
Drug Enforcement Administration, to the FBI as well. One of the 
things that we have tried to do in this reform of ATF, and 
under the leadership of Todd Jones, is come up with a whole set 
of new policy changes and recommendation--and rules with 
regards to how ATF itself can handle and conduct certain 
investigations.
    Mr. Coble. General, if I would have had two words to 
describe Fast and Furious, it would be reckless at best, and a 
disaster at worst. But firearms, I am told, sold under the Fast 
and Furious program were included in ATF statistics on the 
retail sale of firearms and related regulations. Now that we 
know that ATF apparently skewed the statistics, particularly 
about long gun sales, will these statistics be scrapped or 
abandoned?
    Attorney General Holder. I don't if that in fact is true, 
but the 2,000 weapons or so that were involved in Fast and 
Furious should not be counted as part of that overall number. 
And to the extent that that is true, we would pull--I don't 
know if that is true or not.
    Mr. Coble. General, have you implemented any policy to end 
programs such as Fast and Furious? And these changes, are they 
permanent or temporary?
    Attorney General Holder. Well, as I said, in addition to 
the things that Todd Jones has put in place that deals with 
certainly the problems that are I think most egregious about 
ATF, he talks about the way in which surveillance has to occur 
when you are monitoring trafficking, gun trafficking 
operations, I released in March of this year a field directive 
through the Deputy Attorney General that indicated that gun 
walking, as we have come to call that practice, is prohibited, 
and made sure that every agent in the Justice Department, every 
prosecutor in the Justice Department understands that. So it is 
clear that gun walking is not acceptable, was never acceptable, 
but is certainly not acceptable after my policy pronouncement 
in March of this year.
    Mr. Coble. General Holder, earlier this year, August, I 
believe, you named Todd Jones as the new director of ATF. This 
appears irregular because he currently continues to serve as 
U.S. Attorney for that area in Minnesota, while at the same 
time--he is wearing two hats, in other words. Am I missing the 
mark, or is this irregular?
    Attorney General Holder. It is irregular. I mean, we have a 
nominee, a very qualified person who could be the head of ATF. 
I thought a management change was necessary at ATF. And in the 
absence of a confirmed head, I had to go with who I thought was 
best for the organization. Todd is a very experienced 
prosecutor. He is a great U.S. Attorney.
    But you are right; he is in fact wearing two hats. He is 
working extremely hard. But I think he has made meaningful 
changes at ATF. He has lifted morale. He has put in place a set 
of regulations that would prevent the mistakes from the flawed 
Fast and Furious operation I think from ever occurring again. 
But you are right, it is irregular. And given my druthers, I 
would rather have a confirmed, permanent head at ATF.
    Mr. Coble. Thank you, General.
    I see my red light has illuminated, so I will yield back.
    Mr. Smith. Thank you, Mr. Coble.
    Another gentleman from North Carolina, Mr. Watt, is 
recognized for his questions.
    Mr. Watt. Thank you, Mr. Chairman.
    And Mr. Chairman, I had hoped the way my colleague from 
North Carolina started his questioning, that we were going to 
treat this as a general oversight hearing, which is the way my 
memo said it was going to be, rather than an inquiry into one 
single subject. So I want to spend my time asking about some 
other things unrelated to Fast and Furious, because there are a 
number of other important things going on in life.
    And some of those things the Attorney General and his staff 
have made tremendously good decisions about. One of those is to 
have all these police chiefs sitting behind you today, one of 
whom is from my hometown of Charlotte, North Carolina. And for 
the Members on the Democratic side at least, they will 
certainly get to know Chief Rodney Monroe when they come to 
Charlotte for the Democratic National Convention. So I want to 
applaud the work that he is doing to prepare us for that 
significant national event.
    Perhaps the police chief from Tampa is behind you also--I 
don't know him--he will be doing that counterpart work for the 
Republicans at the Republican National Convention. But that is 
a massive, massive undertaking.
    And I know that the Attorney General's Office, the 
Department of Justice, Secret Service, all of the Federal 
authorities are working well, based on everything I have heard, 
to prepare for those big security events. And I want to say 
publicly how much I applaud that.
    Second, there are a number of things going on on an issue 
that we are dealing with or trying to deal with in this 
Committee dealing with online piracy. And we have some proposed 
legislation. I won't ask you to comment on that. But I would 
ask you to comment briefly on the extent of the problem and 
briefly on what the Department of Justice is doing to try to 
combat online privacy until we can get the bill passed. And I 
say comment briefly, because I have got one other subject that 
I want to get to related to redistricting, and voter 
suppression, and the preclearance process under the Voting 
Rights Act. Perhaps those issues, voter suppression in 
particular, may not be as important to some of my colleagues on 
this Committee as Fast and Furious and guns, but for a number 
of people in this country who would like to have the 
opportunity to vote, they are very serious issues.
    So why don't I just ask you to comment on what is happening 
in both of those areas, online piracy and the voter 
suppression, redistricting, and preclearance process.
    Attorney General Holder. We have been, I think, very 
aggressive with regard to our law enforcement efforts 
concerning intellectual property concerns. In February 2010, I 
established the Department's task force on intellectual 
property. I traveled to China I guess sometime last year, was 
at the White House I think 2 weeks or so ago to announce a 
program where I cut some radio spots, in addition to television 
spots that were done by others to talk about the whole question 
of piracy. And I think we have to understand the significance 
of it. It is a moral and legal problem there, but it is also a 
job killer. When things like intellectual property are stolen 
by other countries, by other people in this country, 
inappropriately, it costs jobs. It inhibits creativity. And so 
we have looked at it in a variety of ways.
    I work with Victoria Espinel, who heads up the White House 
effort in this regard. And this is a priority item for us. I 
would certainly like to work with you with regard to the bill 
that you mentioned and see if we can come up with a way in 
which we put more teeth into our enforcement efforts. With 
regard to the whole question of voter suppression and 
challenges, we have filed a number of lawsuits with regard to 
changes under covered districts covered by the Voting Rights 
Act. I actually will be giving a speech at the LBJ Library on 
Monday and talking about this in a more fulsome way.
    The Justice Department has the responsibility under the 
Voting Rights Act to look at proposed changes in voting schemes 
that are in areas covered by the Voting Rights Act. And there 
is only so much I can say there because we have to act in a 
neutral way or almost act as judges in that regard. I can tell 
you, though, that I am concerned about some of the things that 
I have seen, without getting into specifics about any one. I 
was a prosecutor in the public integrity section, and I 
actually investigated and prosecuted voter fraud cases when I 
was a young prosecutor. And I am concerned that some of these 
changes go far beyond that which exists in terms of vote fraud. 
I think we need to have some kind of notion of proportionality. 
And the arc that we have seen over the course of this country 
has always been to increase the number of people who have the 
ability to vote, whether it is, you know, after the Civil War, 
the enfranchisement of women, we have always tried to make it 
easier. And I am concerned that these recent efforts are going 
to have a negative impact. And I think ultimately that is not 
good for our democracy. We want as many people as we can to 
have their voices heard in the most important way, and that is 
by casting votes.
    Mr. Watt. Thank you, Mr. Chairman.
    I yield back.
    Mr. Smith. Thank you, Mr. Watt.
    The gentleman from California, Mr. Gallegly, is recognized.
    Mr. Gallegly. Thank you very much, Mr. Chairman.
    Good morning, General Holder. You know, General, I continue 
to hear from ICE agents, from many ICE agents, that they are 
frustrated that they have had significant difficulty with U.S. 
Attorneys prosecuting work site enforcement cases. Can you give 
us specific, and I want to emphasize the word specific, data 
regarding the number of prosecutions DOJ have accepted and how 
many they have declined?
    Attorney General Holder. Well, if you allow me to respond 
to that after the hearing in a written fashion, I am sure I can 
come up with some numbers. But I don't have those numbers.
    Mr. Gallegly. I can completely understand that. But I 
would, for the sake of the record of this hearing, appreciate 
that information as soon as you can get it to us.
    As everyone clearly understands, welfare fraud is playing a 
major role in our ability to continue providing service, the 
level of service that is necessary in Medicare, and the fact 
that fraud is playing a significant threat as it relates to the 
solvency of that fund. There have been several estimates that 
exceed well in excess of $60 billion annually in fraud. And I 
am sure you are aware of that.
    There is also evidence that organized crime, including 
gangs from Russia and other Eastern European countries and 
other places as well, that they are finding that filing 
fraudulent claims is a fast and quick way to make a lot of 
money. And most of that money is going offshore. Can you give 
us any detail as to what DOJ is doing in prosecuting these 
offenders and working with local law enforcement? I have met 
with my local people in the Los Angeles area. They are very 
frustrated. How much effort is really being put into it, and 
what success are you having with dealing with the issue of 
Medicare fraud?
    Attorney General Holder. Congressman, you are right to 
point that out as an issue that is of great concern. It is one 
that we have tried to focus our attention on. We work with our 
partners at HHS. Secretary of HHS Sebelius and I have been to a 
number of places to raise the consciousness of local officials, 
work with our Federal partners to deal with this problem. It is 
a multibillion dollar issue. And given the problems that we 
have with the solvency of those programs, this is a problem 
that we have to get a handle on. We have put together what we 
call the HEAT task forces around the country. I think we are in 
about 13 cities now. I think that is about right. And that is 
the way in which we identify the places where we see the 
greatest amount of fraud. We then deploy these task forces to 
those places. Interestingly, they proved to be pretty 
effective. But the problem is the fraudsters tend to move from 
that site and go to another city.
    But the concern you raise is a very real one. And it is 
something that we have to pay attention to and for which I hope 
we will receive adequate funding, both at HHS and at DOJ.
    Mr. Gallegly. I appreciate the assessment that many of 
these are moving onto other cities. But I am sure it won't come 
as any news flash that that isn't necessarily the case in areas 
like Los Angeles. They may move, but it may be across the 
street or into another pigeon hole where millions and millions 
of prescriptions are filled, or never filled, in storefronts 
that have maybe 150 square feet in them that is providing so-
called Medicare benefit or Medicare recipients in the 
thousands. So how would you describe the level of success you 
feel that you are having with resolutions to these folks that 
you are after? How many are you really--for instance, in Los 
Angeles how many major rings have you been able to shut down 
and put in jail?
    Attorney General Holder. Again, I would have to maybe 
provide you with some specific information after the hearing 
with regard to how successful we have been in Los Angeles. But 
I think the way in which you have described the issue, and as 
these intracity moves, moving from one place in Los Angeles to 
another place, this notion of storefronts exactly describes the 
problem, where people come in for--allegedly come in for 
services that aren't rendered, and the government is billed for 
them, everything from blood transfusions to the use of 
prosthetics. There are a whole variety of scams that are used. 
And the way in which you have described it, especially with 
regard to storefronts in these strip malls, I mean, those are 
the kinds of things that we are trying to confront. I will get 
you the information about----
    Mr. Gallegly. If you would be kind enough to get us 
information. I would like some specificity as it relates to 
durables, prescriptions, and things such as mammograms to 
people that are repeatedly received as many as three and four 
mammograms in 1 week. I see my time has expired. Yield back.
    Attorney General Holder. I would just say you identified 
something that really has to be a priority for the Justice 
Department. And I hope that Congress will support our funding 
request and HHS's funding request. The money that we spend in 
these enforcement efforts, we save huge amounts of money down 
the road by just investing relatively small amounts of money in 
prevention and enforcement. It makes the programs that much 
more financially stable.
    Mr. Gallegly. I look forward to seeing the data.
    And I yield back, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Gallegly.
    Mr. Issa. Mr. Chairman?
    Mr. Smith. For what purpose does the gentleman from 
California seek recognition?
    Mr. Issa. Thank you, Mr. Chairman.
    I would like to renew my request that Mr. Farenthold be 
able to sit on the dais. Apparently, Mr. Schiff has left--Mr. 
Schiff is there, but we have a number of seats that are vacant 
on this side. And since he won't be asking questions, any 
position would normally be fine.
    Mr. Smith. Mr. Issa, I talked to the gentleman from Texas, 
and actually, I was just getting ready to recognize him. And he 
has requested, and I want to recognize the gentleman from 
Texas, my colleague, Blake Farenthold, who is an active member 
of the Oversight and Government Reform Committee. And he is 
sitting on the front row.
    Blake, give us a wave.
    And appreciate his being here. And he is, I think, happy to 
observe the Committee from where he is sitting.
    Mr. Issa. He looks better on the dais, though, Mr. 
Chairman.
    Mr. Smith. Thank you.
    Mr. Issa. I thank the gentleman.
    Mr. Smith. Okay.
    The gentlewoman from Texas, Ms. Jackson Lee, is recognized 
for her questions.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and to 
the Ranking Member, for the opportunity.
    Mr. Attorney General, let me first of all thank you for 
your service and thank those who are sitting so prominently 
behind you. I work with chiefs of police as a former judge in 
my community. I think my former mayor, Mayor Lee P. Brown was a 
drug czar, but he was also the head of the Major Chiefs 
Association. He had the uncanny ability of being mayor and 
chiefs of police in New York, Houston, and Atlanta. And I 
notice our good friend that was formerly the police chief here 
in the city--the District of Columbia has now moved onto 
Philadelphia. But I was looking at the timeline, and this will 
not be my total lineage of questioning, but I was looking at 
the timeline of operation Fast and Furious. Could you tell me 
when you were sworn in as the Attorney General of the United 
States of America?
    Attorney General Holder. In February of 2009.
    Ms. Jackson Lee. And I noticed that the ATF launched 
Project Gunrunner in 2005. Were you in the Justice Department 
in 2005? I don't recollect that you were.
    Attorney General Holder. No, I wasn't.
    Ms. Jackson Lee. So this is an ongoing program that started 
in essence under the Bush administration?
    Attorney General Holder. Well, Gunrunner started under the 
Bush administration, and Wide Receiver started under the Bush 
administration. Fast and Furious started under--during the 
Obama administration.
    Ms. Jackson Lee. And then there was some morphing. It is 
sort of a continuity of sorts, because I think they had sort of 
the same intent, if I am not mistaken.
    Attorney General Holder. Right. Operations with the same 
aim, which was designed to stop the flow of guns from the 
United States to Mexico.
    Ms. Jackson Lee. I am looking at some news articles. And I 
am reading some numbers that are absolutely overwhelming. And 
one number says that nearly 40,000 have been killed in gangland 
drug warfare. Is that a crisis from your perspective?
    Attorney General Holder. It is a crisis of immense 
proportions. These are 40,000 people killed in Mexico over the 
last 5 years. But it is a national security concern for the 
United States of America.
    Ms. Jackson Lee. And I think you made it very clear that 
the horrific infractions, failings of Fast and Furious, you are 
doggedly, along with the IG, on the process, doggedly pointing 
and looking to investigate what the flaws may have been.
    Attorney General Holder. That is correct. I have described 
it as a flawed investigation, flawed in concept, flawed in 
execution.
    Ms. Jackson Lee. You made the record very clear.
    Attorney General Holder. It is something that--where 
mistakes were made. And we have to find out where those 
mistakes were made. And then I am going to hold people 
accountable in that regard.
    Ms. Jackson Lee. And likewise, we have offered our sympathy 
to any fallen officer, but in particular to our fallen officer 
that was murdered in Arizona.
    Attorney General Holder. Officer Terry.
    Ms. Jackson Lee. And I offer, as well as we did when we 
lost an officer that suffered in the Customs and Border, in the 
incident in Mexico that happened as well, that was an issue 
that we confronted on the Homeland Security Committee.
    I just want to make sure I offer into the record, you 
mentioned what we can do in terms of no national gun 
trafficking law, and I would ask the Chairman that our 
Committee begin hearings on that because we need to be a 
partner with you. But I would like to put into the record that 
we recently passed, Mr. Secretary, H.R. 82, which allows anyone 
to carry a gun into another State where they have a permit. I 
see uniformed officers behind you. My argument was that this 
might jeopardize our uniformed officers and also violate 
States' rights. I have here a list of opponents that include 56 
major chiefs of police. This bill was passed on the floor of 
the House. I would ask the Chairman to allow me to put this 
list again in the record regarding opposing H.R. 822.
    Mr. Smith. Without objection, the document will be made a 
part of the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Ms. Jackson Lee. Let me ask you how that compounds, 
potentially, the idea, having gone to the other body, 
potentially the damage and the devastation that may impact 
local chiefs and law departments who are on the streets every 
day.
    Attorney General Holder. Well, the concern that we 
certainly have with regard to officer safety, something that we 
have focused on a lot at the Justice Department in the last 
couple of years, we have seen historic drops in the crime rate. 
Over the last 2 years, however, we have seen, unfortunately, a 
tragic rise in the number of officers who have been killed in 
the line of duty. And we have seen a spike in that rise over 
the course of this year.
    Ms. Jackson Lee. And I am not going to cut you off. My time 
is short. I just want to put this comment to my good friend 
from Wisconsin who compared this, the most major devastating 
incident in the Department of Justice since COINTELPRO--I 
happened to be a person that was on the select committee on 
assassinations for King and Kennedy, as a staffer, and I know 
full well what COINTELPRO was, and also dealing with the 
incident in terms of gun running in the Reagan administration. 
But the point I want to make is when an Attorney General covers 
up a torture memo, I believe that we should not so lightly 
point to an incident happening in your department where you are 
fully investigating it. I questioned Secretary--excuse me, 
Attorney General Gonzales, with great respect for him, over and 
over again about the happenings in the hospital with then-
Attorney General Ashcroft--and this was when Gonzales became 
Attorney General--regarding the torture memo, which was an 
enormous international, if you will, incident. And I could 
never get the truth on that particular set of circumstances.
    So let us not compare the full investigation that you are 
engaged in with something worse than we could have ever 
expected. And I still don't understand who the gentleman was 
trying to impeach, for this has no basis in the law for any 
impeachment proceedings, whether he is intending to speak to 
you or to the President of the United States.
    And I just wanted to be very clear that we are not in the 
grandstanding position today; we are in the getting truth 
position today, Mr. Chairman.
    And Mr. Attorney General, you are in the business of 
getting the truth.
    Thank you very much. I yield back.
    Mr. Smith. The gentleman from Virginia, Mr. Goodlatte, is 
recognized for questions.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    General Holder, before turning to Fast and Furious, I would 
like to ask you a question regarding an investigation that is 
taking place in another Committee, the Energy and Commerce 
Committee. And that relates to the Solyndra Corporation and 
their default and bankruptcy and the investigation related to 
that. The law that set up the incentives for innovative 
technologies provides for the Secretary of Energy to notify the 
Attorney General when there is a default on an obligation. This 
is 22 U.S.C., Section 16512, Subsection 4(a). If the borrower 
defaults on an obligation, the Secretary shall notify the 
Attorney General of the default. Did Secretary Chu ever notify 
you of that default prior to this becoming the public furor 
that it has become?
    Attorney General Holder. I don't know if something like 
that has been transmitted to the Justice Department or not.
    Mr. Goodlatte. It requires that it be transmitted to you. 
Are you familiar with such a transmission being relayed to you?
    Attorney General Holder. This is not something that I have 
seen. It doesn't mean, however, it might not exist someplace in 
the Department. I just don't know.
    Mr. Goodlatte. The reason it is important is that the next 
section, Subsection B, says that on notification, the Attorney 
General shall take such action as is appropriate to recover the 
unpaid principal and interest due from, one, such assets from 
the defaulting borrower as are associated with the obligation; 
or two, any other security pledged to secure the obligation. 
Obviously, if you are not notified, you are not able to take 
that action.
    In addition, that same public law provides in another 
section that the obligation shall be the subject to condition 
that the obligation is not subordinate to any other financing. 
Obviously, the fact has been determined that Solyndra did 
subordinate its obligation to the U.S. to other private 
financiers. And I am wondering if, given the fact that it 
appears the law was violated in that regard, if the Attorney 
General's Office is going to investigate what happened there, 
how it was the Department of Energy allowed that subordination 
to take place, which required their approval, and if that 
investigation of who was responsible for that is taking place.
    Attorney General Holder. Well, I guess on September the 
eighth of this year, agents from the FBI and from the 
Department of Energy's Inspector General's office executed 
search warrants on Sylindra's offices. There is an ongoing 
investigation which kind of precludes my ability to speak too 
much about this matter, other than to say that this is 
something that we have under active investigation.
    Mr. Goodlatte. Let me just follow up on my first question. 
Would you take a look and determine whether that notification 
from Secretary Chu was sent to the Attorney General's Office? 
And if so, when that took place? And would you let the 
Committee know the answer to that question?
    Attorney General Holder. Yes. I can get you that answer, 
Congressman.
    Mr. Goodlatte. Thank you very much.
    Now, with regard to the Fast and Furious investigation, 
although the Department has taken steps to ensure that these 
tactics are never used again, it is certainly an unfortunate 
reality that we will continue to feel the effects of this 
flawed operation for years to come because thousands of 
firearms were transferred as a part of this program. The guns 
lost during this operation will continue to show up at crime 
scenes on both sides of the border. What are you doing to track 
them down?
    Attorney General Holder. Well, I agree with you. And that 
is what I said in my opening statement, and what I said before 
in the Senate last month, that we are going to be feeling the 
repercussions of those mistakes and the flawed operation for 
years to come. And you are right, that we will be seeing these 
weapons in the United States I fear, certainly in Mexico as 
well. We are in the process of trying to determine, you know, 
to the extent we can, where they are, trying to use the tools 
that we have to seize these weapons.
    Mr. Goodlatte. You know who purchased them. You know when 
and where they were purchased. And are you aggressively 
following those leads? Even if some of those people may have 
been informants and so on, are you attempting to recover 
through those individuals these weapons?
    Attorney General Holder. We are certainly trying to follow 
those leads. But one of the flaws in the program----
    Mr. Goodlatte. How many have you recovered?
    Attorney General Holder. Of the 2,000 guns, some several 
hundred have been recovered. I don't know what the number is 
now precisely. That is another number that we can get you.
    But one of the problems is that once these guns are 
purchased and they get into the stream of commerce, they become 
difficult to follow. And one of the problems with the operation 
is that we don't have all of the information, all of the 
information that you would want to have.
    But we are trying. I think several hundred weapons have 
been recovered. I don't know how many are still out there. But 
your observation is a correct one, and one that I agree with, 
that this is an issue that is going to be with us for many 
years to come.
    Mr. Goodlatte. And begs the question if they are difficult 
to follow, why were they ever allowed to get into this pipeline 
in the first place?
    Attorney General Holder. That is the flaw of Operation Fast 
and Furious. There is no question about that.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Goodlatte.
    The gentlewoman from California, Ms. Waters, is recognized.
    Ms. Waters. Thank you very much, Mr. Chairman.
    Mr. Holder, Attorney General Holder, I am trying to sort 
out some contradictions that are very obvious in this whole 
discussion about walking guns. And I am concerned about U.S. 
Congressman Dan Boren of Oklahoma and Denny Rehberg of Montana, 
who amended H.R. 1, the fiscal year continuing appropriations 
act of funding year 2011, to prohibit the use of Federal funds 
for a new regulation currently being proposed by the Bureau of 
Alcohol, Tobacco, Firearms, and Explosives. From what I can 
understand, the AFT proposal would require licensed Federal 
firearms dealers to file reports with ATF on all sales of two 
or more semi-automatic rifles within 5 consecutive business 
days if the rifles are larger than 22-caliber and use 
detachable magazines.
    I don't know whether or not this would apply to all of the 
States, or whether or not this would apply to California, 
Arizona, New Mexico, and Texas. But my real question is, given 
all of your actions and your opposition to gun walking that 
started in the previous Administration, and the way in which 
you are trying to make sure that this doesn't happen again, all 
the actions that you have taken, why would anyone propose that 
your hands be tied and that you not be able to have a proposal 
that would certainly make all of us safer?
    I live in California. And we are constantly bombarded with 
the reports of drug lords and the killings that go on there on 
the border and the creeping into San Diego and other parts of 
California. So I am very supportive of what you have identified 
by way of containing guns being easily accessible to these drug 
lords and not allowing gun walking to ever happen again. So can 
you discuss with me why your proposal should be adopted by AFT, 
and what would happen if in fact this amendment is--this Boren 
of Oklahoma and Denny Rehberg of Montana, their amendment would 
successfully get, you know, passed and to the President's desk? 
How would this hamper your efforts?
    Attorney General Holder. Well, I share your concerns. That 
is one of the things I talked about in my opening statement. It 
is a very reasonable, I think, and limited measure. It only 
applies to the four States that border Mexico. It would provide 
the ATF with real-time lead information. And it is consistent 
with what the rule that now exists with regard to the purchase 
of handguns.
    Just to give you a dramatic example, if somebody walked 
into one of these licensed dealers in one of those four States 
without this provision and wanted to buy 100 AK-47s, that 
information would not be reported to the ATF. The ATF, if that 
information was reported to them, would have the ability to 
start making initial determinations as to whether or not there 
is something we need to be concerned about.
    But in the absence of that provision, somebody can walk in, 
and over the course of 5 days, whatever number of days, buy as 
many of these dangerous weapons, so many of which have been 
used in----
    Ms. Waters. Excuse me, Mr. Attorney General, that was a 
dramatic statement that you just made. Someone could legally 
purchase 100 weapons of the sort that you just described, and 
it wouldn't have to be reported?
    Attorney General Holder. Not--if this provision were in 
place, that information would have to be reported----
    Ms. Waters. Yes.
    Attorney General Holder [continuing]. By the dealer to the 
ATF.
    Ms. Waters. Yes.
    Attorney General Holder. But in the absence of that, in 
those four States, that would not occur. As long as there was 
not--as long as the guns were not--they would not have to do 
that.
    Ms. Waters. And you are talking about AK-47s, for example?
    Attorney General Holder. Yeah. I am using a dramatic 
example, but that would be accurate.
    Ms. Waters. Well, that is alarming. Are you sure that you 
have made Mr. Boren and Mr. Rehberg aware of how they could 
potentially hamper the ability to get that kind of information 
that would be so important for ATF?
    Attorney General Holder. It is something that we have 
certainly tried to share information with Members of Congress 
about. We are in litigation now here in the District Court in 
Washington with people who are opposed to the implementation of 
this, I think, very reasonable regulation. It is something that 
we are prepared to fight for.
    Ms. Waters. Well, thank you very much. And I am hopeful 
that there is some way that you can make this absolutely clear 
to all of the Members of Congress. Because I suspect there are 
many Members who do not understand what would happen with the 
Boren amendment. And I think it is important that at least we 
have the facts as you have described them. Thank you.
    And I yield back the balance of my time.
    Mr. Smith. Thank you, Ms. Waters.
    The gentleman from California, Mr. Lungren, is recognized.
    Mr. Lungren. Thank you very much.
    Thank you for being here, Mr. Attorney General.
    Mr. Attorney General, just for some facts on the table. 
With respect to the previous quote-unquote Gunrunner programs, 
including Wide Receiver, in those programs, are you aware of 
whether or not the agents involved were instructed to break off 
surveillance once the weapons were delivered?
    Attorney General Holder. No, they were not. But both of----
    Mr. Lungren. Isn't that one of----
    Attorney General Holder [continuing]. The programs were 
different in terms of the instructions that were given, the 
reality is that guns nevertheless made their way, in Wide 
Receiver, to Mexico.
    Mr. Lungren. I understand that. I understand that. I am not 
talking about that. Were you aware of that, the Wide Receiver 
program? Were you aware of the failure of the Wide Receiver 
program before you were aware of the Fast and Furious?
    Attorney General Holder. No, I became aware of Wide 
Receiver I guess during the course of our examination of Fast 
and Furious.
    Mr. Lungren. Anybody under your overall supervision aware 
of the failure of Wide Receiver, either prior to the time that 
Fast and Furious started or during its operation?
    Attorney General Holder. Well, we now know that people in 
the Criminal Division of the Justice Department were aware of 
Wide Receiver, the problems that were associated with Wide 
Receiver.
    Mr. Lungren. Can you give me any reason why anybody would 
believe that a program like this would be contemplated with the 
idea that the agents would be instructed to break off 
surveillance once the weapons were delivered? Isn't that asking 
for disaster?
    Attorney General Holder. Yeah. And again, I don't disagree 
with you that that is a flawed concept. And exactly who did it, 
why they did it is something that the Inspector General, I 
hope, will help us resolve.
    Mr. Lungren. I understand you have got the Inspector 
General, but you are running a Department. And frankly, if you 
passed everything off to the Inspector General before making 
management decisions about whether people who were responsible 
for previous decisions should remain in power, frankly, you 
would be giving the Inspector General the job to do.
    Attorney General Holder. I understand that I have----
    Mr. Lungren. No, no. Here is the only reason that I bring 
this up. You are the one who brought up the question of the 
previous Administration. And okay, you want to do that. But 
let's talk about the distinction between those programs. That 
was not gun walking in the terminology that most people think. 
When you talk about a controlled delivery, even though you can 
go to the dictionary and say controlled delivery means you just 
control it to delivery. The parlance of controlled delivery in 
previous programs meant that you followed it afterwards.
    Now, they screwed up because they found that those 
indicators that they had that were supposed to let them know 
where the weapons were, the bad guys figured that out. But I 
would hope that--I mean, here is my problem. I mean, when I 
became a Congressman this time around, people said what is the 
difference between being Attorney General of California and 
being a Congressman? I said, well, after I finish a meeting, I 
don't have to go out and face reporters who ask me about 
something one of my 5,000 employees has done that I don't know 
anything about. And I know you have more than 5,000 employees. 
But that was my internal thought. The fact of the matter is I 
am responsible. I was responsible for what they did. And you 
are responsible for what these folks did.
    And the frustration I have is this, and maybe it is unfair, 
so maybe you can help me with this. After all this time, we 
still don't know, because the Inspector General is looking at 
it, we still don't know who knew what when and who made the 
decisions. And that doesn't give much confidence to the 
American people, particularly when CBS reports that there is a 
memo from AFT Field Operations Assistant Director Mark Chait e-
mailed Bill Newell, I guess Newell, with this, quote, Bill, can 
you see if these guns were all purchased from the same licensed 
gun dealer and at one time? We are looking at anecdotal cases 
to support a demand letter on long gun municipal sales, thanks.
    I have got to deal with people in my district who are law-
abiding citizens who believe in the Second Amendment who say to 
me look, the Feds are overreaching all over the place, and here 
you got a situation where they screwed up. They are the ones 
responsible for hundreds, if not thousands of weapons going to 
Mexico. People are dying, including some of our law enforcement 
agents. And yet they are using that as an excuse to extend 
their reach in the law. Now, either this memo--are you aware of 
this memo, July 14, 2010, from Mark Chait to Bill Newell?
    Attorney General Holder. No, I am not aware of it.
    Mr. Lungren. Would you think that would be appropriate?
    Attorney General Holder. Well, I think what you--you are 
taking a memo and taking it I think out of context.
    Mr. Lungren. Sir, I will give you a chance to answer, but I 
will tell you why I don't think I am taking it out of context. 
This is in direct reference to the guns that were involved in 
Fast and Furious. And then you have someone under your 
direction--not saying you directed them to do it, but someone 
who is under your authority saying, let's use this stuff. Maybe 
it is going to help us. I don't know if it is going to help us 
at a hearing, but it is going to help us try and get our new 
policy through. And then I am trying to respond to law-abiding 
citizens who believe in the Second Amendment who say, you got 
the Federal Government who screws up sending thousands of 
weapons south; they are using that as an excuse why they should 
put more restrictions on us. So how do I respond to that in a 
way that is fair based on the facts when so far I have heard, I 
am sorry, Mr. Congressman, I can't tell you because the 
Inspector General is looking at it?
    Attorney General Holder. Let me deal with both of those 
things. First, that the Inspector General has a responsibility 
that I have asked her to assume, and that is to do an 
independent investigation of that. That will take time.
    That does not, however, lessen the responsibility that I 
have as the head manager of the Justice Department to take 
steps where that is appropriate. And I have taken steps. I have 
made personnel decisions. I am prepared--those were initial 
determinations that I have made. And I am prepared to take 
other steps before the Inspector General reports back. I think 
that will be--her conclusions, her findings will be useful for 
me in trying to make ultimate determinations. But I don't need 
the Inspector General to make certain determinations that I 
will make.
    With regard to the question of that memo and the long gun 
rule, the ATF reached out to the field to obtain examples of 
cases or operations where that kind of a rule would have been 
helpful. Now, the operation known as Fast and Furious was one 
of seven cases that were already underway, already underway, 
that ATF later cited as an example to illustrate the potential 
benefit of collecting information about the multiple sales of 
certain types of rifles. So this was already underway when that 
question was----
    Mr. Lungren. I understand, but you would see how some 
people might reasonably come to the conclusion that it was sort 
of self-dealing. The Department creates a situation in weapons 
go south across the border in the hundreds, if not the 
thousands, and then uses evidence of the fact that that 
occurred to support their effort to try and extend the reach of 
the law. That is my question.
    Attorney General Holder. But Congressman, with all due 
respect----
    Mr. Smith. The gentleman from California is recognized for 
an additional 30 seconds so the Attorney General can answer the 
last question.
    Attorney General Holder. I say this with all due respect. 
Take a step back and think about the implications of what you 
are saying is that the Justice Department came up with a flawed 
program in order to justify a regulation. And given all that 
has flown----
    Mr. Lungren. I am talking about after the fact, after the 
fact. You screwed up, you ought to admit you screwed up, but 
you ought not to use your screw-up as a basis for trying to 
extend your authority. That is my point. I am not trying to 
talk about a conspiracy. I am talking about a responsible 
action after the fact. When you screw up, you ought to say you 
screw up. The people involved ought to say they screwed up. And 
then don't allow your screw-up to be the basis for trying to 
extend your legislative agenda. That is all I am saying.
    Attorney General Holder. And all I am saying is, as I said, 
there were seven cases. These things were already underway when 
that information was sought.
    Mr. Smith. Thank you, Mr. Lungren.
    The gentleman from Georgia, Mr. Johnson, is recognized.
    Mr. Johnson. Thank you, Mr. Chairman.
    Thank you, Attorney General Holder, for being here today.
    There is a hole in our gun control laws that is so large 
that you could drive or fly a space shuttle through it. And it 
is called the gun show loophole. And what that gun show 
loophole enables unlicensed firearms sellers to do is to sell 
an unlimited amount of firearms per year, or per gun show, to 
anybody, without having to perform a background check as a 
licensed gun dealer must. And so we have got gun shows, 
thousands of gun shows per year being held throughout America, 
and we have got untold numbers of licensed gun dealers who are 
selling their wares at those gun shows, and you have untold 
thousands of unlicensed private weapons dealers who are selling 
firearms, including automatic assault rifles of the type that 
walked away in Operation Fast and Furious.
    How many automatic assault rifles walked away during Fast 
and Furious?
    Attorney General Holder. I think the number that has 
generally been reported is about 2,000.
    Mr. Johnson. It is about 2,000.
    Now, how many firearms are sold to al-Qaeda terrorists, to 
other convicted felons, to domestic violence perpetrators, to 
convicted felons, to White supremacists, how many unlicensed 
gun dealers--or let's say how many weapons, how many assault 
rifles let's just say in a given year are sold to such 
individuals by unlicensed gun dealers at these gun shows that 
are unregulated? And how many of those end up walking away to 
Mexico? Can you give us a number on that?
    Attorney General Holder. I don't have a number on that. I 
can certainly endeavor----
    Mr. Johnson. Would it be more than a couple of hundred?
    Attorney General Holder. Sir, I am pretty certain it would 
be more than 2,000. But in terms of getting those numbers for 
you, I can try to do that and provide you with those numbers 
after the hearing.
    Mr. Johnson. It would seem to me that with the thousands of 
gun shows and unknown numbers of private gun owners selling an 
unknown number of weapons, including assault rifles, to unknown 
people, it would seem to me that there is a fair possibility 
that a whole lot more than 2,000 weapons would walk out of the 
gun show and find their way into the hands of a Mexican drug 
cartel. Would you agree with me on that?
    Attorney General Holder. Again, without knowing the 
numbers, I wouldn't want to guess. But I think that one of the 
things we need to focus on is to know who actually is buying 
weapons.
    Mr. Johnson. And we don't have that ability right now with 
that gun show loophole. Correct?
    Attorney General Holder. We don't have it across the board.
    Mr. Johnson. Okay. Now, let me ask you this question. Over 
the last 5 and a half years, we have had five acting directors 
of the ATF. How does the Senate's failure and refusal to 
confirm a nominee for that important agency, what effect does 
that have on the ability of that agency to be guided in a way 
so as to avoid the kind of situations like Fast and Furious?
    Attorney General Holder. I think that is actually a very 
good point. When you have a confirmed head, there is a certain 
prestige that goes with that demarcation. But beyond that, it 
allows a person to have a longer term, to have a certain 
consistency to put in place programs, to put in place controls 
that did not exist and that allowed Fast and Furious to happen. 
What Todd Jones has done as the acting head of ATF in a 
relatively short period of time I think is fairly remarkable. 
It would be a better thing if we had somebody in his place who 
had a confirmed--was a confirmed person, and could extend the 
time that he would spend or she would spend running the 
organization. Todd is still the head of the U.S. Attorney's 
Office in Minnesota. And I can't expect him to devote, you 
know, 4 years, for instance, as somebody might if they were a 
confirmed head and serve a full term, a full Presidential term, 
to do the same thing. And that consistency, that presence for 
an extended period of time has I think a huge positive impact 
on an organization.
    Mr. Johnson. You think the NRA and other Second Amendment 
rights radicals have confidence that the U.S. will not have a 
competent ATF head if the Senate continues to deny a leader for 
that organization, thus rendering it rudderless? Is politics 
causing that, you think?
    Attorney General Holder. I mean, it certainly has a 
negative impact on the organization. There are certain groups 
that I think have actively opposed nominees, both put up by 
President Bush as well as President Obama, who I think were 
amply qualified to lead the organization and who, for whatever 
reason, were not confirmed.
    Mr. Smith. Thank you, Mr. Johnson.
    The gentleman from California, Mr. Issa, is recognized.
    Mr. Issa. Thank you, Mr. Chairman.
    And I would be remiss if I didn't take exception to calling 
the NRA members, the millions of them, radicals. I think that 
is an offensive statement beneath contempt in this Committee.
    Mr. Attorney General, will you agree to come before the 
Oversight Committee without the need for a subpoena in the 
January time frame?
    Mr. Johnson. Will the gentleman yield?
    Mr. Issa. I will not.
    Mr. Attorney General, will you agree to come before the 
Committee I Chair, the Oversight Committee, the one you 
produced these documents to, in the January time frame without 
the need for a subpoena?
    Attorney General Holder. I will consider it, but I will 
note I have testified on four occasions with regard to this 
matter. I have appeared before you on at least two occasions.
    Mr. Issa. You have appeared before this Committee. Your 
organization pushed back on the request for a joint hearing 
here today. Not will you consider it, but do I need to serve a 
subpoena on yourself, and Lanny Breuer, and the other people 
under direct investigation of my Committee, or will you agree 
to come voluntarily in the January time frame before the 
Committee?
    Attorney General Holder. I will consider any request that 
you make.
    Mr. Issa. I thank you, Mr. Attorney General.
    I now would go to the questions of e-mails. This is the 
document you refer to. Most of these documents, 5,000 or so, 
are, in fact, e-mails. Mr. Attorney General, I have a question 
for you. Not one of these e-mails, in fact, is yours. Aren't 
you an a prolific e-mailer?
    Attorney General Holder. No.
    Mr. Issa. Don't you e-mail?
    Attorney General Holder. Yes.
    Mr. Issa. Do you have a personal e-mail account and as well 
as an Attorney General's e-mail account?
    Attorney General Holder. I have an e-mail account at the 
Justice Department, yes.
    Mr. Issa. Do you have a personal e-mail?
    Attorney General Holder. Yes.
    Mr. Issa. Do you regularly e-mail to Lanny Breuer, your 
former partner and your head of the Criminal Division?
    Attorney General Holder. No, I wouldn't say regularly. 
There are only a limited number of people who know my e-mail 
address in the Justice Department.
    Mr. Issa. Let me cut to the chase. Don't you think it is a 
little conspicuous in his absence that there is not one e-mail 
to or from you related to Fast and Furious in any way, shape or 
form?
    Attorney General Holder. There are a variety of reasons why 
the e-mails that we have shared with you are there. We have 
shared in an unprecedented way e-mail information that no 
Justice Department, no Attorney General has ever authorized 
before. You have deliberative information contained, I guess, 
in----
    Mr. Issa. But isn't it true that executive privilege does 
not flow to the Attorney General, only to the office of the 
President? So deliberative process within your Department 
running law enforcement, in fact, doesn't serve executive 
privilege. As the Chairman said going on, you haven't cited any 
reason that these would not have been delivered.
    Attorney General Holder. In making production 
determinations, we have followed what Attorneys General in the 
past have always used in applicable standards, and these are 
Republican as well as Democratic Attorneys General. And the 
information that we have provided to you has been responsive, 
has been, I think, fulsome, and also unprecedented.
    Mr. Issa. Well, unprecedented would be an Attorney General 
who knew nothing about something where his own DAG, now his 
present chief of staff, was intimately familiar.
    Gary Grindler was well aware, according to documents 
provided of Fast and Furious, on March 12, 2010. Are you aware 
of that, that he with an aware of Fast and Furious and what its 
procedures were on March of 2010?
    Attorney General Holder. It was certainly brought to his 
attention as a part of a regular briefing he got from ATF, but 
he did not hear during that briefing anything about the 
tactics.
    Mr. Issa. Really? Is that why in his own handwriting when 
he talks about going to stash houses, he clearly understood in 
a document you have delivered--he clearly understood in his own 
handwriting what the tactic was.
    Attorney General Holder. No, that is not----
    Mr. Issa. I am sorry, but I am going to ask you a different 
question----
    Attorney General Holder. Well----
    Mr. Issa. Because he understood. No, no.
    Attorney General Holder. Could I answer that question?
    Mr. Issa. You have answered it less than truthfully.
    Ms. Jackson Lee. Could the questioner allow the witness to 
answer the question?
    Mr. Issa. Madam, this is my time. I am not yielding.
    Ms. Jackson Lee. I am not asking you to yield.
    Mr. Smith. The gentleman from California Mr. Issa has the 
time.
    Ms. Jackson Lee. I would appreciate it if you would allow 
the witness to answer the question.
    Mr. Smith. The gentleman from California Mr. Issa has the 
time.
    Ms. Jackson Lee. I understand that.
    Mr. Smith. The gentlewoman from Texas----
    Ms. Jackson Lee. I would appreciate it if the witness could 
be allowed to answer the question, Mr. Chairman.
    Mr. Smith. The gentlewoman from Texas has not been 
recognized.
    Ms. Jackson Lee. I ask for a sense of protocol here.
    Mr. Smith. The gentleman from California has the time.
    Mr. Issa. Mr. Attorney General, as I was saying, Mr. 
Grindler--you can't answer on his behalf, and so it makes no 
sense to. This is evidence that was delivered.
    Do you regularly talk to your chief of staff? And do you 
regularly receive oral briefings from Mr. Grindler? And, in 
fact, when you made the decision to have him be the DAG and 
then the chief of staff, wouldn't it be reasonable to assume 
that if he knew on March 10th, as this document indicates, that 
you would also know, March 10th, March of 2010, March 12 of 
2010?
    Attorney General Holder. Well, first, he was not 
intimately--made intimately familiar with the program as a 
result of that briefing. The briefing that he received from 
then-Acting Director Nelson did not go into the tactics. Nelson 
indicated----
    Mr. Issa. Of course it didn't go into the tactics.
    Mr. Chairman, I would ask that I have the time restored 
that I lost with the lady's interruption.
    Mr. Smith. The gentleman is recognized for an additional 
minute and also to give the opportunity to the Attorney General 
to respond to the question.
    Mr. Issa. I certainly look forward to that.
    Mr. Attorney General----
    Attorney General Holder. I was in the middle of an answer, 
I think.
    Mr. Issa. You know, you are in the middle of filibustering, 
so I will let you answer. I have two more things to quickly go 
over, and then you can have all the time the Chairman will give 
you.
    Does it surprise you that these boxes, five boxes, 
represent just what one gun dealer gave us voluntarily, while, 
in fact, this seems to be all the information you have 
responsive to our subpoena; does it cause you to think that, in 
fact, we believe you were withholding documents? We believe 
that, in fact, there is more production. So my final question--
and you can answer all of them for as long as the Chairman 
wants--is do you today have documents responsive to the lawful 
request of the Oversight Committee that have not yet been 
granted?
    Attorney General Holder. All right. Well, Let me go back to 
my first answer that I was not----
    Mr. Issa. Well, mine is pretty easy. Mine is a yes or no, 
and then the others you are going to go on for a while.
    Attorney General Holder. I will get to that.
    Mr. Issa. Would you please get to it first?
    Attorney General Holder. With regard to Gary Grindler, he 
was not provided with a detailed analysis of Fast and Furious. 
He was given information about----
    Mr. Issa. Mr. Chairman, I asked earlier that the Attorney 
General be placed under oath. I was denied that. But what I 
will make the point is that it is not productive for anyone to 
come before this Committee and tell us what somebody else 
didn't know. That is exactly how the legislative liaison behind 
the Attorney General Mr. Weich came and gave false testimony to 
my Committee, false because people who are still working for 
the Attorney General knowingly gave him misleading information 
in addition to the U.S. attorney, and no action has been taken.
    Ms. Jackson Lee. Is the gentleman's time extended, or is 
there regular order?
    Mr. Issa. I might note for the record that the IG----
    Ms. Jackson Lee. I have a parliamentary inquiry, Mr. 
Chairman.
    Mr. Smith. The gentleman----
    Ms. Jackson Lee. I have a parliamentary inquiry, Mr. 
Chairman.
    Mr. Smith. The gentleman from California continues to be 
recognized. And let me make a point in the record that he is 
not over time near as much as the gentlewoman from Texas was a 
few minutes ago.
    Ms. Jackson Lee. I thank you for your courtesies, but I 
would like to understand whether the gentleman has extended 
time.
    Mr. Smith. And he was recognized for that purpose, as the 
Attorney General will be recognized for the purpose of 
responding----
    Ms. Jackson Lee. And will he allow the Attorney General to 
answer the question?
    Mr. Issa. I look forward to it.
    Ms. Jackson Lee. Thank you very much.
    Mr. Issa. Mr. Chairman, I use only 5 more seconds.
    The fact is the inspector general has released information 
that was secret to the object of our investigation with the 
knowledge of the Justice Department. She is not currently, in 
our opinion, qualified to investigate and, in fact, has 
overstepped the line by delivering secret tapes to the object 
of our investigation while the Justice Department was slow-
rolling that discovery. And this is the ATF agent that was 
intimately involved with this.
    So I want you to understand I have treated this Attorney 
General as a hostile witness because ultimately when he comes 
before us saying he is going to clean house, no house has been 
cleaned. And I would love to hear his answers.
    Mr. Smith. The gentleman's time has expired. The Attorney 
General will be given the opportunity to respond.
    Attorney General Holder. I will try again. Gary Grindler 
was not provided with information as you have described, 
intimate information, about Operation Fast and Furious. He was 
not told about the tactics that were used there. The person who 
did the briefing was the acting head of ATF, and he has, I 
understand, testified before your Committee that he did not, in 
fact, share that tactical information with Mr. Grindler.
    I note that Mr. Nelson also briefed you, Congressman, about 
a month or so later or before, I forget which, and he said at 
that time he did not share with you information about those 
tactics. So the notion for your contention that Gary Grindler 
was familiar with this or intimately familiar with this is 
inconsistent with what I think the facts are.
    And you take me to task for trying to assume what I know 
Grindler to have said. You have not interviewed him as well, 
and nevertheless you feel comfortable doing the same thing.
    With regard to the documents that you talked about, we have 
not withheld any documents that are responsive to the matters 
that you have--that you have asked us about. We have withheld 
information that pertains to ongoing investigations; that is 
the thing that might have limited our document production. But 
again, what we produced on February the 4th is unlike anything 
that any Committee in any part of this Congress, Senate or 
House, has ever seen before. And I want to make clear, as we 
said in that letter, that is not precedential, not holding, and 
I don't think any future Attorney General should be expected to 
do that, but given the nature of what we did in withdrawing 
that February 4 letter, it seemed to me to make sense to make 
an exception to what has been a long-recognized rule.
    Mr. Issa. Mr. Chairman, could the AG be allowed to fully 
answer, since it was pursuant to a subpoena whether or not his 
answer about did he provide----
    Mr. Smith. The gentleman's time has expired.
    Mr. Issa. It means he was withholding or not withholding. 
He did not answer that.
    Ms. Waters. Mr. Chairman, that requires unanimous consent. 
I withhold----
    Mr. Smith. The gentlewoman has now been recognized.
    I was asking the Attorney General a question. Does the 
Attorney General wish to respond any further to the questions?
    Attorney General Holder. I am fine.
    Mr. Smith. The gentleman from Virginia Mr. Scott is 
recognized for his question.
    Mr. Scott. Thank you, Mr. Chairman.
    General Holder, a lot has been made about the letter 
written by your Assistant Attorney General Mr. Ron Weich. 
Nobody expected him or believes that he has any personal 
knowledge of the information, but expected him to get the 
information and relay it. The information has, I think, been 
subsequently determined to be false. Do you know where he got 
the false information?
    Attorney General Holder. The information that was contained 
in that letter, the incorrect information that was contained in 
that letter, was derived from people in the field who had the 
operational responsibility for Operation Fast and Furious, both 
from the ATF in Phoenix as well as the U.S. Attorney's Office 
in Phoenix. That information, I think logically, was presumed 
to be accurate. That information was transmitted to people in 
Washington, who put the letter together. And if you look at the 
February 4 document production that we made, you can see how 
this went back and forth and how the letter was actually put 
together.
    It turned out that the people in Phoenix had information 
that was not, in fact, accurate, and that is the stuff that 
found itself into the February the 4th letter.
    Mr. Scott. Now, what did you do when you found out that the 
information was not accurate?
    Attorney General Holder. I couldn't hear you.
    Mr. Scott. What did you do when you found out that the 
information was not accurate?
    Attorney General Holder. One of the things that I did early 
on was to ask the inspector general to look into this. I was 
hearing from inside the Justice Department one set of facts. I 
was hearing from Members of Congress and members of the media 
something else. An it seemed to me that given this disparate 
information that I was receiving, that an investigation needed 
to be had. And on February the 28th, I asked the inspector 
general to begin an investigation.
    Mr. Scott. An article in USA Today says, ``The program,'' 
referring to Fast and Furious, ``was fundamental"--"which 
Holder has finally acknowledged is fundamentally flawed 
occurred with the knowledge and approval of Justice.''
    Do you want to respond to that statement?
    Attorney General Holder. That is not true. I mean, the 
notion that people in Washington, the leadership of the 
Department, approved the use of those tactics in Fast and 
Furious is simply incorrect. This was not a top-to-bottom 
operation; this was a regional operation that was controlled by 
ATF and by the U.S. Attorney's Office in Phoenix.
    Mr. Scott. There is a memo dated November 16, 2007, about a 
meeting of the Attorney General in 2007 with the Mexican 
Attorney General that says, Of particular importance ATF has 
recently worked jointly with Mexico on the first-ever attempt 
to have a controlled delivery of weapons being smuggled into 
Mexico by a major arms trafficker. While the first attempts at 
this controlled delivery have not been successful, the 
investigation is ongoing.
    Does that suggest to you that guns were so-called walking 
in 2007?
    Attorney General Holder. Well, certainly not walking in the 
same way that they were allowed to walk in Fast and Furious, 
but the reality was guns did find their way into Mexico in an 
inappropriate way.
    And one thing that I want people to understand is that I 
don't know what Attorneys General did back then and how they 
reacted to it, but I can tell you what this Attorney General 
did. I asked for an inspector general investigation. I sent out 
a directive to the field that this kind of activity was 
inappropriate. I made personnel changes. And I am overseeing 
with the help of Todd Jones substantial reforms at ATF. I was 
very active in dealing with this issue. You can look at what 
other Attorneys General did.
    Mr. Scott. Thank you.
    Switching subjects, the last Administration was cited for 
political hiring within the Civil Rights Division. Have you 
continued that political hiring in violation of the law?
    Attorney General Holder. We hire people within the Civil 
Rights Division on the basis of their experience, their 
commitment to that which the Civil Rights Division has 
historically stood for, people who are going to be good 
litigators, people who are going to work hard. We don't hire 
people on the basis of political or ideological affiliation.
    Mr. Scott. Thank you, Mr. Chairman. I have a number of 
other questions that I will be submitting----
    Ms. Jackson Lee. Would the gentleman yield for a moment? 
Would the gentleman yield?
    Mr. Scott. For the record I yield the balance of the time.
    Ms. Jackson Lee. Thank you.
    Very quickly, Mr. Chairman, I would like to put into the 
record the Examiner: Mexico Losing Its War on Drug Cartels; and 
the Los Angeles Times that says how many have died in Mexico's 
drug war. Mr. Chairman?
    Mr. Smith. I am sorry.
    Mr. Scott. She asked unanimous consent.
    Mr. Smith. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________

    Mr. Scott. I yield back.
    Mr. Smith. The gentleman yields back his time.
    The gentleman from Iowa Mr. King is recognized.
    Mr. King. Thank you, Mr. Chairman, and thank you, Attorney 
General Holder, for coming here to testify. I had a number of 
questions that come to mind as I listened to the responses that 
are here. They sort down to this: As near as I can determine, 
have you identified the weapon that actually killed Agent 
Terry?
    Attorney General Holder. That would go into a ballistics 
report determination, and I am not prepared to talk about that 
given that it is still a pending case.
    Mr. King. It is still under investigation, but there is 
some data there that is being examined by Justice?
    Attorney General Holder. As I said, there is an ongoing 
investigation. There is a case that has been indicted, and 
obviously a part of that trial will be the ballistics report.
    Mr. King. Have you identified a suspect or a person of 
interest?
    Attorney General Holder. Somebody has been indicted in 
connection with that case.
    Mr. King. Somebody has been. And that is not information 
that you can speak to today?
    Attorney General Holder. There are some rules there that 
don't allow me to--apparently this is a matter that is under 
seal.
    Mr. King. But there has been an indictment.
    Attorney General Holder. Yes, there has been an indictment.
    Mr. King. Thank you.
    And if you were to tell us who that was, you couldn't did 
so in this setting?
    Attorney General Holder. That is correct.
    Mr. King. If we were in executive session, could you do 
that?
    Attorney General Holder. I don't think so. I think it is a 
court-ordered seal.
    Mr. King. Okay. That is satisfactory to me.
    Attorney General Holder. We have to seek leave of the court 
in order to do that.
    Mr. King. That is satisfactory. Thank you.
    Do you have a sense, or an estimate, or data on the numbers 
of Mexicans that have been killed or homicide investigations 
that have brought about deaths where there have been weapons 
used that are from Fast and Furious in Mexico? We lost Agent 
Terry. How many Mexicans do you estimate have died because of 
the weapons that have been sent to Mexico?
    Attorney General Holder. I don't know that figure, 
Congressman King, but I fear that the number of people on the 
Mexican side of the border, frankly as well on the United 
States border, will be negatively impacted by the mistakes of 
Fast and Furious are going to--there are going to be people who 
are going to be harmed. I don't have any numbers, but I fear 
that that is what is going to happen, has probably already 
happened, and is likely to happen in the future.
    Mr. King. Do you have, though, reports or data that would 
give you some sense of that? Is it a report that is delivered 
to you in your briefing that when we know all about Agent--we 
know about Agent Terry, but I am thinking about this from a 
public relations standpoint, and I am thinking that if this 
happened in the United States--and I am going to guess that 
there are multiple deaths in Mexico--if there is anything 
proportional to the distribution of the weapons, are there any 
reports that give you a sense of this happening as a 
communication going back and forth across the border and 
identifying Fast and Furious weapons that may have been used in 
crimes and homicides in Mexico so that you have a sense of that 
number?
    Attorney General Holder. I don't have a sense of that as 
yet. I mean, we certainly work with our Mexican partners to try 
to trace guns that are seized in connection with crimes. That 
is why I said that, you know, we have traced 64,000 of those 
guns over the last 5 years. My guess will be that we will trace 
some guns over the coming years and months back to Fast and 
Furious, and then we will be able to connect those traced 
weapons to crimes that have occurred in Mexico. But to date I 
have not received that information.
    Thank you. I would like to shift a little bit. I know the 
last time you were before this Committee May 3 of this year as 
I recall we had a discussion about the Pigford farms issue, and 
I submitted a series of questions about that, and you have 
answered most of those questions in writing as of, date, I 
think it was October of this year. So I would like to narrow in 
on that a little bit, because the Pigford farms issue you cite 
as the authority for Justice and presumably USDA to negotiate 
with Black farmers the authority that is in the Farm Bill, 
commonly known as a farm bill, and you cite the sections of the 
bill.
    And I will just tell you in this Committee that I had a 
conversation with the then-chairman of the AG Committee, Collin 
Peterson on the way over to the floor to vote on this farm 
bill, and I said to him the authorization that you granted in 
the farm bill, which you cite in your response, will open up 
the door to $1.3 billion in additional Pigford claims. His 
response to me was no, that $100 million caps the spending on 
the settling all outstanding Pigford claims, you will be 
satisfied with the results of that. That was our disagreement. 
I have had the Secretary of Agriculture cite the same section 
that you have cited. I have the section before me, and I will 
ask unanimous consent to introduce it into the record at the 
conclusion, but it says here that ``shall not exceed $100 
million and it shall be construed to effectuate its remedial 
purpose of giving a full determination on the merits of each 
Pigford claim previously denied that determination,'' which is 
the language that opened up Pigford 2.
    So I will submit that authority only exists to resolve all 
outstanding Pigford claims and cap them within $100 million. We 
have a claim coming back to Congress for an additional 1.15 
billion. I have no information in my letter that tells me how 
many claims you have from Pigford. And I don't have any 
information that tells me what was spent on attorney fees in 
settlements of Pigford 1. So I would appreciate if you could 
respond to that.
    Attorney General Holder. Sure, we will get you that 
information.
    Mr. King. And including the value, the cost of attorney 
fees in Pigford 1?
    Attorney General Holder. Sure.
    Mr. King. And anything that is current.
    Attorney General Holder. Whatever information we have with 
regard to the questions you have asked, I will make sure it 
gets passed on to you.
    Mr. King. And I will just ask for follow-up.
    Mr. Smith. The gentleman's time has expired.
    Mr. King. I ask unanimous consent to complete my question.
    Mr. Smith. The gentleman continues to be recognized for a 
final question and then the AG to respond.
    Mr. King. Thank you, Mr. Chairman. I would just ask that we 
know that there are negotiations according to your letter that 
took place between the Department of Justice, the USDA, and 
representatives of the Black farmers, which sounds to me in 
their response to be multiple organizations, multiple entities. 
So I would ask you if you personally had a conversation with 
Secretary Vilsack with regard to Pigford and who are those 
entities that were negotiated with to come to this settlement 
that I contend goes beyond $100 million cap that was 
authorized.
    Attorney General Holder. Well, I certainly talked about 
this matter with Secretary Vilsack, the person who is primarily 
responsible for the settlement of the case, from the Justice 
Department side is the associate Attorney General Tom Perrelli. 
There were a variety of organizations, entities, individuals 
who were engaged. We were trying to work out a settlement short 
of litigation so people who were potential plaintiffs were part 
of these conversations to reach this agreement.
    Mr. Smith. Thank you, Mr. King.
    Mr. King. Thank you.
    Mr. Smith. The gentleman from Tennessee, Mr. Cohen, is 
recognized.
    Mr. Cohen. Thank you, Mr. Chairman. General Holder, I am 
understanding this issue some, but it is a great tragedy this 
agent was killed and it will be a year next week, as I 
understand it. And it was a Fast and Furious weapon that he was 
killed by, as I understand it. Is there any great difficulty in 
Mexico for folks who are part of these drug cartels or, you 
know, folks to get guns? Are guns rather plentiful in Mexico in 
general?
    Attorney General Holder. I think we can safely say that 
they are readily available, and the part of the problem with 
their ready availability is the fact that so many guns flow 
from the United States to Mexico. As I said over the last 5 
years, at least 64,000 weapons traced to the United States that 
were found in Mexico, and those were only the ones that were 
traced. There are undoubtedly additional guns in Mexico that 
have not been traced back to the United States.
    Mr. Cohen. So while it is a supposition I would presume 
that if Fast and Furious didn't occur, that the individuals 
that committed this act, this violent act and resulted in the 
death of the agent, they would have probably had weapons 
anyway?
    Attorney General Holder. You know, we can never--you can 
never suppose, but for is always hard to determine, but I don't 
think that is an illogical conclusion that the people who were 
involved in that senseless, tragic, awful murder probably could 
have had access to other weapons.
    Mr. Cohen. I kind of remember the president of Mexico 
saying something about most of the guns that come there come 
from the United States. I think he also said something about 
most of the market he has from marijuana comes from the United 
States too. So we supply him with guns and a market. We could 
certainly dry the market up, but that is the job of the 
Judiciary Committee, I realize.
    What are we doing to try to stop guns from going into 
Mexico? Are there efforts at the border to stop guns from 
traveling this country there?
    Attorney General Holder. We have moved people to the 
border. We work with our partners--the Justice Department works 
with our partners at DHS to try to come up with ways in which 
we inspect cars that are going from United States to Mexico. We 
have teams of agents that work together to try to determine 
ways in which we can stop the flow of guns. We use a variety of 
intelligence methods that I can't really get into to try to 
determine if cartels are trying to bring into Mexico huge 
stashes of guns.
    We also need to use things on this side of the border, and 
that is one of the reasons why that long gun rule, I think, is 
so important. If we see substantial numbers of these long guns 
being purchased, it gives the ATF real-time leads that they can 
follow to see if, in fact, these are legitimate purchases or if 
they are purchases by people intending to have those guns 
shipped to Mexico.
    Mr. Cohen. Coming home which is where I think the real 
issues are, not to say that they are not important about the 
border and all, but in our cities, we have a lot of youth 
violence and gangs. I want to commend you for having a national 
forum on youth violence prevention and including Memphis in the 
forum. Can you give the Committee some information about what 
you have done to help inner cities fight youth violence and 
gang activities?
    Attorney General Holder. One the things I want to say is 
the five police chiefs behind me from Charlotte, Detroit, 
Philadelphia, Baltimore and Boston, have all embraced, and we 
learned from them, the way in which we deal with this issue of 
youth violence. It is not simply a question of doing what is 
traditional law enforcement, that we have to come up with ways 
in which we deal with the underlying problems that involve our 
young people in these antisocial behaviors.
    Congressman Scott has been, I think, very forward leaning 
in this regard with legislation that he has proposed and that 
we support. We have tried to deal with these underlying causes, 
and it has been particularly useful to have our partners in law 
enforcement identify with and be participants in these 
preventive activities in addition to all the great things that 
they do on the enforcement side. The thing you have talked 
about what we are doing in Memphis is an example of the kinds 
of things we are trying to do in the Obama administration.
    Mr. Cohen. I would like, Mr. Chairman, to comment that the 
gentleman from Philadelphia, the chief, I recognize you and I 
kept thinking where do I know you from. And where I know you 
from is when you testified before this Committee on the bill to 
allow folks who had gun permits to travel from State to State 
based on Federal edict rather than state cooperative 
agreements. And at the time, I was a sponsor of the bill that 
ended up passing, but because of your testimony and law 
enforcement's objections, as well as my belief in States' 
rights, I changed my position, came off as a sponsor and voted 
against the bill. Your testimony was effective and it is nice 
to see you again, and I thank you for that.
    I yield back the remainder of my time, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Cohen. The gentleman from Texas, 
Mr. Gohmert, is recognized.
    Mr. Gohmert. Thank you, Mr. Chairman, and thank you, 
Attorney General for being here. We do appreciate the law 
enforcement being here. We have had multiple of our Democratic 
friends point out their presence and we do appreciate the job 
you do. I thought, and everybody needs friends, and I am glad 
you are supporting the Attorney General. I thought about 
inviting the law enforcement that is furious over Fast and 
Furious, but there is just not room in the room or building so 
I didn't do so.
    Let me ask you, Attorney General, have you read the opinion 
from the 5th Circuit Court of appeals on Holy Land Foundation 
trial that came out yesterday?
    Attorney General Holder. I have not seen that.
    Mr. Gohmert. Well, we know from prior documentation that 
there has been relationship with CAIR and the Justice 
Department; is there any ongoing relationship, any reach-out at 
this time still to CAIR?
    Attorney General Holder. Well, we certainly reach out to a 
variety of Muslim groups as we try to----
    Mr. Gohmert. I am talking specifically about CAIR.
    Attorney General Holder. I was getting there. But I don't 
think that we have any particular outreach efforts at this 
point with CAIR.
    Mr. Gohmert. You know there was a partnership between the 
FBI and CAIR, in 2009 it was temporarily suspended. I didn't 
know if there was informal outreach to CAIR.
    Attorney General Holder. I----
    Mr. Gohmert. We do know from this opinion yesterday, we 
know from the prior Fifth Circuit opinion when CAIR and ISNA 
and others tried to have their names struck as named 
coconspirators, that it was unsuccessful that the circuit 
basically saying there is a case there to prove. And then as we 
know, you decided not to pursue those, or your Department did 
as we talked about before.
    In the decision yesterday, the court said that the 
Palestine Committee created not only the Holy Land Foundation, 
but a number of other Islamist entities in the U.S., leaders of 
one of those entities the Islamic Association of Palestine 
subsequently created CAIR, Council on American Islamic 
Relations which are cited as coconspirators, so it does create 
some concerns.
    We know there was massive document, a massive number of 
documents being furnished to the defendants in that case. A lot 
of production of documents, but I would like to ask that we get 
copies of the documents that were provided to the five 
defendants who are now convicted and affirmed by the Fifth 
Circuit. Would the Justice Department make those documents 
available?
    Attorney General Holder. I am not sure I know what 
documents you are talking about. If they were provided in 
litigation?
    Mr. Gohmert. Correct.
    Attorney General Holder. And if we can provide them, I am 
sure that we would. I don't know if there are documents that 
have been provided in discovery that we don't have the ability 
to provide. I just don't know the answer to that.
    Mr. Gohmert. Well, they have been furnished to your 
Department to the defendants in the case. Those defendants have 
now been found guilty of providing support to terrorism. There 
is no question in my mind that those documents are now in the 
possession of terrorists. And so we have had trouble getting 
production of all the documents that we have desired and 
requested. And I didn't think that there should be any problem 
with privilege or anything of that nature since the defendants 
are convicted of supporting terrorism have them, the terrorists 
have them. And I just felt like it would be a good idea for 
Congress to have them.
    Attorney General Holder. I will take that request under 
advisement and to the extent we can provide documents----
    Mr. Gohmert. I hope we will have as good a standing as the 
terrorist supporters that have been convicted.
    I am familiar as a judge handling massive litigation, been 
an MDL with a document dump. About 100 of these are Grassley's 
letters. But I want to ask you, since you had said before in 
your statement that you asked the Department Inspector General 
to investigate this Fast and Furious matter in March, you 
ordered a directive be sent to law enforcement prosecutor 
prohibiting such tactics, and in this entire stack is not an e-
mail, not a letter, not a transcript of a speech, nothing from 
you. I would ask where they are. If you did those things in 
February or March, where are they? And not only that, you 
testified May 3 in here as we recall that you had just learned 
about Fast and Furious a few weeks before. And now you say 
actually in February, March you made these orders. When was the 
first time after May the 3rd you began to suspect that you may 
have actually taken actions in this case?
    Attorney General Holder. Well, actually took actions well 
before May the 3rd, on February 28.
    Mr. Gohmert. Well, unless you were intentionally 
misrepresenting the facts on May 3, which I am not contending 
at all no.
    Attorney General Holder. No.
    Mr. Gohmert. Then at some point you began to wonder gee, I 
believe I issued some orders in this matter. We haven't seen 
the orders, all we have is the transcript here. We know you are 
capable of mistakes as you have verified. Where are the e-
mails, letters, orders, where are they from February and March?
    Attorney General Holder. There are a couple of things going 
on here. I didn't play any role in the drafting of the February 
4 letter. With regard to the notion----
    Mr. Gohmert. So you were not the one who ordered the----
    Mr. Smith. The gentleman's time has expired. The AG will be 
allowed to answer the last question.
    Attorney General Holder. With regard to the question of 
what I said on May 3 about a few weeks, I said a few weeks 
about when I first learned about Fast and Furious, I learned 
about Fast and Furious when this became a matter of 
controversy. I think some time in the beginning of the year. My 
guess is probably the middle of February, which would have been 
10 or 12 weeks before I said a few weeks. Now, I could have 
said a couple of months, maybe I should have been more precise. 
But a few weeks, from my perspective, was accurate then and it 
still seems to be accurate now, when I say a few weeks, 10 or 
12 weeks that I think be encompassed in that description.
    Mr. Gohmert. Mr. Chairman, I would ask that he be allowed 
to actually answer the question of whether or not he is the one 
that actually ordered the inspector general to investigate 
that. And if so, where the documentation of it is. That was my 
question.
    Mr. Smith. Has the AG answered?
    Attorney General Holder. I will answer. I was, in fact, the 
person who requested, ordered the inspector general to begin 
this investigation. I don't think I did that in any written 
form. I think that was transmitted from me either through my 
chief of staff, the Deputy Attorney General, to the IG. There 
might be a writing that exists in that regard. I don't think I 
signed off on anything actually. I have a good relationship 
with the inspector general, the inspector general's office had 
looked at this whole question of gun trafficking before, and it 
seemed logical to ask them to expand their inquiry and look 
into Fast and Furious. As I said, I don't think it is any 
writing from me, but I can check that. I don't think there is 
any writing from me that exists with regard to.
    Mr. Gohmert. We should ask for a copy if any such exists. 
Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Gohmert.
    The gentlewoman from California, Ms. Lofgren, is 
recognized.
    Mr. Lofgren. Thank you, Mr. Chairman. There has been a lot 
of discussion on a lot of topics today. I noted the Chairman 
took the opportunity to discuss health care. And since we don't 
get you in front of us that often, I am going raise an issue 
that is not Fast and Furious. That is the Second Amendment; 
there is an amendment that comes before that and that is the 
First Amendment, and that is the subject of my inquiry.
    As you know, for over a year, ICE and the Department of 
Justice have been seizing domain names as hundreds of Web sites 
on allegations of criminal copyright and trademark 
infringement. One particular domain name was seized a year ago, 
November 2010, Dajaz1.com a very popular blog that was 
dedicated to hip-hop music. Just today, the news is with the 
details that the seizure, which I thought raised troubling 
questions at the time about the government's conduct in the 
case, and really raises questions about constitutional rights 
of due process and free speech as they apply to Web sites. 
After the government seized the domain name, its owner filed a 
quest for the government to return it to them. And under the 
law, the government has 90 days to initiate a full forfeiture 
proceeding against the domain, or else it has to return the 
property.
    However, in this case, the deadline passed with no action. 
And when the Web site's lawyer asked with your Department's 
lawyers, he was told the government had filed an extension with 
the court, entirely under seal without notice to him. They had 
no notice, they had no opportunity to respond. And when the 
lawyer, of course, this was according to the news reports, 
asked for any sort of proof that the extension had actually 
existed, your Department's lawyers reportedly said he would 
just have to trust them.
    The government then claimed to have received two additional 
extensions under the same process without notice, without a 
hearing, and they refused to release the court order according 
to the press reports. And then as of today, the last extension 
was filed and the government finally admitted that it did not 
have probable cause for the forfeiture, and the domain name was 
returned to the Web site owners today.
    In short, a blog site which is identical in terms of First 
Amendment protection to a newspaper or a magazine has the same 
First Amendment rights was shutdown for an entire year by the 
government, by our government, with no due process, no 
contested hearings, no written orders. I just think--if these 
reports are--that is just an outrageous violation of the First 
Amendment.
    So my question is, I assume that you believe that the First 
Amendment doesn't allow the government to go in and shut down 
the press for a year prior to restraint on speech without any 
kind of due process. I don't--I guess this is a question, do 
you think that is consistent with the First, Fourth and Fifth 
amendments to the Constitution. And if the fact--I will give 
you the article that I just read today. If the facts are as 
reported in this article what will you do to make sure that the 
wrongdoers in your Department are no longer in your Department? 
I mean this is--there has to be a sanction for someone to do 
such a thing. If we did this to a magazine if we went and 
locked the doors and put a sign and said ``closed'' and refused 
to deal with them for a year, people would be outraged, but 
since it is a blog, and since it is hip-hop artists. It seems 
to me, the hip-hop artists have as much right to due process 
and the First Amendment as any other American, so could you 
comment on that, Attorney General.
    Attorney General Holder. I am not familiar with the reason 
why that domain name was seized or the facts of this case. I 
will certainly look into that and we will get back to you with 
whatever information we can. You are right, I mean--what the 
subject matter is of a particular blog is obviously entitled to 
First Amendment protections. There maybe other reasons this was 
received. I just don't know. I can tell you my daughters are 
watching this hearing, having heard about this hip-hop issue 
now, I will hear about this from them when I get home.
    Mr. Lofgren. Very good.
    Attorney General Holder. And if nothing else, I will make 
sure that I stay in touch with these folks to get you an 
answer. My daughters will be on me about this one.
    Mr. Lofgren. Well, I wonder if you could give a commitment 
that if the facts are as we have outlined that you will take 
appropriate action within your Department to make sure that 
those who violated the law in the DOJ are dealt with and that 
this becomes a well-known sanctionable type of activity in your 
Department.
    Attorney General Holder. We will certainly look at it, my 
hope would be that there is a reason, an acceptable reason why 
these actions have occurred, if they have been accurately 
described. But to the extent that somebody has acted 
inappropriately in the Department I will make sure they are 
held accountable.
    Mr. Lofgren. Thank you, Mr. Chairman.
    Mr. Smith. The gentleman from Arizona, Mr. Franks, is 
recognized.
    Mr. Franks. Well, thank you, Mr. Chairman. Thank you, 
General, for being here. I guess to lay the groundwork here, 
you understand that perhaps reason that this issue has gotten 
so much attention is that in the simplicity of the overall 
project here, it appears that the American government, the 
American Justice Department--Department of Justice, through 
their Department subsidiaries, have orchestrated a program to 
get American gun dealers to sell guns to straw buyers, to then 
run those guns to Mexico and give them to drug cartels, around 
2,000 high powered weapons, with the understanding that that 
takes grave risk for innocent human life.
    I mean at this point, we know at least one of our own 
agents was killed, and probably 150 or more Mexican citizens 
were killed. Now that is a pretty scary scenario by itself. But 
I think the thing that would really concern the American people 
is why this was all done. On the one hand, if it was just 
something that was sincere effort that went wrong or just gross 
incompetence, that is one thing. But Mr. Issa mentioned some 
internal e-mails that I think were pretty significant, because 
if the American people learned that the motivations for all of 
this was somehow to make a case to deprive them of their second 
amendment rights, to make a case to further the Department's 
ability to further regulate gun rights within the United 
States, that would make them very angry, General. So let me 
just read a couple of e-mails again. I know Mr. Issa has 
already done this, but I just want to be clear on this so that 
you understand why some of us are so concerned.
    On July 14, 2010 the ATF headquarters received an update on 
Fast and Furious. And the assistant director Mark Chait e-
mailed Bill Newell, the head of ATF's Phoenix office. ``Bill, 
can you see if these if guns were all purchased from the same 
license gun dealer and at one time? We are looking at antidotal 
cases to support a demand letter on long gun multiple sales. 
Thanks.''
    In other words they were trying to use this tragedy to 
build a case for the demand letters. Well done, yesterday, Bill 
in light of our request for demand letter 3, this case could be 
a strong supporting factor if we determine how many multiple 
sales of long guns occurred during the course of this case. It 
appears that the ATF was trying to rely on walked guns 
orchestrated by the Department to justify its new long gun 
reporting requirement known as demand letter 3. The people 
would be very upset if that was true. Now you have already 
testified that you haven't read these e-mails; is that correct?
    Attorney General Holder. I am sorry, that I haven't read?
    Mr. Franks. You already told Mr. Issa that you hadn't 
actually read these e-mails.
    Attorney General Holder. That is correct.
    Mr. Franks. Well, you know, the thing that is difficult for 
me, General, is that you then told him that it was out of 
context. And how would you have known that it was out of 
context if you hadn't read them. What would give you the first 
indication that they were out of context?
    Attorney General Holder. Because he read part of the e-mail 
to me, and I was able to listen to that and understanding what 
he said or what he read from the e-mail and knowing what 
happened here as I----
    Mr. Franks. I will accept that. But do you read, I know you 
said that you don't oftentimes read letters from your own 
staff. Do you read major letters from oversight chairmen like 
Mr. Issa and Mr. Grassley that come to your office, do you 
personally read these letters?
    Attorney General Holder. I can certainly say that over the 
last few months, everything that Mr. Issa has sent and Senator 
Grassley has sent, I have read.
    Mr. Franks. Let me say then to you, on July 12, 2011, which 
was a letter that they both sent to you, the e-mails I just 
read to you were attached to the letter.
    Attorney General Holder. I might not have read the 
attachments. Understanding something. These things come in, I 
read these things from Mr. Issa, from Congressman Issa and 
Senator Grassley, because I take seriously----
    Mr. Franks. It is hard for me to--anyway, let me skip, ask 
you one more question here. Mr. Issa also asked if you had 
given all the pertinent e-mails here and that he noted that 
none of them had your name on this, none of them. And you said 
this is--this obviously is probably one of the most significant 
scandals facing your tenure over at the Justice Department, and 
not one e-mail, General, was from you? Not one of them?
    Attorney General Holder. Well, we have produced a really 
substantial amount of stuff around the February 4 letter, but I 
just--let me be very clear, that with regard to documents that 
go beyond that from February 5 on, those materials have not 
been produced and it is not our intention to produce them 
following that----
    Mr. Franks. So the answer to his question would have been 
no, that you haven't given him all the pertinent e-mails. I 
guess it is very simple in my mind that either if there are no 
e-mails from you that have been given to Mr. Issa, if there are 
none regarding this Committee, then we are left with three 
options here: Either this is not that big a deal to you, and I 
know that it is; or somehow you, for particular reasons, don't 
write e-mails so that there can't be any record; or that you 
haven't given us those e-mails, that is the only three things I 
can come up with, there may be other possibilities, I am open 
to hear it.
    Attorney General Holder. I made an exception to the way in 
which the Justice Department has always conducted itself with 
the provision of these materials around that February 4th 
letter and acted in a way with regard to all other e-mail 
material in a way that all other Attorneys General before me 
have. And on that basis, there are e-mails, materials that we 
have not and will not produce.
    Mr. Franks. I understand. Mr. Chairman, my time is up, but 
I understand, Mr. General, and I appreciate--but that answers 
the question. And I appreciate that, because without insulting 
you, that is one of the first clear answers I have gotten today 
is that you have agreed that you haven't given the Chairman all 
of the pertinent e-mails, and you are saying you are not going 
to, at least that is a clear answer for all of us, and with 
that, I yield back.
    Mr. Smith. Thank you, Mr. Franks. The gentleman from 
Illinois, Mr. Quigley, is recognized.
    Mr. Quigley. Thank you, Mr. Chairman. For those keeping 
score at home, one side is using this horrible screw-up to 
justify a policy. The other side is using this horrible screw-
up to justify not funding ATF, not giving the ATF a leader, 
continuing to make tracing difficult of guns, continuing to 
make releasing statistics difficult, and for allowing continued 
extraordinarily lax policies for the violators and the 
purchasers of straw weapons that will be used long, long after 
this hearing today to purchase weapons to endanger Mexicans and 
Americans and our DEA agents. Penalties that were described in 
hearings before this Congress as nothing more than a moving 
violation.
    So Mr. Attorney General, now that I have got the score card 
up to date. Let me just congratulate you, I can't forget that I 
am from Chicago, and yet again, yesterday there was a 
sentencing of an Illinois governor. So we will have two in jail 
at the same time, four of the last eight governors, two of my 
last four predecessors in this office went to jail or are going 
to jail. So I want to commend your office for its work. I just 
wish we didn't give you so much work to do.
    But toward that end, Mr. Sensenbrenner and I did manage to 
get a bill out of this Committee dealing with repairing honest 
services, I would like your reaction on where we need to go 
with that. As you know, the Supreme Court struck down that Act, 
many provisions of it, and they are a necessary tool. Given 
where we are in Chicago but across the country, where in your 
mind do we need to go to deal with official corruption?
    Attorney General Holder. Well, I thank you for the 
compliment, it is not something that I should be complimented 
for, but the men and women in U.S. Attorneys office in Chicago 
deserve all the credit. Pat Fitzgerald is a great U.S. 
Attorney, a friend, he has done a wonderful job over a great 
number of years there and he has a great staff. I also 
appreciate the efforts that you and Congressman Sensenbrenner 
have--the efforts that you have made in trying to help us deal 
with that Supreme Court decision.
    The honest services provision in Title XVIII is a vital 
tool for us to have as we try to fight official corruption 
cases. A number of cases over the years have been made on the 
basis of the use of that provision, and to the extent that we 
can work with Congress to have that provision formed in a way 
that it can withstand constitutional muster that will help us; 
it will give us another tool in our arsenal against official 
corruption, which is a priority for this Administration.
    Mr. Quigley. And obviously, the bill has not passed the 
full House and/or Senate. To the extent that your agency can or 
will participate in making sure that we do this right as with--
we would like this one to stand up for some time, we certainly 
appreciate your help in that manner.
    Attorney General Holder. We would be glad to work with you 
in that regard.
    Mr. Quigley. Thank you, Mr. Chairman. And I yield back.
    Mr. Issa [presiding]. The gentleman yields back. We now 
recognize the gentleman from Texas, Mr. Poe, for 5 minutes.
    Mr. Poe. Thank you, Mr. Chairman. Mr. General, the way I 
see the Fast and Furious operation based on all of the 
information that I have received, is that United States 
Government, Justice Department, ATF, we are aware of a 
situation where guns could be bought in the United States, 
serious weapons, automatic, semi-automatic, sniper rifles, 
bought by straw purchasers and were observed by Federal 
authorities, wanted to watch the guns go to Mexico, go to the 
drug cartels and see where they ended up.
    Here is how it ended up. Two thousand weapons, based upon 
the information that we have received from your Department, 600 
of those weapons are accounted for, the vast majority are not 
accounted for. We don't know what country they are in and who 
has got them. But this operation is serious to me because 
people died with this ill-founded decision. We talk about the 
two Americans, the two agents, one Brian Terry, Jaimie Zapata 
in Mexico, the two agents. But at least 200 Mexican nationals 
died too because of the United States watching these weapons, 
knowing where they were going and lose those weapons. Mexican 
government hasn't said a whole lot about this other than at 
least 200 Mexican nationals. Those Mexicans nationals that were 
murdered because of our watching this illegal conduct are just 
as important as the two Americans that were murdered as well. 
And that is why this is a serious discussion.
    You are the Attorney General, you are a lawyer, former 
judge, prosecutor, you are the head guy in the United States 
when it comes to the Justice Department and law enforcement. My 
understanding is you didn't really know about the operation, 
the memos, you might have gotten the memo, didn't read the memo 
or didn't read all of the memo, not sure about that. But you 
are the person in charge of this, and believing that you were 
unaware of Operation Fast and Furious requires to coin a 
phrase, a willing suspension of disbelief. It is hard for me to 
believe that you were unaware of this operation that went to 
Mexico.
    Now my question is very simple, who is the person in the 
United States Government that made the decision on Operation 
Fast and Furious to facilitate the guns going to Mexico? Who is 
that one person?
    Attorney General Holder. We don't know yet.
    Mr. Poe. So you don't know who was responsible for the 
conduct of these thousands of guns going to Mexico? We don't 
know who that is?
    Attorney General Holder. We know that the case was opened 
in the ATF office in Phoenix a month or so before it was opened 
in the U.S. Attorney's Office in Phoenix. We know that it was 
given OCDETF status sometime after that, but we do not know as 
yet who the particular people, person was, to the extent it is 
a person, in either of those offices that said this is the way 
in which this operation, this flawed operation should be 
conducted.
    Mr. Poe. So we don't know the person that signed off--I 
mean, I don't know how the Federal Government works, everybody 
has got to sign off on something, especially something like 
this. We don't know who that person is yet. Is that what you 
are telling me?
    Attorney General Holder. With all due respect, I would be 
surprised if we are going to see a document that somebody 
signed off on that said you can let guns walk. I would be 
surprised if we see something like that.
    Mr. Poe. Would you agree----
    Attorney General Holder. I don't know.
    Mr. Poe. We don't know who was in charge of making that 
final, it is time to send the guns to the enemy of Mexico, the 
drug dealers, which is phenomenal to me. It is a violation, I 
understand, of international law to allow gun trafficking to go 
between two countries. Do you agree with that?
    Attorney General Holder. Well, I don't--it would depend. If 
you look at----
    Mr. Poe. People in one country are smuggling guns to 
another country, isn't that a violation of international law?
    Attorney General Holder. Well, I don't know about 
international law, but I was going to say if you look at 
Operation Wide Receiver, if the governments agree that weapons 
can go from one country to another, I would not think that 
violates international law.
    Mr. Poe. If they agree, that is the key.
    Attorney General Holder. Right.
    Mr. Poe. Did the Mexican government agree to Operation Fast 
and Furious?
    Attorney General Holder. Not the way--not the way--not the 
way which it was actually carried out.
    Mr. Poe. The way it turned out?
    Attorney General Holder. The way it turned out.
    Mr. Poe. Would you agree it was a reckless? It was a 
reckless operation on the part of the United States?
    Attorney General Holder. I think the way it was carried 
out, I would certainly say it was flawed, reckless, I probably 
would agree with that. It was done inappropriately and had 
tragic consequences and is going--as I said in my opening 
statement, it is going to continue to have tragic consequences.
    Mr. Poe. More people are going to die probably.
    Attorney General Holder. Unfortunately, I think that is 
probably true.
    Mr. Poe. The person recklessly causes the death of another 
person under many State laws, including Texas, where some of 
these guns were bought, it is manslaughter, it is a crime. It 
is my belief that if the United States government helped 
facilitate reckless homicide, reckless killing of other people, 
this is a serious matter. And there may be people in our 
government, Justice Department, the ATF, that if they helped 
facilitate reckless conduct that caused the death of an 
individual in the United States or in Mexico by sending these 
guns down there, they should be held criminally responsible for 
that conduct.
    Are you going, as far as the Attorney General, to make sure 
that if criminal violations were committed by anyone in our 
government, that you are going prosecute those people?
    Attorney General Holder. Sir, if we find there were 
criminal violations connected to the conduct of the Fast and 
Furious, I will commit that those--that we will take those 
findings seriously and that people will be prosecuted. Now when 
I said reckless before, I was talking about the way in which 
the operation itself was conducted. I don't want to cast too 
wide a net here and say that on the basis of what we know now 
that there is a basis to conclude that people connected to Fast 
and Furious either at the ATF in Phoenix or in the U.S. 
Attorney's Office in Phoenix would necessarily have the 
requisite state of mind or done things that would bring them 
under the ambit.
    Mr. Poe. Reclaiming my time, that is not what you are 
saying, that is what I was saying. I was saying----
    Mr. Smith [presiding]. The gentleman's time has expired.
    Mr. Poe. Thank you very much. And I request unanimous 
consent to submit further questions to the Attorney General and 
have answers in writing.
    Mr. Smith. Without objection. Thank you, Mr. Poe.
    The gentlewoman from California, Ms. Chu, is recognized.
    Ms. Chu. Mr. Attorney General, before I begin with my 
questions, I would like to thank you for the anti-crime 
accomplishments in my district of Los Angeles. Earlier this 
year, the Department took down in 1 day more than 100 members 
and associates of transnational organization crime groups that 
were involved in widespread criminal conduct in Los Angeles, 
Miami and Denver. These were violent and fraud-related crimes, 
including kidnapping and drug distribution. And also, in recent 
years, the Department has gone after a San Gabriel Valley-based 
organization linked to a major ecstasy ring leading to the 
seizure of over 1.1 million ecstasy tablets.
    Your office has also engaged in a massive take down of 
major methamphetamine and cocaine suppliers in some of the most 
violent street gangs in Los Angeles and La Puente. So I thank 
you for all of those efforts. It has truly helped our area.
    And I would also like to commend you for the work your 
department has done in regards to voter rights. Your office has 
handled 27 new cases this year and opened up 172 investigations 
in this area. We all know there has been a large number of 
unprecedented legislation suppressing voter rights. And I am 
happy to hear that your office is vigilant about not letting 
that happen.
    Can you provide some examples of what the department is 
doing to ensure that newly enacted State legislative efforts on 
voter identification are implemented in accordance with the 
Voter--Voting Rights Act?
    Attorney General Holder. Well, we have a special role to 
play under the Voting Rights Act. Our Civil Rights Division, 
which is ably led by Tom Perez, has been very active in this 
regard. And to the extent that changes are made in covered 
jurisdictions, we review those proposed changes. And where we 
think something runs afoul of the Voting Rights Act, we note 
that and do not pass on them. Where we think that they are 
consistent with the Voting Rights Act, we approve them. We have 
taken, in a number of places, lodged objections to proposals 
that have been made with regard to changes in voting schemes.
    Ms. Chu. And what steps are being taken to ensure that 
jurisdictions and the public are aware of what is permissible 
and not permissible with these types of laws?
    Attorney General Holder. Well, you know, we have tried to--
Assistant Attorney General Perez in particular has spent a lot 
of time on the road, trying to educate people, especially in 
those areas covered by the Voting Rights Act, about--and we 
have interacted with State officials as well, to let them know 
about ways in which things can be changed consistent with the 
Voting Rights Act, warned jurisdictions about ways in which 
changes might be made that might run afoul of the Voting Rights 
Act.
    And then, more generally, to talk to members of the public, 
as I have tried do, when I have been out there to talk about 
the Voting Rights Act. As I said, I am going to be talking 
about this in a speech in the LBJ library next week, I think on 
Monday or Tuesday.
    Ms. Chu. Very good.
    Well, I also want to thank you for something else, which is 
that there is an issue about offensive materials about Muslims 
that was used in some FBI training. And I know that in the 
Senate Judiciary meeting last month, you acknowledged that this 
has stopped. It was when the FBI was conducting 
counterterrorism training, using materials that included 
inflammatory statements about Islamic beliefs and offensive 
stereotypes about Muslims. So, at that Senate Judiciary 
meeting, you acknowledged that it stopped. And I would like to 
know what the status is of the situation and the steps that 
have been taken or any investigation that has been opened up 
about the use of these biased trainers and materials.
    Attorney General Holder. Well, the person who was 
responsible for the use of--I guess using that material is no 
longer going to be used by the FBI. We have also enhanced our 
efforts to make sure that we review all the materials that are 
used in the training of agents, lawyers, personnel within the 
Department of Justice to make sure that that kind of mistake 
doesn't happen again. This is something that the FBI Director, 
the heads of the other law enforcement agencies within the 
Department, as well as I and the leadership in the Department, 
are committed to making sure does not happen again. I mean, 
that was totally inappropriate, and it is a mistake that we 
will not allow to happen again.
    Ms. Chu. Thank you.
    I yield back.
    Mr. Smith. Thank you, Ms. Chu.
    The gentleman from Utah, Mr. Chaffetz, is recognized.
    Mr. Chaffetz. Thank you.
    And thank you, Mr. Attorney General, for being here. Have 
you spoken to Secretary Napolitano about Fast and Furious?
    Attorney General Holder. No.
    Mr. Chaffetz. Have you spoken with Secretary Clinton about 
Fast and Furious?
    Attorney General Holder. No.
    Mr. Chaffetz. Have you spoken to President Obama about Fast 
and Furious?
    Attorney General Holder. I don't think that I have. I see 
the President----
    Mr. Chaffetz. That is okay. If you haven't, you haven't.
    Have you spoken to the President of Mexico about Fast and 
Furious?
    Attorney General Holder. No.
    Mr. Chaffetz. Have you spoken to the attorney general of 
Mexico about Fast and Furious?
    Attorney General Holder. I don't believe so.
    Mr. Chaffetz. You have routinely argued that you have been 
oblivious and disengaged in this operation. And I buy that to a 
large extent.
    Attorney General Holder. I am not sure I would 
characterize----
    Mr. Chaffetz. But we have a dead Border Patrol agent in 
Agent Terry. We have 2,000 missing guns. We have 200 deaths in 
Mexico. We had dead government officials in Mexico. We have a 
Mexican helicopter with troops in it that was shot, three of 
which are wounded back in May of this year. We have 50-plus 
Members of Congress calling for your resignation over this, and 
you have never spoken to any one of these people about this 
operation?
    Attorney General Holder. Well, first off, the notion that I 
am somehow oblivious to this matter is totally belied by these 
inconvenient things called the facts.
    Mr. Chaffetz. You took 5 days to go to the Caribbean. You 
didn't have 15 minutes to call Secretary Clinton, Napolitano, 
talk to the President, or your counterparts in Mexico?
    Attorney General Holder. Understand something with regard 
to Secretary Napolitano, we, our agencies have been in constant 
touch with each other about this issue because we are engaged, 
both of us, in the prosecution of the killer of----
    Mr. Chaffetz. So if you were intimately involved and 
engaged in this, remember Agent Terry was killed in December, 
mid-December, and then we had Jaime Zapata, who was killed in 
Mexico, two officers shot, February 15. On February 16, you and 
Secretary Napolitano issued a press release that is titled, 
``Secretary Napolitano and Attorney General Holder form a joint 
task force to assist Mexico's investigation into yesterday's 
shooting of two ICE agents in Mexico.''
    At the very beginning of this press release, Secretary of 
Homeland Security Janet Napolitano and Attorney General Eric 
Holder today met to discuss this issue. And how is it that you 
and Secretary Napolitano said you never even talked or 
discussed, even brought up or had any discussion about Fast and 
Furious?
    Attorney General Holder. The press release that you talk 
about is not a Fast and Furious matter.
    Mr. Chaffetz. But----
    Attorney General Holder. Understand--you have to understand 
something of the way Washington works here, okay? The reality 
is that when it comes to matters that are under investigation--
--
    Mr. Chaffetz. But the death of Jaime Zapata was highly 
likely, it was highly likely that that came from Fast and 
Furious. In fact, from testimony that we took from Agent 
Forcelli, and I am going to read from this, is from January 8 
of 2011, quote, And there was the sense like every other time, 
even with Ms. Giffords' shooting, there was a state of panic 
like, oh, my God, let's hope this is not a weapon from that 
case. And the shooting of Mr. Zapata down in Mexico, I know 
that again, that state of panic that they had like, please, let 
this not come back.
    So the agents on the ground were so concerned that this is 
going to happen. You and Secretary Napolitano have a 
discussion, and there is no discussion about even the 
possibility of Fast and Furious?
    Attorney General Holder. There is--the meaningful 
conversations that happen between DHS and DOJ happen at lower 
levels, between investigators.
    Mr. Chaffetz. But when you and--what did you and Secretary 
Napolitano talk about if you didn't talk about Fast and 
Furious, and it is the day after Jaime Zapata, and you were 
very quick to issue press releases?
    Attorney General Holder. You are making an assumption that 
that in fact is a Fast and Furious case. I am not sure that----
    Mr. Chaffetz. We didn't know at the time. You didn't know 
at the time. I didn't know. Nobody knew at the time. Isn't it a 
reasonable assumption to suggest that it may have been guns 
from Fast and Furious that happened, that caused that death?
    Attorney General Holder. Given the fact that there are over 
the course of the last 5 years 64,000 weapons that have gone 
from the United States to Mexico----
    Mr. Chaffetz. I have a hard time believing, Mr. Attorney 
General, with all due respect, my time is short, twice the 
President of the United States has gone before the American 
people and said that you had nothing to do with this, you 
weren't involved in it, you weren't engaged in it. Yet you said 
you have never spoken to the President. How is it that he would 
know you haven't been--weren't involved in this, and he can 
make such a claim if you have never even spoken to him about 
it?
    Attorney General Holder. Well, the President gets 
information from the Justice Department in a variety of ways. 
We interact with the White House Counsel's Office very 
frequently. I don't know exactly what the flow of information 
is within the White House, but he can find out about my state 
of involvement in matters connected to the Justice Department 
without speaking directly to me.
    Mr. Chaffetz. Let me move onto--you have access to, 
obviously, the e-mails of Dennis Burke. On Wednesday, November 
24, 2010, he sent an e-mail that said, ``Some of the weapons 
bought by these clowns in Arizona have been directly traced to 
murders of elected officials in Mexico by the cartels. So Katie 
bar the door when we unveil this baby.'' How is it that you 
have never had a discussion with your counterpart in Mexico 
about this?
    In fact, in a Los Angeles Times article, dated September 19 
of this year, quote, At no time did we know or were we made 
aware that there might have been arms trafficking permitted. In 
no way would we have allowed it because it is an attack on the 
safety of Mexicans. It goes on in the article, actually the 
paragraph before, And to this date she said U.S. officials have 
not briefed her on the operation gone awry, nor have they 
apologized.
    What is unacceptable is that you and everybody in your 
organization, according to you the higher-ups, know about this 
investigation. You don't have 15 minutes to pick up the phone. 
And we have still never talked to these people in order to 
solve this problem because, as you say, it is going to go on 
for some time.
    Attorney General Holder. We have taken steps, I have taken 
steps to solve this problem in that I ordered an examination of 
this to determine exactly what happened. I have issued 
directives that this should never happen again. We have put in 
place measures at ATF so that this kind of thing won't happen 
again.
    What Todd Jones has done with regard to the reforms that he 
has put in place I think are going to be extremely effective. 
And I have made personnel changes with regard to----
    Mr. Chaffetz. You haven't fired anybody. Nobody has been 
fired.
    Mr. Smith. The gentleman's time has expired.
    Does the gentleman want to respond to the last question?
    Attorney General Holder. I just was trying to say that I 
have made personnel changes with regard to the agencies that 
have been involved. And these are initial determinations that I 
have made. It is not all that I am possibly going to do. There 
is an impatience here, and in some ways, I understand it, but 
the reality is that you have to do these things on the basis of 
evidence, on the basis of findings that are factually grounded. 
And when I am in that position, I will take the appropriate 
actions. But I want to assure you and the American people that 
people will be held accountable for the mistakes that were made 
in Fast and Furious.
    Mr. Issa. Mr. Chairman, point of inquiry.
    Mr. Smith. Thank you, Mr. Chaffetz.
    Who seeks to be recognized?
    The gentleman from California.
    Mr. Issa. A point of inquiry. Do political appointees of 
the Presidents and the Attorney General serve at the pleasure 
of the President or the Attorney General, or do they need to 
have to be fired for cause?
    Mr. Smith. That is not actually a parliamentary inquiry----
    Mr. Issa. But I am sure inquiring.
    Mr. Smith [continuing]. Though it may be a legitimate 
question. The Judiciary Committee will recess until immediately 
after this series of votes. We expect that to be about 2:30.
    [Recess.]
    Mr. Smith. The Judiciary Committee will come to order.
    Before we resume our questioning, I would like to welcome 
the newest Member of the Committee, Jared Polis, from the 
Second District of Colorado. Congressman Polis was just 
appointed yesterday to fill a vacancy on the Committee. And we 
are happy to welcome him back. He was on the Committee for 
several years and is back on now.
    He also serves on the Rules Committee and the House 
Democratic Steering and Policy Committee. And at our next 
meeting, we will go into even more details about Mr. Polis. But 
we welcome him today.
    And will be recognizing you immediately for questions.
    Mr. Polis. Thank you so much, Mr. Chairman.
    I would like to draw your attention, Mr. Attorney General, 
to the issues surrounding the regulation of medical marijuana.
    I wanted to first clarify, there is a memo dated October 
19, 2009, from David Ogden. I am sure you are familiar with 
that memo. The contents of that memo is advisory to the States 
is still in force. Is that correct? That is still a current 
memo?
    Attorney General Holder. Yes.
    Mr. Polis. Okay. Thank you. And one of the issues that was 
later clarified in a memo by James Cole is what we are talking 
about when we are talking about caregivers, who your memo 
instructs should not be an enforcement priority. The Colorado 
Constitution in Article XIV happens to have a definition of 
caregiver. It is further refined in our Colorado statutes. And 
I wanted to see whether I can get your assurance that our 
definition of caregiver in our State's Constitution will be 
given some deference by the U.S. Attorney General's Office.
    Attorney General Holder. I am not familiar with the 
provision. But what we said in the memo we still intend, which 
is that given the limited resources that we have, and if there 
are States that have medical marijuana provisions, and if you 
take into account the Cole memo, if in fact people are not 
using the policy decision that we have made to use marijuana in 
a way that is not consistent with the State statute, we will 
not use our limited resources in that way. And so I don't 
know--I assume that--I just don't know about that provision.
    Mr. Polis. And again, in the case of Colorado, we do have 
definitions of some of the terms in your documents in our 
Constitution. And I would hope that the U.S. Attorney General 
for the State would look at that.
    Now, as you know, the Department of Justice recently 
announced a crackdown in California. Now, part of the issue 
there, it is my understanding, they did not have a functional 
State-level regulatory authority. Colorado does have an 
extensive State regulatory and licensing system for medical 
marijuana. And I would like to ask whether our State 
regulation, our thoughtful State regulation, passed with strong 
bipartisan majorities in both Chambers of our legislature, 
provide any additional protection to Colorado from Federal 
intervention.
    Attorney General Holder. Again, I am not familiar with it, 
but I would have to look at it. But again, our thought was that 
where a State has taken a position, it has passed a law and 
people are acting in conformity with the law--not abusing the 
law, but acting in conformity with it--and again given our 
limited resources, that would not be an enforcement priority 
for the Justice Department.
    Mr. Polis. Thank you. I am grateful for that clarification.
    One of the issues that many of the legal, regulated medical 
marijuana shops and dispensaries shops in Colorado brought to 
my attention is their inability to open bank accounts at most 
FDIC institutions. That makes the industry harder for the State 
to track, to tax, to regulate, and in fact makes it prone to 
robberies because it becomes a cash business as well. Is there 
any intention of the Department of Justice to prosecute bankers 
for doing business with licensed and regulated medical 
marijuana providers in the States?
    Attorney General Holder. Again, I would think, consistent 
with the notion that how we use our limited resources, again, 
if the bankers, the people seeking to make the deposits are 
acting in conformity with State law, that would not, again, be 
an enforcement priority for the Justice Department.
    Mr. Polis. Thank you.
    Moving onto another issue with regards to Internet piracy, 
as you know the Judiciary Committee recently held hearings on 
SOPA, Stop Online Piracy Act. I had many concerns with this 
bill, including an overly broad definition of infringement. As 
you know, there is a lot of content on the Internet. In fact, 
as example, on YouTube alone, there's 100 hours of video that 
is uploaded every minute. Many of this, many of the videos that 
have been uploaded contain some type of rights infringement, 
with no intent for commercial gain.
    I ask with the substantial new powers that would be granted 
to the Attorney General's Office under SOPA, what type of 
resources would the Department of Justice need to handle the 
hundreds of millions of prosecutions that would be necessary 
and indicated under SOPA?
    Attorney General Holder. Well, I think that you have to 
look at what powers we would be granted and then how we would 
use our resources. Not every matter, though it might be a 
technical violation of a statute, is something that we are 
going to use our resources going against. I mean, if there is a 
YouTube upload of something that is not intended for commercial 
use and we don't think there is any great harm, that is not the 
kind of thing we are going to be going after.
    Mr. Polis. So it is fair to say, given otherwise the 
absence of tens or hundreds of billions of resources to go 
after everybody, there would be selective enforcement of the 
Stop Online Piracy Act from the Attorney General's Office?
    Attorney General Holder. Well, selective enforcement, as a 
prosecutor you get a little nervous saying that phrase. But 
there would be an appropriate use of our resources, taking into 
account what the harm is, and always with the thought that what 
we are trying to do is to protect the abuse of copyrighted 
material.
    Mr. Polis. I thank the gentleman.
    And just note that with regard to the selective 
enforcement, there is not currently criteria in the bill, so 
that would be at the discretion of your office to decide what 
type of selective enforcement of that law and the new powers 
would be given to the Attorney General under that would entail.
    And I yield back the balance of my time.
    Mr. Smith. Thank you, Mr. Polis.
    The gentleman from South Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Holder, Assistant Attorney General Ronald Weich wrote a 
letter to a Member of Congress, February 2011, a letter which 
was demonstrably false. Your Department withdrew that letter 10 
months later. When did you learn that that letter was false?
    Attorney General Holder. Well, I would not characterize the 
letter as false. I would say it contained inaccuracies.
    Mr. Gowdy. Well, Mr. Attorney General, it contained 
material demonstrably false statements. Agreed?
    Attorney General Holder. No.
    Mr. Gowdy. You don't think they were demonstrably false 
when you represented ATF makes an effort to interdict all 
weapons going to Mexico? You don't think that is demonstrably 
false?
    Attorney General Holder. Not in the way you used the word.
    Mr. Gowdy. How do you know what way I used the word?
    Attorney General Holder. I am listening to you.
    Mr. Gowdy. Is it false? Can I demonstrate that it is false?
    Attorney General Holder. Well, you said materially false. 
You are using legal terms there. You are a lawyer. So now we 
are in that realm. And you said materially false. And that is a 
fundamentally different thing from----
    Mr. Gowdy. All right. Do you think it was demonstrably 
false?
    Attorney General Holder. I would say that it was 
inaccurate.
    Mr. Gowdy. All right. When did you learn it was inaccurate, 
demonstrably false?
    Attorney General Holder. You know, I am not sure, but I had 
concerns about it early enough that in spite of the expression 
on February 4, I ordered that investigation on February the 28. 
And it was an evolving process. As time went on, more and more 
information became available. And it became more and more clear 
that that letter contained inaccurate information.
    Mr. Gowdy. Well, it strikes me that if a statement that 
false were made to a judge, you would have withdrawn that 
statement, that brief, that memo, that filing the moment that 
you learned it was false. And I am just curious why there is 
not the same regard for this branch of government that there 
would be for the judicial branch of government.
    Attorney General Holder. If you look at what happened over 
the course of months between the time of the letter until it 
was formally withdrawn, there were a number of instances where 
we indicated that we had concerns about what was in the letter, 
in testimony that Mr. Weich gave, at one point I believe, he 
said we were not--I don't remember the exact expression that he 
used, but he indicated there that we had concerns. In a letter 
that I sent I guess in October, I indicated there were problems 
with Fast and Furious which was inconsistent with what the 
letter said. There were a number of things that happened 
between February 4 and I guess December or November, whenever 
it is that we actually withdrew it.
    Mr. Gowdy. Let's go back to February 4, because there are 
at least four senior DOJ officials who knew or should have 
known that letter was false at the time it was delivered. Your 
chief of staff, Gary Grindler, saw a map of Mexico where guns 
were being recovered. He was debriefed on Fast and Furious. He 
knew that cash was being paid for the weapons in Arizona. Lanny 
Breuer, you will concede, knew for a fact that gun walking was 
taking place in February of 2011. Agreed?
    Attorney General Holder. No.
    Mr. Gowdy. You disagree that Lanny Breuer, despite the fact 
that he has admitted it, knew that gun walking was taking place 
by ATF. Mr. Attorney General, there are e-mails where he 
admitted it in October of 2010.
    Attorney General Holder. Okay, now Congressman, you have to 
be careful here. He said that he knew about gun walking in 
Operation Wide Receiver.
    Mr. Gowdy. Right. Which is why it is very important Mr. 
Weich didn't say Fast and Furious in his letter to Senator 
Grassley. I see where you are going with that. He didn't make a 
distinction on Fast and Furious.
    Attorney General Holder. I am just trying to be careful 
here.
    Mr. Gowdy. And I want to be careful, too.
    Attorney General Holder. You don't want to conflate things.
    Mr. Gowdy. I am not conflating.
    Attorney General Holder. Okay.
    Mr. Gowdy. Did Lanny Breuer know that ATF engaged in gun 
walking in February of 2011.
    Attorney General Holder. He knew they had engaged in gun 
walking in the Fast--in the Wide Receiver operation.
    Mr. Gowdy. So the answer to that question would be yes. 
Lanny Breuer knew that any statement that ATF makes every 
effort to interdict guns and not allow them to go to Mexico, he 
knew that statement would have been false.
    Attorney General Holder. He said that he made a mistake in 
not connecting that which he knew about Wide Receiver and 
didn't apply that knowledge to what happened in Fast and 
Furious.
    Mr. Gowdy. What about Jason Weinstein and James Trusty? 
This is their e-mail exchange: It is a tricky case given the 
number of guns of that have walked. That is October 2010. 
Trusty responds, It is not going to be any surprise that a 
bunch of U.S. guns are being used in Mexico, so I am not sure 
how much grief we get for gun walking. These aren't AUSAs in 
Arizona. These aren't rogue ATF agents. These are senior DOJ 
officials. And I cannot believe that they just learned recently 
that a demonstrably false letter had been mailed to a Member of 
Congress. Why not correct it the moment you realized that it 
was wrong?
    Attorney General Holder. Well, they admit that they made 
mistakes with regard to what their level of knowledge was and 
what they should have done in the preparation of the letter. 
They relied on people who they thought had the best knowledge 
in Arizona and did not bring into their calculation information 
that they had previously had about the gun walking that had 
occurred in that prior operation.
    Mr. Gowdy. Mr. Attorney General, you brought several law 
enforcement officials with you today. And I salute their 
service. It just strikes me--and I am quite confident I will 
get this question when I go back home--when law enforcement 
officers lie to lawyers, they go to jail. When lawyers lie to 
Congress, they seem to get promoted. There is a Border Patrol 
agent who is on his way to Federal prison right now on a 1001 
conviction. What consequences can we expect because of false 
statements made to Congress?
    Mr. Smith. The gentleman's time has expired.
    And if the Attorney General will respond to the question.
    Attorney General Holder. As I said, there is an Inspector 
General investigation that is underway. I will look at the 
results of that investigation.
    But I will also be looking to see what happened with regard 
to the creation of that letter, if there is any more 
information that I can glean on my own, before making 
determinations as to how people will be held accountable for 
the mistakes that they made.
    In taking into account in making that determination, what 
roles have they played in the Department, what good things have 
they done. I mean, one cannot look at these mistakes, I think, 
in isolation. One has to look at the totality of the person's 
service to the Department and then, on that basis, make a 
determination as to what the appropriate sanction will be. And 
that is what I will do.
    Mr. Gowdy. Mr. Chairman, I would ask unanimous consent for 
15 seconds just so I can follow up on one point.
    Mr. Smith. The gentleman continues to be recognized for 15 
seconds.
    Mr. Gowdy. Mr. Attorney General, it just seems to me that 
the policy is now going to be let's get the least knowledgeable 
person that we can to write the letter. I found the exchange 
between you and Chairman Sensenbrenner to be interesting on 
mens rea. The defense is that Mr. Weich didn't know what he 
didn't know, so we are going to get the least knowledgeable 
person in the Department of Justice to write the letters to 
Members of Congress. Is that what we can expect from now on?
    Attorney General Holder. No. What you can expect from this 
Department of Justice, as long as I am the Attorney General, is 
that we will do our best to get you accurate information as 
quickly as we can.
    And I actually think that one of the problems with regard 
to the Fast and Furious response is that we were rushed. If 
people--although if you look at, you know, that e-mail, all 
those e-mails that we sent around, you see people are really 
interacting with one another, trying to find information. But I 
think there was a time pressure there that, frankly, they 
should not have allowed in the process. They should have taken 
more time, sent a placeholder response or something like that, 
and if it took 2 weeks to get a response back to Congress, that 
would have been better than I think the 4 or 5 days that it 
took. I think that is certainly one of the problems. And there 
was a lesson learned.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Gowdy.
    The gentleman from Florida, Mr. Deutch, is recognized.
    Mr. Deutch. Thank you, Mr. Chairman.
    General Holder, welcome, thank you for spending the day 
with us. Thank you for your candid responses.
    I would note that sometimes facts get in the way of 
political theatrics. And I appreciate your willingness to share 
facts with us today.
    I would like to just revisit this discussion by taking a 
step back for a minute, General. Can you, since we have delved 
into the weeds, can we back up for a second? When did you learn 
about Operation Fast and Furious?
    Attorney General Holder. Sometime in the beginning of the 
year. It would have been I think after I got those letters from 
Senator Grassley on January the 31st. And at some point after 
that, I think sometime in February, I first learned about 
Operation Fast and Furious.
    Mr. Deutch. And what did you tell the U.S. Attorney's 
Offices? What notice did you send them when you learned of 
this?
    Attorney General Holder. After I ordered the Inspector 
General investigation, in March, I sent a directive to all of 
the U.S. Attorney's Offices that gun walking was not 
acceptable, not an acceptable technique or tactic, that it was 
contrary to DOJ policy. I had the Deputy Attorney General send 
that out to all of the U.S. Attorneys.
    Mr. Deutch. And that was after you ordered the 
investigation. And tell me about the investigation that you 
were ordering.
    Attorney General Holder. The order for the investigation 
was on February 28. I thought that I was getting conflicting 
information from people within the Department of Justice and 
what I was reading in the media and, frankly, what Congress was 
bringing to my attention. And it just seemed to me that I 
needed to have--find a mechanism to finally resolve what these 
conflicting positions, and as a result, I ordered--I asked the 
Inspector General to engage in this investigation.
    Mr. Deutch. And what is the time frame of that 
investigation?
    Attorney General Holder. I am not sure. They are--I know, 
they are feverishly working on it. When it will actually be 
completed, I don't know.
    Mr. Deutch. I appreciate that.
    There are 64,000 guns in Mexico is the number that I 
understand. Ninety-five percent of the weapons recovered from 
murders in Mexico, 95 percent, were traced to the United 
States. Tens of thousands of weapons were traced to the United 
States. It is--this discussion is vitally important, but I 
think it is equally important for us to broaden the discussion 
to one of how to address the fact that there are still tens of 
thousands of weapons that are winding up in Mexico from our 
border.
    Can you speak, General, to the actions the Congress can 
take in order to help stem that flow of guns?
    Attorney General Holder. Well, I think, certainly, if 
Congress were supportive of our funding requests to help ATF 
with these teams that we would like to send to the border--we 
tried to send 14 at one point. I think we only sent seven or 
eight because of funding problems, these ATF teams that have an 
ability to monitor the trafficking of weapons into Mexico. That 
would be helpful.
    There is a trafficking statute, if Congress would pass--
consider and pass that, I think that could help us as well. 
Support for that regulation that we put in place that deals 
with long guns and the sale of them over the course of, you 
know, a 5-day period. All of these things I think would be 
helpful. And a more protracted dialogue about what the nature 
of the problem is, which is a national security threat to the 
United States. You know, it is not only the executive branch 
that has ideas that I think could be useful. I am sure there 
are great ideas in Congress as well. And to the extent that we 
can identify them, work on them, and do so in a way that is 
respectful of and consistent with the Second Amendment, I think 
that would be very useful.
    Mr. Deutch. I agree. I also would suggest, General, that it 
is worth broadening this debate to within our own borders as 
well.
    I think it is worth noting that 100,000 people a year in 
America are shot in gun violence; 32,000 died from gun violence 
last year; 20,000 American children and teens are shot every 
year involving gun violence. Every day in America 270 people in 
America, 47 of them children and teens, are shot. And every 
day, 87 people die from gun violence in this country.
    This is a very important hearing. And this is an important 
discussion about this operation and the investigation that you 
have started.
    I think, unfortunately, the debate that we are not having 
often enough here is one about gun violence in this country, is 
one that acknowledges the fact that law enforcement officers in 
our country now need to carry assault weapons themselves in 
order to match the firepower of the criminals who carry assault 
weapons. There was a survey done of about two dozen police 
departments by the International Association of Chiefs of 
Police that since 2004, all of the agencies have either added 
assault weapons to patrol units or replaced existing weapons 
with military-style assault rifles. Military-style assault 
weapons are now necessary. They are needed by our police 
officers because assault weapons are flowing freely within our 
own borders.
    And while this discussion is important, we live in a 
country where the assault weapon ban has expired, and we see 
assault weapons now flowing through the streets, causing our 
law enforcement to have to carry assault weapons.
    The gun show loophole continues to exist. And it is about 
time, and I say this only rhetorically, I don't ask for your 
response, General, but it is about time that we focus as a 
Congress on the steps that we need to take to decrease gun 
violence in this country and to get these assault weapons, that 
are created for the sole purpose of killing people, off of our 
streets one and for all.
    I very much appreciate your being here, and I appreciate 
this exchange, General. Thanks so much for coming.
    Attorney General Holder. Thank you.
    Mr. Smith. Thank you, Mr. Deutch.
    The gentleman from Florida, Mr. Ross, is recognized.
    Mr. Ross. Thank you, Mr. Chairman.
    And Mr. Attorney General, I thank you for being here. I 
know it has been a rather long day for all of us. I just want 
to clarify your understanding of your being here today, because 
there was some confusion I think at the beginning. Is it your 
understanding that you are here under oath, that you are under 
penalties of perjury as to your testimony?
    Attorney General Holder. I am here to tell the truth, sure.
    Mr. Ross. Okay. So you believe that you are here under 
oath. Is that your understanding?
    Attorney General Holder. I am not sure I am technically 
under oath, but I have an obligation to tell the truth. I don't 
need to swear an oath; I am here to tell the truth.
    Mr. Ross. Thank you. I hope so. Thank you.
    Attorney General Holder. I am going to tell the truth.
    Mr. Ross. I want you to tell the truth. Because I want to 
ask you a little bit about your management style.
    Attorney General Holder. All right.
    Mr. Ross. You know, it looks as though that you have not 
really been reading any of the memos that you get on Fast and 
Furious. In fact, I think that your Chief of Staff Ken Ohlson 
has testified before the Senate Judiciary Committee that he 
also did not read the memos sent to your attention regarding 
Fast and Furious. And I am just curious, why would that be? You 
learn about this operation sometime after the first of the year 
this year, and yet it has been going on for a year. You are the 
number one law enforcement officer in this country. And yet you 
don't know what is going on. That would make me upset if I was 
in your position. Does it not you?
    Attorney General Holder. You have to understand these memos 
that you are talking about are weekly reports that come to the 
Office of the Attorney General, the Office of the Deputy 
Attorney General. And they are statements by the various 
components of what is going on in them. If you look at the very 
things that we have submitted to Congress that show what 
actually dealt with Fast and Furious in those weekly reports, 
they don't indicate anything about these bad tactics.
    Mr. Ross. Okay.
    Attorney General Holder. It talks only about Fast and 
Furious as if----
    Mr. Ross. But somewhere in the line, somewhere in the line 
of authority, you have been--you are not new to this. You were 
in the Office of Public Integrity, what, for 12 years?
    Attorney General Holder. Public Integrity Section.
    Mr. Ross. Yeah, Public Integrity Section for 12 years. You 
were Deputy Attorney General for 3 years. None of this 
structure is new to you. And yet there is somebody below you, 
and not your chief of staff, because he didn't read the memos, 
but there is somebody who is reading these memos. Why are they 
not reporting to you?
    Attorney General Holder. Because if you read the memos, 
read them, if you will read the memos you will see--and they 
are not memos, they are these excerpts--if you read these 
excerpts about Fast and Furious, all it says is that Fast and 
Furious essentially is going fine----
    Mr. Ross. But did you know what Fast and Furious was at 
that time? Did you know that it was akin to Wide Receiver but 
not the same?
    Attorney General Holder. No.
    Mr. Ross. Did you know what Fast and Furious was at all at 
that time?
    Attorney General Holder. No, I didn't know about Fast and 
Furious until about February of this year.
    Mr. Ross. Shouldn't you have known?
    Attorney General Holder. No, because Fast and Furious is an 
operation, a regional operation. There are all kinds of 
operations going on right now in the Justice Department about 
which I know nothing because of the way in which the Department 
of Justice is structured. They are handled by----
    Mr. Ross. Who specifically would have been reading those 
memos? Do you know by name who specifically would have been 
reading----
    Attorney General Holder. People on my staff.
    Mr. Ross. Who are their names?
    Attorney General Holder. The people--whoever had the 
portfolio for ATF with regard to their weekly memos, NDIC with 
regard to their weekly memos. Those are the people on my staff 
who would have had that responsibility, making the initial 
determination as to whether or not there was information 
contained in those reports that should be brought to my 
attention.
    Mr. Ross. Would you agree that one of the most fundamental 
principles of leadership is that you can delegate authority but 
you cannot delegate responsibility?
    Attorney General Holder. Okay. That sounds about right.
    Mr. Ross. And would you be willing then to say that you are 
responsible for Fast and Furious operation?
    Attorney General Holder. As I said, I am ultimately 
responsible for everything that happens in the Justice 
Department.
    Mr. Ross. Do you have any remorse for what happened with 
Agent Terry?
    Attorney General Holder. Of course, I do.
    Mr. Ross. Have you spoken to their family? Have you 
apologized to their family?
    Attorney General Holder. I have had contact with the family 
that I am not going into. The nature of my interaction with 
them is between me and them, and I will leave to them how they 
want to, if they want to, reveal that. People on my staff, in 
addition to me, are in constant touch with the Terry family.
    Mr. Ross. But you have not apologized to them, as I 
understand it.
    Attorney General Holder. I will say that I have expressed 
my feelings to them, and I am going to leave----
    Mr. Ross. You are the number one law enforcement officer in 
this country, and a law enforcement officer has died as a 
result of a botched operation. Don't you feel some sense of 
remorse that you ought to apologize to the family?
    Attorney General Holder. I feel great remorse, great 
regret, and I have expressed this to the Terry family. I am not 
going to reveal to you in this setting the nature of the 
interaction----
    Mr. Ross. Just real briefly. And I----
    Attorney General Holder [continuing]. The nature of the 
interaction that I have had with the Terry family. I am not 
going to do this in front of the media. I am not going do it in 
front of a Congressional----
    Mr. Ross. But you haven't apologized. That is all I wanted 
to establish. Now, you also testified in your opening statement 
that, as you state here, that used inflammatory and 
inappropriate rhetoric about particular one tragedy that 
occurred near the Southwest border in an effort to score 
political points. Do you feel that somebody is trying to score 
political points with this incident?
    Attorney General Holder. With the Fast and Furious 
incident?
    Mr. Ross. Yes.
    Attorney General Holder. Well, let's just say that some 
people have not let facts get in the way of----
    Mr. Ross. And you are here with clean hands to say that. 
Correct?
    Attorney General Holder. Excuse me?
    Mr. Ross. You are here with clean hands to say that. 
Because in your opening statement, you also allege, or you 
assert that, for example, earlier this year the majority of 
House Members voted to keep law enforcement in the dark when 
individuals purchase multiple semi-automatic rifles and 
shotguns. Mr. Attorney General, it seems to me that you are 
trying score as many political points as you are asserting that 
somebody else has done in this operation. And I find that 
rather offensive.
    Attorney General Holder. What I have said there is 
factually accurate. I don't have any problem with people, you 
know, criticizing me or the Department as long as what you say 
is factually based. That is fine. I mean I understand that. I 
am a big guy. I have been in Washington for a long time.
    The concern I have is where things are thrown at the 
Department generally, and me personally, that are not factually 
based. That is where I draw the distinction.
    Mr. Ross. I see my time is up. I yield back.
    Mr. Smith. Thank you, Mr. Ross.
    The gentleman Puerto Rico, Mr. Pierluisi, is recognized.
    Mr. Pierluisi. Thank you, Mr. Chairman.
    Thank you, General. I am sorry I haven't been able to be 
here as long as I wished. I had a parallel hearing I couldn't 
excuse myself from.
    But the first thing that comes to my mind is that I should 
commend you, because the little time I have been here, I have 
been watching you. And I keep seeing that you keep saying, as I 
have said, as I have said, as I have said. And that leads me to 
believe that you have been asked so many questions, similar 
questions, and you have had the candor, the demeanor, the 
patience to deal with them.
    And that is what we should be expecting, and we expect from 
the Attorney General. And so that is why I thank you, and I 
commend you.
    Attorney General Holder. Thank you.
    Mr. Pierluisi. Stay like that, though, because this hasn't 
finished.
    But I have a couple of questions, a couple of comments. 
First, I am personally concerned about the gun shows and, 
obviously, the straw purchasers. And putting aside this Fast 
and Furious operation, which you have already denounced, and 
you put a stop to it as soon as you learned of it, what else 
are you doing to deal with the straw purchases and the gun 
shows that seem to be, you know, like totally unregulated and 
so on?
    Attorney General Holder. Well, we have tried to make a 
priority the fight against gun violence. And we try to approach 
it in a variety of ways, by being aggressive in going after 
those who traffic in firearms, to go after those people, 
convicted felons, for instance, who should not have access to 
weapons, to try to come up with ways in which we keep guns out 
of the hands of felons. And that is really important, because 
if you look at the number of police officers who have been shot 
and, unfortunately, died over the last couple of years, the 
vast majority of them have been shot by people who were felons 
and who should not have had access to weapons. And so we do a 
whole variety of things to try keep guns out of hands of people 
who should not have them.
    Mr. Pierluisi. That is good.
    One thing that bugs me is that for 5 and a half years, we 
haven't had a permanent director at ATF. Yet I see lots of 
vacancies there. I see them in Puerto Rico, my district, my 
place; 45 percent of the slots are vacant, even though we have 
a huge crime issue and illegal gun issue. Is that affecting the 
level of resources that ATF has? I mean, is this lack of a 
permanent director affecting its mission, its ability to meet 
its mission?
    Attorney General Holder. I do think so. I think that 
internally an organization runs better when a person who is 
seen as the permanent head, the Senate-confirmed head is in 
charge. I think people respond better, although I think Todd 
Jones is doing a great job as the acting person now.
    But beyond that, a person who is Senate confirmed has the 
ability in the budget process to lobby for his or her 
organization in a way that a person who is doing it in an 
acting capacity cannot. You just have more heft within the 
Administration, in dealing with Congress, if you are the 
confirmed head. And I think because ATF has been so long 
without a confirmed head, it has not had the ability to argue 
as forcefully, as effectively as maybe some of the other 
components within the Department for resources.
    Mr. Pierluisi. Going back a bit to this Operation Fast and 
Furious, I am the first one who recognizes that Congress has 
every right to do oversight on this issue and investigate and 
so on. And I know you do, too.
    But one thing that comes to my mind is that the moment you 
learned of it and you did not get the right answers from your 
troops, that is when you said, I am referring this to Inspector 
General. And as far as I know, the Inspector General doesn't 
report to you, has wide discretion. Her objectivity hasn't been 
questioned. So this is in the proper hands. And is there an 
investigation ongoing at the moment? And what is--and another 
question I have is isn't that your modus operandi? When you see 
any potential irregularity in your Department, isn't the 
Inspector General the place you go to to try correct it? And 
then if there is going to be referrals, administrative actions, 
then they happen?
    Attorney General Holder. Yeah. I think that was--I thought 
that was the appropriate thing to do. I continue to think it is 
the appropriate thing to do, to have an independent Inspector 
General look at this situation, this flawed operation, and 
share with me and with the rest of the world what her 
conclusions will be.
    The Inspector General in the Justice Department has I think 
a deserved reputation for independence. There were a lot of 
investigations that were done by the IG during the Bush 
administration that I think generated a lot of attention and I 
think were indicative of the kind of independence that the IG 
is capable of doing when it was making determinations about the 
Justice Department in which the office sits. I am confident 
that with regard to this matter, the IG will be able to 
independently review this, as I described, flawed operation and 
come up with some facts upon which I can take further action.
    Mr. Pierluisi. Thank you.
    Mr. Chairman, I ask unanimous consent for 15 more seconds.
    Mr. Smith. The gentleman is recognized for another 15 
seconds.
    Mr. Pierluisi. Before I stop, my time has expired, I want 
to mention to you, Attorney General, that I have requested that 
ONDCP Director Gil Kerlikowske, the drug czar, craft what I 
call a Caribbean Border Initiative, something similar to the 
Southwestern Border Initiative. And the reason is 
straightforward. We are in a crisis in the Caribbean. Homicides 
at the worst possible level. More than half of the homicides in 
Puerto Rico are drug related. The situation merits particular 
attention, a similar initiative to the one you have in the 
Southwest. I hope I will count on your support.
    Attorney General Holder. The point you make is a very good 
one. The Administration has what is called the Caribbean Basin 
Security Initiative that is in place to deal with the island 
nations in the Caribbean and the problems that they are facing. 
I was in the Caribbean for 4 days, I guess 2 or 3 weeks ago, 
where I met with four heads of state, a variety of attorneys 
general and interior ministers to talk about--I was in the 
Dominican Republic. I was in Barbados. And I was in Trinidad. 
And I met with, as I said, those groups of people to deal with 
the situation that they are talking about. And as Mexico is 
becoming more successful, drugs are now starting to flow 
through the Caribbean Nations both to the United States and 
then through Africa into Europe.
    Mr. Pierluisi. And there are two American territories, 
Puerto Rico and the Virgin Islands right here.
    Attorney General Holder. That is very true. And the problem 
is one we have to confront. This is a national security issue 
that we have to confront.
    Mr. Smith. Thank you, Mr. Pierluisi.
    The gentlewoman from Florida, Ms. Adams, is recognized.
    Mrs. Adams. Thank you, Mr. Chairman.
    Mr. Holder, I am going to ask you some questions, and I 
think they are pretty easy yes or no questions. Let's see if we 
can go that route. Are you aware of a 1994 implementation DOJ 
was responsible----
    Attorney General Holder. I am sorry, I can't hear you too 
well.
    Mrs. Adams. 1994, there was an implementation, DOJ was 
responsible for the implementation of CALEA standards for law 
enforcement. Are you aware of that?
    Attorney General Holder. I am note sure of the year, but I 
certainly remember CALEA, yeah.
    Mrs. Adams. Does your agency operate under CALEA standards, 
or do you just implement them for law enforcement agencies 
across the country?
    Attorney General Holder. I am not sure, do we operate under 
them?
    Mrs. Adams. Yes. I mean do you have that type of--are you 
accredited? I mean, you accredit other agencies. Are you 
following the same type of accreditation, guidelines as 
agencies throughout our Nation?
    Attorney General Holder. I assume that we do, yes.
    Mrs. Adams. You assume. So then you would agree that 
supervisory personnel are accountable for those people and in 
the performance of the people underneath them. Correct?
    Attorney General Holder. Yeah. As a general rule, sure, 
yes.
    Mrs. Adams. You know, I listened intently because I am one 
of those law enforcement officers. I am not a lawyer or 
anything else. And I also have a husband on the wall over in 
Judiciary Square. I have a lot of friends on that wall also. So 
I am going to come at it a different area.
    I take issue with you saying that we are trying make 
political points with Officer Terry's death. To me it is 
personal. Okay? It is not political. One of our officers were 
killed with weapons that were allowed to walk. That should 
never have happened. I have worked in undercover. We never 
would allow weapons to walk.
    Now, I have heard you say if we get this provision that 
would--the long guns then it would help. The problem is under 
Fast and Furious, it wouldn't have helped, would it? Those 
weapons still would have walked, wouldn't they? Under Fast and 
Furious, would they have walked or not.
    Attorney General Holder. Yeah, but----
    Mrs. Adams. Yes.
    Attorney General Holder. One does not necessarily preclude 
the other. I mean, the fact is that under Fast and Furious, a 
flawed operation, and about which I have not tried to defend 
the conduct----
    Mrs. Adams. Correct. I understand that. But under that 
system, would they not have walked?
    Attorney General Holder. In the larger picture, there is no 
question that the implementation of that long gun rule will 
decrease the possibility that we will have further tragedies.
    Mrs. Adams. Mr. Attorney General, what my question was, 
under Fast and Furious, those weapons still would have walked, 
would they not? Yes or no?
    Attorney General Holder. You don't dictate. The weapons 
went into the flow of commerce because of mistaken decisions 
that were made by people in the Justice Department.
    Mrs. Adams. Let's talk about those decisions. Let's talk 
about those decisions. Here we have an operation you get memos 
on, but no one, not you nor your chief of staff is reading 
those memos. Somewhere along the lines, somebody has to know 
something because this is an operation that is not just within 
our borders; it is crossing international borders. So what 
rises to the level that the Attorney General of our United 
States needs to know? What is it that you need to know about 
that rises to that level that you have an operation crossing 
international borders? You now say that you didn't find out 
about it until after the fact, and after inquiries happened, 
after Mr. Terry--Officer Terry's death. What is it that would 
rise to the level that you would have to sign off on? Since 
going across international borders isn't one of them, could you 
tell me what would be?
    Attorney General Holder. Well, first of all, you are 
referring to these as memos. They were weekly reports.
    Mrs. Adams. Well, any operation. Is there an operation that 
would rise to the level that would need your sign off?
    Attorney General Holder. Sure, there are things that I have 
to sign off on.
    Mrs. Adams. But not this one, the one that crossed 
international borders.
    Attorney General Holder. No.
    Mr. Issa. Would the gentlelady yield briefly?
    Attorney General Holder. Can I answer the question first? 
One has to understand, and I would urge you, if you have not 
done this, to look at these weekly reports, and to look at 
exactly what it was----
    Mrs. Adams. Mr. Holder, I understand you had weekly 
reports. And I have got a couple more questions. I want to make 
sure I get them in. But I am asking you, and I ask you what 
would rise to the level for you to have to sign off on it? 
Because this apparently did not. You said you had weekly 
reports that you didn't review and your chief didn't review. 
That is the question I asked, and you said there is, so I am 
waiting to hear. But while I wait for that answer, let me ask 
you another question. Because one of my colleagues asked you 
about your e-mails. And you went straight to your work e-mail, 
hardly anybody has that. I am going to ask you a very direct 
question. You have a personal e-mail account. Did you at any 
time, at any time, e-mail on your personal account with Larry 
Breuer or Lanny Breuer and Gary Grindler in regards to Fast and 
Furious ever?
    Attorney General Holder. Ever?
    Mrs. Adams. Yes or no.
    Mr. Smith. The gentlewoman is recognized for an additional 
minute so the Attorney General can respond to her questions.
    Attorney General Holder. I don't know. I can tell you that 
I----
    Mrs. Adams. Would you check and get back with us? If you 
need some help, I am sure that your agency personnel can get 
into those computers.
    Attorney General Holder. Well, with regard to provision of 
e-mails, I thought I had made it clear that after February the 
4th, it is not our intention to provide e-mail information, 
consistent with the way in which the Justice Department has 
always conducted itself.
    The exception that I made, that I made in the hope that the 
Justice Department would be seen as transparent, was to go 
against that tradition and to make available deliberative 
material around the February 4 letter.
    Mrs. Adams. So, again, as in when you were here before and 
I asked you about a totally different issue, you were saying 
that you refused to provide that information. Is that correct?
    Attorney General Holder. I didn't hear you--you were 
talking at the same time I was talking. And please, she can 
have more time. I don't want to cut off your time. I just 
didn't hear the question.
    Mrs. Adams. Previously, in another Committee, when you were 
here earlier, I asked you another question. You said you would 
not answer that question. Now you are saying that you won't 
provide those e-mails because that is not consistent with 
whatever policy was previous. I am asking you if there is clean 
hands here, will you provide those e-mails to this Committee?
    Attorney General Holder. As I said----
    Mrs. Adams. Yes or no?
    Attorney General Holder. I am going to act in a way that is 
consistent with the all Attorneys General before me.
    Mrs. Adams. That is not my question, Attorney General. You 
know, with due respect, that was not my question. I asked you, 
with clean hands, would you supply those e-mails, whether it is 
work related or personal e-mails, as they apply to anything 
that had to do with Fast and Furious?
    Attorney General Holder. And as I said----
    Mrs. Adams. To this Committee? Yes or no?
    Attorney General Holder. As I said, with regard to the 
Justice Department as a whole----
    Mrs. Adams. I yield back, Mr. Chair. I am not going to get 
an answer.
    Attorney General Holder. As I said, with respect to the 
Justice Department as a whole, and I am certainly a member of 
the Justice Department, we will not provide memos after 
February the 4th. And that is a way in which we are----
    Mrs. Adams. With regards to e-mails. I didn't ask memos. I 
said e-mails.
    Attorney General Holder. Emails, memos, consistent with the 
way in which the Department of Justice has always conducted 
itself in its interaction----
    Mrs. Adams. What about prior to February 4?
    Mr. Smith. The gentlewoman's time has expired.
    The answer was no, is that correct, Mr. Attorney General.
    Attorney General Holder. No, but consistent with the way in 
which the Justice Department has always conducted itself. This 
is not something that I am making up in terms of new policy.
    Mr. Smith. I know. But you used the word ``not.'' I took 
``not'' to be no.
    Attorney General Holder. Oh, I said no. I am saying no, but 
again, consistent with DOJ policy.
    Mr. Issa. Mr. Chairman?
    Mr. Smith. Thank you, Mrs. Adams.
    The gentleman from Arizona, Mr. Quayle, is recognized.
    Mr. Quayle. Thank you, Mr. Chairman.
    And thank you, Attorney General Holder, for being here.
    I want to kind of go back to the February 4 letter as well 
that Mr. Gowdy was talking about earlier, because when we were 
looking over some of the e-mails between DOJ, ATF, and the U.S. 
Attorney's Office in Phoenix, and trying to kind of parse the 
language of how they were going to respond to Senator 
Grassley's letter----
    Attorney General Holder. I am not hearing you very well on 
that mike.
    Mr. Quayle. Is that better?
    Attorney General Holder. Okay.
    Mr. Quayle. Okay. One of the things, just parsing the 
language and figuring out how to respond properly to Senator 
Grassley in the letter, for me, it kind of looked like you were 
starting--that group was starting to move into a not a coverup 
mode, but a mode that really is more intent on language rather 
than providing a straightforward response. At any time, 
wouldn't it have been easier, because the letter was actually 
addressed to the director, Acting Director Melson, wouldn't it 
have been easier, and do you know or if anybody else knows if 
Acting Director Melson actually just said, hey, why don't I go 
in to Senator Grassley, talk to him, brief him, brief his staff 
on what the operation is all about rather than relying on 
somebody who did not have the requisite information to draft a 
letter that turned out to be factually inaccurate that you 
later had to withdraw?
    Attorney General Holder. Well, I think a couple things 
there. Acting Director Melson actually did come to the 
Committee headed by Chairman Issa on his own----
    Mr. Quayle. But that was well after the letter.
    Attorney General Holder. That is fine. That is fine. That 
is true. But he went in there and spoke to them on his own 
after--before we had scheduled an appointment with him. So he 
did that on his own. But with regard to the formation or the 
formation of that letter, ATF was intimately involved. If you 
look at the e-mails, you will see that you have people from ATF 
at a high level here in Washington, as well as ATF people in 
the field who were involved in the interaction, the back and 
forth of that e-mail traffic trying to get accurate information 
to send back to that congressional inquiry.
    Mr. Quayle. And I would just say sometimes, it is just 
easier to just have a short briefing. And I don't know if--did 
the acting director offer to go and meet with Senator Grassley 
at that time, and then was he rebuffed and told not do that?
    Attorney General Holder. No.
    Mr. Quayle. He was not?
    Attorney General Holder. No. I think what we were doing was 
responding to a letter that was sent to us and that expected a 
letter back in response.
    Mr. Quayle. Well, it did say briefing. I am just curious, 
because I thought that would probably be the most efficient use 
of time and resources, rather than the back and forth of making 
sure that we have the language right.
    Attorney General Holder. My guess would be that having the 
Director show up would be the person who would have to get 
briefed in order to do that exchange of information. It is 
probably better to have the people who were lower down and 
closer to the facts be the ones who were involved. If you look 
at the e-mails, you will see that that was the case.
    Mr. Quayle. In talking about that letter, do you know when 
was the last time that the Department of Justice actually had 
to withdraw a letter that it sent to Congress?
    Attorney General Holder. I don't know.
    Mr. Quayle. So is it a rare thing or is it----
    Attorney General Holder. Sure it is a rare thing.
    Mr. Quayle. It is a pretty rare thing. I mean, I know that 
Mr. Gowdy already addressed this issue, but what sort of 
policies have you put in place, or structural reforms have you 
put in place so that something like the factually, grossly 
factually inaccurate letter that was sent to Congress doesn't 
happen again? And if it does, that the Department of Justice 
will act more swiftly in withdrawing that letter so that the 
Members of Congress can have accurate information?
    Attorney General Holder. Well, I think we have learned 
lessons here. And we have had requests for information 
regarding Fast and Furious since that time that, frankly, we 
have taken more time to respond to. We have sent interim 
responses to indicate that we are in the process of looking at 
information, gathering information to make sure that what we 
send is in fact accurate.
    I mean, you got to understand something. It is rare, as you 
said, and it is something about which I have great regret. This 
is not something I want to have happen on my watch. But I want 
to make sure that it doesn't happen again. People who are in 
the Department who were involved in that process and have 
observed it I think have all been sensitized in a way that 
perhaps we were not before, which is not to say that people 
were cavalier, but that I think we need to up our game and be 
even more careful than we had been in the past.
    Mr. Quayle. Okay. Have you put into place other structural 
reforms to make sure that--I mean, you have stated the Fast and 
Furious was just an abject failure and had fundamental flaws--
that are put into place so that something like Fast and Furious 
does not happen again?
    Attorney General Holder. Yeah. I think that if you will 
look at all of the things that have been done at ATF, there is 
for instance now a protocol that has to be followed at ATF when 
gun trafficking is observed or when you are doing gun 
trafficking investigations. You cannot lose sight of guns. You 
have to make a decision about when an arrest is going to occur. 
What happened in Fast and Furious under the new regulations, 
and assuming that they are followed, it could not happen. In 
addition, I have sent out, through the Deputy Attorney General, 
an edict that makes very clear that gun walking is simply an 
unacceptable practice.
    Mr. Quayle. I know that you are aware of this, but there is 
a number of Members of Congress that have called for your 
resignation over this. So I just want to know, will you be 
resigning over--because of the fallout from Fast and Furious?
    Attorney General Holder. I have no intention of resigning. 
I am the Attorney General who put an end to these misguided 
tactics that were used in Fast and Furious when I found out 
about them. I am also the Attorney General who called on the 
Acting Inspector General to investigate this matter. I am also 
the Attorney General--no, you know----
    Mr. Smith. The gentleman's time has expired.
    Mr. Quayle. Could I ask unanimous consent for 15 more 
seconds?
    Mr. Smith. The gentleman is recognized for an additional 15 
seconds.
    Attorney General Holder. More time is fine. If I could 
finish my answer.
    Mr. Quayle. I was just asking you just a yes or no, and 
that is fine. But do you think that Mr. Breuer, Mr. Grindler 
should resign or be removed from their posts?
    Attorney General Holder. On the basis of the information 
that I have now, no.
    Mr. Quayle. What about Mr. Weinstein or Mr. Siskel, if we 
are going down another level? I know Mr. Siskel is over at the 
White House Counsel, but do you think that they should resign 
or be removed from their posts?
    Attorney General Holder. On the basis of the information I 
have now, no.
    Mr. Quayle. Okay. Thank you.
    Mr. Smith. Should anyone resign?
    Attorney General Holder. Again, on the basis of the 
information I have at this point, no. Now, there have been 
resignations that have occurred. Let's not think that nothing 
has happened here since Fast and Furious was exposed. 
Resignations have occurred. People have been moved in terms of 
personnel actions. And as I indicated, I guess in one of my 
responses to somebody, the personnel actions that I have 
ordered are initial ones, and I will be monitoring the 
situation to see if there are other things that I should be 
doing.
    Mr. Smith. Thank you.
    Thank you, Mr. Quayle.
    The gentleman from Arkansas, Mr. Griffin.
    Mr. Griffin. Thank you, Mr. Chairman. Thank you, General 
Holder for being here today, I just want to follow up on a few 
points my colleagues have touched on today. First of all, I 
want to talk a little bit about Ms. Adams' point that she was 
making, and that is, certainly I worked at main Justice, I 
worked in the criminal division with Assistant Attorney General 
Chertoff. I understand how much paper comes across your desk 
and everyone else's desk. I understand that time is limited and 
you have to do the best you can to process a lot of 
information, I get that. But I think Ms. Adams raises a good 
point, and that is, at what point do you believe the assistant 
Attorney General, or someone else, had or has an obligation to, 
particularly in your case, with Lanny Breuer, because you have 
a close relationship, or a longstanding relationship with him, 
at what point is there an obligation for one of these senior 
officials to raise something like this to your level? I 
understand that they are in briefings and you can't read them 
all.
    There is a lot of stuff that my staff puts in my inbox, but 
they know that if it is something really urgent, they don't 
stick it in my in box, they call me, they come in my office, 
they get in my face and say, hey, this is very important.
    So this is not just an operation, or this was not just an 
operation. This was, in fact, an international operation if 
taken--if looked at broadly, because the consequences of these 
firearms going across a border, and that was part of the plan. 
So my question would be, at what point is someone expected to 
raise something like this knowing that if it were maybe Canada 
or the U.K. Or some other country where we were trying to let 
guns walk. We certainly would, I would think, we would want to 
inform them or work with them. Help me understand what your 
perspective is on that, because at some level, at some level, 
someone has to walk into your office and say, this should not 
be occurring.
    I want to give you one more fact on that, Mr. Breuer 
indicated that when he learned about gun walking in early 2010 
instead of calling the head of the ATF, or telling you, he just 
asked two of his deputies to raise concerns with folks at the 
ATF. And so in light of what has happened, who and when should 
they come to you about something like this?
    Attorney General Holder. I think that is a very legitimate 
question. And Lanny Breuer has indicated that the information 
that he obtained about Operation Wide Receiver and the gun 
walking that happened there, or the failure of the mission to 
stop the flow of guns into Mexico, that is something that he 
should have brought to my attention, to the attention of the 
Deputy Attorney General. I think that is the kind of 
information that, in fact, should be. If we had an instance 
where you had evidence of gun walking, either the assistant--
whoever had possession of that information, the Assistant 
Attorney General, people in my staff, that is the kind of 
information that should have been brought to my attention. As 
Mr. Breuer indicated, he said that he made a mistake in not 
doing so.
    Mr. Griffin. Are there set policies on that now?
    Attorney General Holder. I am not sure there are set 
policies as much, you know, you have to look at this 
information and you have got to know what are the kinds of 
things that are routine and need not be brought to somebody's 
attention, that which is important.
    Mr. Griffin. I am limited on time so I am going to try to 
move quickly. I would just suggest that regardless of what 
other issues might arise at the Department of Justice, you 
might want to put gun walking on a list somewhere as something 
that raises flags.
    The other question--I see my time is running out. I want to 
go back to what Mr. Lungren asked about earlier, he referred to 
a CBS article that talked about using antidotal cases to 
support a demand letter on long gun multiple sales, basically 
using a situation created by the government to support a policy 
argument folks in the government want to make. And your 
response was that that was somehow unrelated, or it was so far 
back in time that maybe it was unconnected. What exactly was 
your response on that to Mr. Lungren?
    Attorney General Holder. The statement, the notion that 
somehow this operation was used to justify the request for that 
regulation is simply not accurate. It did not happen that way. 
The operation was conducted separate and apart from any desire 
to have this long gun regulation, that is simply not there. So 
that just didn't happen.
    Mr. Griffin. Mr. Chairman, I ask unanimous consent for 30 
more seconds.
    Mr. Smith. The gentleman is recognized without objection 
for another 30 more seconds.
    Mr. Griffin. I look further down in that CBS news article 
and it says, ``On January 4 of 2011,'' because the quote 
referenced earlier was July of 2010--''on January 4, 2011, as 
ATF prepared a press conference to announce arrests in Fast and 
Furious, Newell saw it as another time to address multiple sale 
on long gun issue.'' And the next day he e-mailed--Chait e-
mailed Newell, ``Bill, well done yesterday. In light of our 
request for demand letter 3, this case could be a strong 
supporting factor, if we could determine how many multiple 
sales of long guns occurred during the course of this case.
    I know I am running out of time. I just ask you to take 
another look at that. You may not have intended it, I don't 
know what was going on over there, but clearly, some folks had 
what happened in Fast and Furious, they had that in mind as 
something to use to support a policy that people in this 
Administration are advocating for. So I just ask you to take a 
second look at that, this is an article on CBS News Web site 
yesterday. Thank you, thank you, Mr. Chairman, and thank you 
for being here.
    Attorney General Holder. Clearly an attempt to use Fast and 
Furious as a way to bolster the request for that long gun 
regulation would have been foolhardy given the flawed way in 
which Fast and Furious was carried out.
    Mr. Smith. Thank you, Mr. Griffin. The very patient 
gentleman from Nevada, Mr. Amodei is recognized.
    Mr. Amodei. Thank you, Mr. Chairman, and thank you General 
Holder for your patience, too. How would you describe your 
leadership style?
    Attorney General Holder. I am sorry?
    Mr. Amodei. How would you describe your leadership style?
    Attorney General Holder. I think I am a person who 
delegates pretty well. I think I set goals that I expect people 
to meet. I am not a micromanager, I hire good people, I invest 
them with the authority to carry out that which I expect them 
to do. Try to give them the resources they need in order to do 
their jobs. And I would think that on the basis of what I--
being immodest here, what I have been able to do over the last 
couple years, 2\1/2\ years, whatever it has been at the Justice 
Department, I think I have done a good job in managing the 
Justice Department.
    Mr. Amodei. Do you lead from the front?
    Attorney General Holder. I'm sorry?
    Mr. Amodei. Do you lead from the front?
    Attorney General Holder. Yeah, I think I do. I don't ask 
anything of the people who work for me that I would not be 
willing to do myself. I work hard, I work long hours, as do 
they.
    Mr. Amodei. Thank you. Mr. Chairman, I would like to yield 
the balance of my time to my colleague from South Carolina.
    Mr. Smith. The gentleman from South Carolina, Mr. Gowdy has 
the balance of the time.
    Mr. Gowdy. I thank the gentleman. Mr. Holder there were a 
series of wiretap applications made to the Department of 
Justice in Fast and Furious. Do you recall how many?
    Attorney General Holder. No.
    Mr. Gowdy. Several. Would you disagree with that?
    Attorney General Holder. I am sorry?
    Mr. Gowdy. Several?
    Attorney General Holder. I don't know how many, but I have 
to say that with regards to discussions of wiretaps there is a 
limited amount of information that I am going to be able to 
share in this forum.
    Mr. Gowdy. Right. And I am not going to ask you thinking 
that is going to get you in trouble with a Federal judge.
    Attorney General Holder. Please don't.
    Mr. Gowdy. Those applications are voluminous, they are long 
and they are factual predicates to support the application for 
a wiretap, correct?
    Attorney General Holder. Speaking just generally and not--I 
won't get in any trouble, speaking generally, that is accurate.
    Mr. Gowdy. Are you convinced there is no discussion of gun 
walking in any of those T-33 applications?
    Attorney General Holder. Again, I can't get into the 
specifics.
    Mr. Gowdy. Have you read them?
    Attorney General Holder. I have not read them.
    Mr. Gowdy. Who approves them? Whose division is that? Is 
that the criminal division?
    Attorney General Holder. That is the criminal division.
    Mr. Gowdy. That would be Mr. Breuer?
    Attorney General Holder. No, he only approves the roving 
wiretaps.
    Mr. Gowdy. Is he the head of the criminal division?
    Attorney General Holder. Right but there are no roving 
wiretaps in Operation Fast and Furious.
    Mr. Gowdy. But there are several wiretaps, wiretaps that 
have long factual predicate supporting the application.
    Attorney General Holder. I not seen them but I make that 
assumption.
    Mr. Gowdy. You haven't read them, so you can't say whether 
or not yet another Department of Justice official would have 
been put on notice that gun walking was part of Fast and 
Furious.
    Attorney General Holder. I can't say that, but you cannot 
say it either.
    Mr. Gowdy. No, I can't.
    Attorney General Holder. You can't say the converse.
    Mr. Gowdy. No, I can't. Who does Mr. Weich report to?
    Attorney General Holder. Who does Mr.----
    Mr. Gowdy. Weich.
    Attorney General Holder. Ron Weich?
    Mr. Gowdy. Yeah.
    Attorney General Holder. I guess on the Justice Department 
chart probably through the Deputy Attorney General to me.
    Mr. Gowdy. What I am trying to get at, your defense of your 
friend Lanny Breuer, I guess at some level is admirable, I just 
don't understand it. It took me a minute to get you to admit 
that he knew that guns were being walked and there are scores 
of e-mails where he admitted it. He assigned a prosecutor to 
Fast and Furious. This is someone who, on his own Web site, 
boasts of being one of the best 100 lawyers in America. He knew 
that guns were being walked; he assigned a prosecutor to Fast 
and Furious; he forwarded an e-mail to his home computer of a 
draft of Mr. Weich's letter, and he is going to stick around, 
Mr. Attorney General?
    Attorney General Holder. Well, you are saying things. See 
you are doing what I asked you to not before and that is 
conflating things. He said--I said he knew about and he 
admitted he knew about gun walking when it came to Operation 
Wide Receiver. Shortly after.
    Mr. Gowdy. Mr. Holder, the letter is very specific. ATF 
makes every effort to interdict weapons that have been 
purchased illegally, and prevent their transportation to 
Mexico, is that true or false?
    Attorney General Holder. That is not accurate, but Mr. 
Breuer didn't--as he indicated, he said he did not have 
anything do did with the creation.
    Mr. Gowdy. He forwarded this letter, a draft to his home 
computer. It does not take a long walk to get that he forwarded 
it to his home computer to read it.
    Attorney General Holder. I am only going by what Mr. Breuer 
has testified to, which is that he did not think that he 
reviewed the letter--reviewed the drafts before they went out. 
That is what he testified to.
    Mr. Gowdy. But you agree with me----
    Mr. Issa. Mr. Chairman.
    Mr. Pierluisi. Regular order, Mr. Chairman. The witness 
should be allowed to finish.
    Mr. Issa. Would the gentleman from Nevada be willing to 
further yield?
    Mr. Smith. The gentleman from South Carolina has the time.
    Mr. Gowdy. I will be happy to yield to the gentleman from 
California.
    Mr. Issa. I thank the gentleman. Mr. Attorney General, if 
there were seven wiretaps and they were all approved under the 
criminal justice committee, the criminal division, certainly we 
would hope that between now and the time you next appear, you 
would read them as would Lanny Breuer in detail since he 
approved them through his minions.
    Attorney General Holder. Well----
    Mr. Issa. Let me just go through one thing that I have to 
ask you, yesterday----
    Attorney General Holder. Understand something----
    Mr. Issa [continuing]. We became aware, Mr. Attorney 
General----
    Attorney General Holder. Please.
    Mr. Pierluisi. Mr. Chairman, regular order. The time has 
expired.
    Mr. Issa. Mr. Attorney General, I didn't ask you a 
question, I simply said I would like you to be aware.
    Mr. Smith. The gentleman from California has the time. The 
gentleman from California is granted an extra 1 minute to allow 
the AG to respond.
    Mr. Issa. There was no question. Here is the question----
    Attorney General Holder. No----
    Mr. Issa. Yesterday, Mr. Attorney General, we became aware 
of the e-mail between----
    Mr. Pierluisi. Mr. Chairman.
    Mr. Issa.--Lanny Breuer and his deputy Jason Weinstein, 
about Fast and Furious in March time frame that they exist. 
Some of these, actually all of these, have been withheld from 
the Committee. Will you agree to turn over those communications 
in the March time frame between Lanny Breuer and his deputy, 
Jason Weinstein?
    Attorney General Holder. March of what year?
    Mr. Issa. 2011.
    Attorney General Holder. As I have indicated we are not 
going to be turning over materials after February----
    Mr. Issa. Are you aware that you are, in fact, by doing so, 
in the fact that we already issued from the Oversight Committee 
a subpoena, you are standing in contempt of Congress unless you 
have a valid reason that you express it, that you provide logs 
which you refused to provide for the other information, 
otherwise you will leave the Committee no choice but to seek 
contempt for your failure to deliver, or to cite a 
constitutional exemption.
    Mr. Smith. The gentleman's time has expired, the Attorney 
General will be allowed to respond.
    Attorney General Holder. We will respond in a way that is 
consistent with the way in which the Justice Department has 
always responded to those kinds of----
    Mr. Issa. That is not the question, Mr. Attorney General.
    Attorney General Holder. Can I----
    Mr. Pierluisi. Regular order, Mr. Chairman.
    Mr. Smith. Please proceed, Mr. Attorney General.
    Attorney General Holder. We will respond in a way that 
other Attorneys General have, other justices.
    Mr. Issa. John Mitchell responded that way too.
    Mr. Pierluisi. Regular order, Mr. Chairman.
    Attorney General Holder. Was that called for? Mr. Chairman?
    Mr. Pierluisi. He should be allowed to----
    Mr. Smith. The gentleman from South Carolina has the time, 
but I am going allow the Attorney General. Do you have any 
further response to that question?
    Mr. Issa. To the question, Mr. Chairman, about whether or 
not he understood that it was in fact an act of contempt unless 
they recited a constitutional exemption and still had a 
responsibility to provide us logs, both of which they are 
refusing to do in testimony here today.
    Mr. Smith. The gentleman from South Carolina's time has 
again expired. Do you have a final response, Mr. Attorney 
General?
    Attorney General Holder. Ms. Adams asked me about--
Congresswoman Adams asked me about political points. The 
reference to John Mitchell, let's think about that, think about 
that, at some point--as they said in the McCarthy hearings at 
some point, have you no shame? But in any case, I will say that 
with regard to--we have made our point clear how we will 
respond. With regard to the question of wiretap information, 
Mr. Gowdy knows there is only so much I will be able to say 
about wiretap information. So reading it should not lead 
anybody to believe that I am going to be free, unless I--you 
want to get me in real trouble with a Federal judge about 
what's contained in a wiretapping.
    Ms. Adams. Mr. Chair.
    Mr. Smith. I thank you, Mr. Attorney General. Mr. Attorney 
General, thank you for your testimony today. Without objection, 
all Members will have 5 legislative days to submit additional 
written questions for the witness or additional materials for 
the record. I ask unanimous consent that the gentleman from 
Colorado, Mr. Polis, be assigned to the Subcommittee on Courts, 
Commercial and Administrative Law and the Subcommittee on 
Crime, Terrorism and Homeland Security. Is there an objection? 
If not, so ordered. The hearing is adjourned.
    [Whereupon, at 4:05 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Lamar Smith, a Representative in 
   Congress from the State of Texas, and Chairman, Committee on the 
                               Judiciary

    Attorney General Eric Holder appeared before the House Judiciary 
Committee last May and we appreciate his willingness to appear today to 
address many issues, including questions about his previous testimony.
    While I am pleased to welcome back Attorney General Holder, I am 
disappointed in the Department's repeated refusal to cooperate with 
this Committee's oversight requests.
    This lack of cooperation is evident in the Department's handling of 
inquiries related to the Bureau of Alcohol, Tobacco, Firearms and 
Explosives' (ATF's) Operation Fast and Furious, and the death of Border 
Patrol Agent Brian Terry in December 2010.
    Operation Fast and Furious intentionally allowed straw buyers for 
criminal organizations to purchase hundreds of guns so that the ATF 
could track them across the U.S.-Mexico border. But Fast and Furious 
had a fatal flaw. Once purchased, there was no attempt to follow the 
firearms. Instead, the guns were allowed to cross over into Mexico 
without any coordination with Mexican authorities or any attempt to 
track the firearms.
    Tragically, two of the guns were found at the scene of the shooting 
death of Customs and Border Patrol Agent Brian Terry. And by the 
Department's own admission, hundreds of guns remain unaccounted for.
    It's been a year since the death of Agent Terry. Yet, many 
questions remain as to how such a reckless and dangerous law 
enforcement program was allowed to operate under the Justice 
Department.
    And inconsistent statements from Department officials about who 
knew what and when have only raised more concerns.
    I am also disappointed in how the Department has responded to my 
oversight requests regarding Justice Kagan's involvement in health care 
legislation or related litigation while she served as United States 
Solicitor General.
    Despite claims from Obama administration officials that then-
Solicitor General Kagan was ``walled off'' \1\ from discussions 
regarding the President's health care law, recently released e-mails 
indicate there may be more to the story.
---------------------------------------------------------------------------
    \1\ E-mail from Principal Deputy Solicitor General Neal Katyal to 
Solicitor General Elena Kagan (Jun 15, 2010).
---------------------------------------------------------------------------
    On March 21, 2010, an e-mail from the Deputy Solicitor General 
forwarded to Solicitor General Kagan contained information about a 
meeting at the White House on the health care law and asked: ``I think 
you should go, no? I will regardless but feel this is litigation of 
singular importance.'' \2\ Solicitor General Kagan responded by asking 
him for his phone number.
---------------------------------------------------------------------------
    \2\ E-mail from Principal Deputy Solicitor General Neal Katyal to 
Solicitor General Elena Kagan (Mar. 21, 2010).
---------------------------------------------------------------------------
    We also know from the e-mails that she personally supported the 
legislation's passage. In a March 21, 2010, exchange with a Justice 
Department colleague discussing the health care legislation, Ms. Kagan 
exclaims, ``I hear they have the votes, Larry!! Simply amazing.'' \3\
---------------------------------------------------------------------------
    \3\ E-mail from Principal Deputy Solicitor General Neal Katyal to 
Justice Department Counselor Lawrence Tribe (Mar. 21, 2010).
---------------------------------------------------------------------------
    These e-mails reveal inconsistencies with the administration's 
claims that then-Solicitor General Kagan was walled off from this 
issue.
    To help clear up any confusion, I wrote the Justice Department to 
get additional documents and conduct staff interviews. It took nearly 
four months before the Department sent a one page response that denied 
my request.
    The Department did not assert any legal privilege over the 
requested information but simply refused to comply with the request. 
That is not a sufficient answer.
    Health care legislation was passed by the Senate on December 24, 
2009. On January 8, 2010, Ms. Kagan told the Deputy Solicitor General 
that she ``definitely would like the Office of the Solicitor General to 
be involved in'' \4\ preparations to defend against challenges to the 
pending health care proposals.\5\
---------------------------------------------------------------------------
    \4\ E-mail from Principal Deputy Solicitor General Neal Katyal to 
Brian Hauck, Senior Counsel to Associate Attorney General Thomas 
Perrelli (Jan. 8, 2010).
    \5\ Health care passed the House on March 21, 2010, and was signed 
into law on March 23, 2010.
---------------------------------------------------------------------------
    Ms. Kagan found out she was being considered for a potential 
Supreme Court vacancy on March 5, 2010.\6\ So the issue is how involved 
was she in health care discussions between January 8 and March 5. Just 
as President Nixon had an eighteen and a half minute gap, does Ms. 
Kagan have a two month gap?
---------------------------------------------------------------------------
    \6\ The Nomination of Elena Kagan to be an Associate Justice of the 
Supreme Court of the United States Before the S. Comm. on the 
Judiciary, 111th Cong. (2010) (written response of Elena Kagan to 
Supplemental questions from Senators Jeff Sessions, Orrin Hatch, 
Charles Grassley, Jon Kyl, Lindsey Graham, John Cornyn and Tom Coburn)
---------------------------------------------------------------------------
    The Office of the Solicitor General is responsible for defending 
the positions of the federal government in litigation before the 
Supreme Court. So it was the duty of then Solicitor General Kagan to 
participate in meetings and discussions regarding the legal defense 
strategy for the President's health care proposal.
    It would have been a surprising departure from her responsibilities 
for Solicitor General Kagan not to advise the Administration on the 
health care bill.
    But if the Department continues to assert that she was ``walled off 
from day one'' \7\ from discussions, then they should be willing to 
provide Congress and the public with documentation to prove that 
statement.
---------------------------------------------------------------------------
    \7\ E-mail from Principal Deputy Solicitor General Neal Katyal to 
Solicitor General Elena Kagan (Jun 15, 2010).
---------------------------------------------------------------------------
    The law clearly states that Justices must recuse themselves if they 
``participated as counsel, advisor or material witness concerning the 
proceeding or expressed an opinion concerning the merits of the 
particular case'' \8\ while they worked in a government capacity.
---------------------------------------------------------------------------
    \8\ 28 U.S.C. 455(b)(3).
---------------------------------------------------------------------------
    The public has a right to know the extent of Justice Kagan's 
involvement with this legislation as well as any previously stated 
legal opinions about the legislation while she served as Solicitor 
General.
    The NFL would not allow a team to officiate its own game. If 
Justice Kagan was part of the Administration's team that put the health 
care mandate into play, she should not officiate when it comes before 
the Supreme Court.
    If the Department has nothing to hide, why not provide Congress 
with the requested information? The continued refusal to cooperate with 
legitimate oversight inquiries only heightens concerns that she might 
have a conflict of interest.
    President Obama has promised an ``open and transparent 
government.'' \9\ Unfortunately, we often see a closed and secretive 
Justice Department.
---------------------------------------------------------------------------
    \9\ Steven VanRoekel & Aneesh Chopra, Data.gov Goes Global, 
WhiteHouse.gov (Dec. 5, 2011) available at, http://www.whitehouse.gov/
blog/2011/12/05/datagov-goes-global.
---------------------------------------------------------------------------
    I know all members of the Committee look forward to asking 
questions on these and other issues.

                                <F-dash>

  Response to Post-Hearing Questions from Judith C. Appelbaum, Acting 
   Assistant Attorney, General, Office of Legislative Affairs, U.S. 
                         Department of Justice

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
